<html>
<title> - U.S. FISH AND WILDLIFE SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, AND NATIONAL MARINE FISHERIES SERVICE BUDGET REQUESTS FOR FISCAL YEAR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   U.S. FISH AND WILDLIFE SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC 
ADMINISTRATION, AND NATIONAL MARINE FISHERIES SERVICE BUDGET REQUESTS 
                         FOR FISCAL YEAR 2002
=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              May 3, 2001

                               __________

                           Serial No. 107-24

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov




                        U.S. GOVERNMENT PRINTING OFFICE
72-133                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001















                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                      George Miller, California
  Vice Chairman                         Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana        Dale E. Kildee, Michigan
Jim Saxton, New Jersey                  Peter A. DeFazio, Oregon
Elton Gallegly, California              Eni F.H. Faleomavaega, American Samoa
John J. Duncan, Jr., Tennessee          Neil Abercrombie, Hawaii
Joel Hefley, Colorado                   Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland            Frank Pallone, Jr., New Jersey
Ken Calvert, California                 Calvin M. Dooley, California
Scott McInnis, Colorado                 Robert A. Underwood, Guam
Richard W. Pombo, California            Adam Smith, Washington
Barbara Cubin, Wyoming                  Donna M. Christensen, Virgin Islands
George Radanovich, California           Ron Kind, Wisconsin     
Walter B. Jones, Jr., North Carolina    Jay Inslee, Washington
Mac Thornberry, Texas                   Grace F. Napolitano, California 
Chris Cannon, Utah                      Tom Udall, New Mexico
John E. Peterson, Pennsylvania          Mark Udall, Colorado
Bob Schaffer, Colorado                  Rush D. Holt, New Jersey
Jim Gibbons, Nevada                     James P. McGovern, Massachusetts
Mark E. Souder, Indiana                 Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                     Hilda L. Solis, California
Michael K. Simpson, Idaho               Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado            Betty McCollum, Minnesota
J.D. Hayworth, Arizona               
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                













                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 3, 2001......................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Ortiz, Hon. Solomon P., a Representative in Congress from the 
      State of Texas.............................................     4
        Prepared statement of....................................     4
        New York Times article dated May 2, 2001, entitled ``Two 
          Breeds of Survivor: Gulf Shrimp and Texas Shrimpers'' 
          submitted for the record...............................    28
    Underwood, Hon. Robert A., a Delegate to Congress from Guam..     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Gudes, Scott B., Acting Under Secretary and Administrator, 
      National Oceanic and Atmospheric Administration, U.S. 
      Department of Commerce.....................................     5
        Prepared statement of....................................    10
    Jones, Marshall, Acting Director, Fish and Wildlife Service, 
      U.S. Department of the Interior............................    31
        Prepared statement of....................................    33
        Response to questions submitted for the record...........    66











   OVERSIGHT HEARING ON THE U.S. FISH AND WILDLIFE SERVICE, NATIONAL 
 OCEANIC AND ATMOSPHERIC ADMINISTRATION, AND NATIONAL MARINE FISHERIES 
              SERVICE BUDGET REQUESTS FOR FISCAL YEAR 2002

                              ----------                              


                         Thursday, May 3, 2001

                     U.S. House of Representatives

       Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:30 a.m., in 
Room 1334, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.

STATEMENT OF THE HONORABLE WAYNE T. GILCHREST, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Good morning, everybody. Welcome to the 
Subcommittee. We will examine the budget priorities of the U.S. 
Fish and Wildlife Service and the National Oceanic and 
Atmospheric Administration for the upcoming year.
    In terms of the Fish and Wildlife Service, we were 
basically pleased that the administration has requested an 
increase of $14 million for the National Wildlife Refuge System 
and full funding for the Land and Water Conservation Fund.
    We were somewhat disappointed in the $9 million decrease 
for endangered species, and I am troubled by the artificial cap 
that the administration has proposed for ESA listing funds. I 
look forward to a justification of these decisions and a 
thorough explanation of the new proposed landowner incentive 
program and private stewardship grant program.
    In terms of NOAA, we strongly support the proposed 
increases for the National Marine Sanctuary Program, the 
Coastal Zone Management Program, the National Sea Grant College 
Program, navigation services, and ocean exploration.
    While funding for fisheries management programs has been 
restored to pre-CARA Lite funding contained in the consolidated 
appropriations act, I was pleased to see additional money for 
blue crab, blue fish, and striped bass studies; a $2.5 million 
increase for the eight regional fishery management councils; 
and $2 million more to protect highly endangered right whales.
    There are accounts, like the National Estuarine Research 
Reserves, for which we will require additional resources. But 
on balance, this is a defensible budget request for the ``wet 
programs'' of NOAA.
    I look forward to hearing from our distinguished witnesses 
and hope that members will ask probing questions on these 
budget requests. This is the members' best chance to inquire 
about any program under the jurisdiction of these two agencies.
    Gentlemen, we thank you for coming this morning. We look 
forward to your testimony, and we have some interesting, 
probing inquiries for all of you this morning.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
             on Fisheries Conservation, Wildlife and Oceans

    Good morning, today the Subcommittee will examine the budget 
priorities of the U.S. Fish and Wildlife Service and the National 
Oceanic and Atmospheric Administration for the upcoming year.
    In terms of the Fish and Wildlife Service, I was pleased that the 
Administration has requested an increase of $14 million for the 
National Wildlife Refuge System and full funding for the land and water 
conservation fund. I was disappointed in the $9 million decrease for 
endangered species and I am troubled by the artificial cap that the 
Administration has proposed for ESA Listing funds. I look forward to a 
justification of these decisions and a thorough explanation of the new 
proposed landowner incentive program and private stewardship grant 
program.
    In terms of NOAA, I strongly support the proposed increases for the 
National Marine Sanctuary Program, the Coastal Zone Management Program, 
the National Sea Grant College Program, navigation services, and ocean 
exploration.
    While funding for fisheries management programs has been restored 
to the pre-CARA lite funding contained in the Consolidated 
Appropriations Act, I was pleased to see additional money for blue 
crab, blue fish and striped bass studies; a $2.5 million increase for 
the eight regional fishery management councils and $2 million more to 
protect highly endangered right whales.
    There are accounts, like the National Estuarine Research Reserves, 
which will require additional resources, but on balance this is a 
defensible budget request for the ``wet programs'' of NOAA.
    I look forward to hearing from our distinguished witnesses and hope 
that Members will ask probing questions on these budget requests. This 
is the Members's best chance to inquiry about any program under the 
jurisdiction of these two agencies.
    I now recognize the Ranking Member for any opening statement that 
he may have at this time.
                                 ______
                                 
    Mr. Gilchrest. I now yield to Mr. Underwood.

 STATEMENT OF THE HONORABLE ROBERT A. UNDERWOOD, A DELEGATE TO 
              CONGRESS FROM THE TERRITORY OF GUAM

    Mr. Underwood. Good morning, Mr. Chairman, and thank you 
for holding this hearing on the Fiscal Year 2002 budget 
requests for the Fish and Wildlife Service and the National 
Oceanic and Atmospheric Administration. I appreciate the 
opportunity to learn more about these requests and to ask 
questions--probing questions--on those areas of particular 
relevance to not only to my constituents but, I think, to 
people across the country.
    As you can understand, Guam has a definite interest in the 
funding of both these agencies and their important programs. 
And as a committee, we have a firm responsibility to ensure 
that the funds appropriated to these agencies are used in a 
responsible manner and for the benefit of people in the entire 
country.
    In general, I am pleased to see President Bush recognizes 
the importance and relevance of NOAA's ocean, coastal, and 
fisheries programs, and has maintained or increased funding in 
vital areas. I am especially interested in learning more about 
NOAA's ocean exploration initiative.
    The Fish and Wildlife Service, on the other hand, does not 
seem to have fared so well, unfortunately, in some areas. There 
are, of course, certain programs for which I would like to see 
more done, including management and eradication of invasive 
species, such as the brown tree snake in Guam, which has 
decimated native bird populations.
    In addition, I am concerned about specific Fish and 
Wildlife Service grant programs which have been zero funded 
with no assurance that they will be funded under a newly 
expanded Land and Water Conservation Fund stateside program. I 
will ask more about this after hearing from our witnesses.
    I think it is important to reiterate the important tasks 
that these agencies are responsible for in preserving and, more 
and more, restoring the natural environment in which we live. 
Coastal Zone Management, coral reef protection, the National 
Wildlife Refuge System, the Marine Sanctuary Program, and 
migratory bird management are all vital services provided to 
this country by these agencies.
    The Congress must continue to provide sufficient funding to 
ensure that these agencies are able to fulfill their missions. 
Only by paying now and spending wisely will we ensure that we 
do not incur greater costs in the future for protecting and 
utilizing our natural environment and its resources.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Underwood follows:]

  Statement of The Honorable Robert Underwood, A Delegate to Congress 
                               from Guam

    Good morning, Mr. Chairman, and thank you for holding this hearing 
on the Fiscal Year 2002 budget requests for the Fish and Wildlife 
Service and the National Oceanic and Atmospheric Administration (NOAA). 
I appreciate the opportunity to learn more about these requests and to 
ask questions on those areas of particular relevance to my 
constituents.
    As you can understand, Guam has a definite interest in the funding 
of both these agencies and their important programs. And as a 
Committee, we have a firm responsibility to ensure that the funds 
appropriated to these agencies are used in a responsible manner and for 
the benefit of all the people of the United States.
    In general, I am pleased to see President Bush recognizes the 
importance and relevance of NOAA's ocean, coastal and fisheries 
programs and has maintained or increased funding in vital areas. I am 
especially interested in learning more about NOAA's ocean exploration 
initiative.
    The Fish and Wildlife Service does not seem to have fared so well, 
unfortunately, in some areas. There are, of course, certain programs 
for which I would like to see more done, including management and 
eradication of invasive species, such as the brown tree snake in Guam 
which has decimated native bird populations.
    In addition, I am concerned about several specific Fish and 
Wildlife Service grant programs which have been zero funded with no 
assurance that they will be funded under a newly expanded Land and 
Water Conservation Fund state-side program. I will ask more about this 
after hearing from our witnesses.
    I think it is important to reiterate the important tasks these 
agencies are responsible for in preserving, and more and more 
restoring, the natural environment in which we live. Coastal zone 
management, coral reef protection, the National Wildlife Refuge System, 
the Marine Sanctuary Program and migratory bird management are all 
vital services provided to this country by these agencies.
    The Congress must continue to provide sufficient funding to ensure 
that these agencies are able to fulfill their missions. Only by paying 
now and spending wisely will we ensure that we do not incur greater 
costs in the future for protecting and utilizing our natural 
environment and its resources.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Ortiz?

 STATEMENT OF THE HONORABLE SOLOMON P. ORTIZ, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Ortiz. I would just like to request that my statement 
be included in the record.
    Mr. Gilchrest. Without objection.
    Mr. Ortiz. Thank you.
    [The prepared statement of Mr. Ortiz follows:]

   Statement of The Honorable Solomon P. Ortiz, a Representative in 
                    Congress from the State of Texas

    Chairman Gilchrest and Ranking Member Underwood, thank you for 
holding this hearing this morning. I am glad to see our witnesses this 
morning and am very interested in hearing what they have to say about 
their funding needs.
    It is my hope that we will find some money to help our hard-working 
men and women in the fishing industries. They are being hammered almost 
monthly by oppressive regulations that are slowly, but surely, putting 
them out of business. These are not just people worried about their 
livelihoods and families. In many cases, we are losing a culture and 
way of life that has been diligently carried on for generations.
    If we were concerned, would we not dedicate the money needed 
substantiate these regulations? I have been in meeting after meeting 
where our fishery regulators have said that their Red Snapper database 
has holes in it and need large gaps filled, but I never see any 
requests for help with funding research for these needs. Instead, I 
keep hearing that the best data available is being used..
    I believe we need to do our homework and know why we are putting 
people out of jobs if that is what we have to do to sustain our 
fisheries. Under the current situation, we are spending too much of our 
needed funding in court trying to defend inadequate databases.
    Mr Chairman, thank you again for this hearing. I look forward to 
working with you and the members of this committee on this issue.
                                 ______
                                 
    Mr. Gilchrest. Unfortunately, gentlemen, we will probably 
have a series of votes at 10 o'clock.
    I think, Scott, you have to leave at 10?
    Mr. Gudes. Yes, sir.
    Mr. Gilchrest. So we will do what we can between now and 10 
o'clock. And we wish you well in the next hearing.
    Scott, we will start with you.

STATEMENT OF SCOTT B. GUDES, ACTING UNDER SECRETARY FOR OCEANS 
       AND ATMOSPHERE, NATIONAL OCEANIC AND ATMOSPHERIC 
   ADMINISTRATION; ACCOMPANIED BY MARGARET DAVIDSON, ACTING 
   ASSISTANT ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
 ADMINISTRATION; BILL HOGARTH, ACTING ASSISTANT ADMINISTRATOR, 
 NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION; LOUISA KOCH, 
     DEPUTY ASSISTANT ADMINISTRATOR, NATIONAL OCEANIC AND 
                   ATMOSPHERIC ADMINISTRATION

    Mr. Gudes. Thank you, Mr. Chairman.
    On behalf of Secretary Evans and our 12,500 men and women 
in NOAA working around the country, I really want to thank you 
for this opportunity to testify on behalf of our Fiscal Year 
2002 budget for the National Oceanic and Atmospheric 
Administration.
    I also want to thank you, Chairman Gilchrest, Congressman 
Underwood, Congressman Ortiz, and the members of this 
committee, and the professional staff of this committee--John 
Rayfield, Dave Whaley, Dave Jansen, Jean Flemma, all the 
professional staff--for your continued interest and support for 
NOAA.
    The overall NOAA budget this year, the administration's 
budget, is $3.152 billion. That is some $61 million below the 
current level. Our budget has about $330 million in reductions 
and about $270 million in increases, some of which you talked 
about, Mr. Chairman.
    Secretary Evans has asked us to invest in high-priority 
areas that are about the most core issues, and we have done 
that. We are presenting you with one of the strongest NOAA 
budgets ever presented, I believe, by any administration.
    Mr. Chairman, I want to make one other overall point. In 
the budget business, we think and talk in terms of changes, 
pluses and minuses; I was just doing some of that. But NOAA has 
often come up here with budgets, in the President's budgets, 
that propose reducing items that are of great interest to 
Congress and to this Subcommittee and to us. And this year, to 
the extent practical, we have sought to narrow these 
differences and fund items at or slightly above the levels 
enacted by Congress last December.
    So, for example, the Sea Grant program, a key NOAA program, 
is at $62.4 million. This is only the second year in the last 
20 years that we have come back with the same level as 
Congress, and it is really great.
    Hydrographic survey by the private sector, a big interest 
in these; charters are included at $20.4 million.
    The National Undersea Research Program, with centers in New 
Jersey and Hawaii, is at $13.8 million, the first time ever 
that we have been able to bring that fully in the President's 
budget.
    Steller sea lion research, we are at $40 million. The 
research program is at $40 million, slightly below the level 
that Congress added last year.
    And as you said, Mr. Chairman--you talked about it last 
year--blue fish and striped bass need research. Well, I am 
happy the President's budget is requesting, in fact, a little 
above the level the Congress appropriated, $1.5 million. They 
are two very, very important recreational species in Maryland, 
New Jersey, all along the east coast of the United States.
    Let me turn to a quick summary of this $270 million of 
increases that we proposed back to Congress. Let me go to the 
slide that says ``People.''
    When we are testifying in Congress, people always say, 
``Well, that's great. You've given us all these proposals. But 
what's your highest priority?'' Well, what I am going to tell 
you today, Mr. Chairman, members of the committee, is that my 
highest priority as acting administrator is our people of NOAA, 
supporting our people, supporting the human resources mandatory 
costs sometimes called, in the budget business, ``adjustments 
to base'': the cost-of-living adjustments, inflation, benefits, 
GSA rent--$60 million for this.
    This is about truth in budgeting, I believe, keeping 
current services for our programs. It is about not hollowing 
out our programs and our laboratories. We have the greatest, 
most motivated workforce in NOAA, on behalf of Americans, and 
we need to support them.
    Turn to the next slide, infrastructure. Equipment, 
facilities, maintenance, what I call infrastructure, we have 
not traditionally done well in this area at NOAA. We need help 
enabling NOAA not just to do our mission this year and be the 
premier oceanic and atmospheric agency, but it is really about 
enabling us to do our job in future years.
    The requested $3 million is for our Honolulu fisheries 
laboratory, which is co-located at the University of Hawaii. It 
is non-ADA--Americans with Disabilities Act--compliant. It has 
a number of structural facility problems, and we need to get on 
with addressing that facility requirement and replacing that 
laboratory.
    A total of $1 million is for our National Oceans Service 
Fisheries Beaufort, North Carolina, laboratory. It is the 
second oldest marine science laboratory in the nation, behind 
Woods Hole. And we just celebrated the 100th anniversary there.
    An increase of $1.7 million for overall safety and 
environmental issues at NOAA facilities overall. And I believe 
this is the first time we have been able to get a request like 
this in the budget.
    And $5.8 million is for overall modernization to two of our 
NOAA fisheries vessels: the Albatross IV, which is based in 
Woods Hole, our workhorse for northeast surveys; and the Gordon 
Gunter in Pascagoula.
    Next slide, coastal conservation activities. Mr. Chairman 
and members of the Subcommittee, we are requesting $284.4 
million for a number of our coastal conservation programs. The 
budget includes the full $27 million that Congress provided for 
coral reef programs last year, and a $700,000 increase for 
satellite work to look at coral reef issues, one of the really 
great products that our satellite service has been able to 
provide resource managers.
    Coral reefs are a major interest to this Subcommittee, for 
NOAA, and, in fact, I co-chair the Coral Reef Task Force. In 
Fiscal Year 2001, 74 percent of our resources that Congress 
provided for coral reefs are going for work, restoration, 
research for coral reefs in the Pacific.
    The $16.6 million increase, as you point out, Mr. Chairman, 
is really for marine sanctuaries, for a total program of $52 
million. These are, of course, really underwater national 
parks, if you will. Most of this is for education facilities, 
to bring these sanctuaries really to the American people. And 
$6.5 million of this amount is to fully fund the completion of 
the Dr. Nancy Foster Florida Keys National Marine Sanctuary 
complex in Key West.
    A $12.2 million increase is included for coastal zone 
management programs. And the reductions in the National 
Estuarine Research Reserves programs (NERRS), are really about 
taking out one-time earmarks. So the operations grants to the 
states for NERRS go up by $1.7 million, and land acquisition 
and facilities are requested at $9.9 million.
    Obviously, I don't need to come tell this Subcommittee 
about the importance of coastal issues, like loss of wetlands 
and water quality and coastal storms and the special nature of 
our 25 National Estuarine Research Reserves around the country, 
from Maryland to California.
    And, finally, our budget continues to provide $90 million 
for Pacific coastal salmon grants, part of more than $184 
million that NOAA spends on this important resource.
    Next slide, modernization of NOAA fisheries. With respect 
to fisheries, it is my view that our budget responds to the 
leadership of this committee and Congress. Our budget seeks to 
modernize the National Marine Fisheries Service, or NOAA 
fisheries, as we call it, and proposes increases to meet 
existing statutory and regulatory requirements of Magnuson-
Stevens, National Energy Policy Act(NEPA), Endangered Species 
Act (ESA), and other statutes.
    This is an area in which I have put a lot of personal 
attention in the last 2 years. Last year, I requested Ray 
Kammer, the director of the National Institute of Standards and 
Technology, to perform a study to take a look at our fisheries 
service and the budget and the requirements.
    And Bill Hogarth is here today. In Bill Hogarth, you have 
an acting director of NOAA fisheries who is changing the way we 
do business. He is reaching out to our partners, our 
constituents. He is conducting business in a much more open way 
and really working with the councils and the states. He just 
got all the marine managers together, from all the states. It 
is the first time we have done that in a number of years.
    Our budget does the right thing: It invests in science, in 
management, and in enforcement. It also maintains many of the 
increases provided by Congress last year, from the red snapper 
surveys to NEPA compliance. I will just highlight a few of 
these fisheries initiatives.
    An increase of $13.3 million is requested for expanding and 
improving stock assessments. This will add 829 days by charter 
to do surveys. This is about getting the data that we need to 
support the science behind our regulatory framework that the 
fisheries management councils need as well.
    An increase of $2 million is requested for fisheries 
oceanography, looking at the larger ecosystem issues affecting 
fisheries, again responding to a couple comments made by this 
committee.
    An amount of $4 million is for additional fishery observers 
and improving data collection. Increasingly, fishery 
observers--these young men and women who go to sea on these 
commercial vessels--are essential to managing fisheries and 
marine mammal stocks.
    An increase of $2 million for a total of $10 million is 
requested for the community-based habitat restoration program. 
This is a partnership with groups like the American Sport 
Fishing Association, National Fisheries Institute (NFI), the 
Nature Conservancy. It makes a real impact, a real difference, 
and provides leverage of about 4-to-1 in terms of funding.
    I have often taken part in these grassroots efforts. Just 2 
weeks ago, I was in coastal Louisiana, trying to save some 
wetlands. Last weekend, I was taking part in coastal 
restoration down on the Magothy River, just north of Annapolis.
    An increase of $2.5 million, as you point out, Mr. 
Chairman, is for regional fishery management councils. They are 
the cornerstone of how we manage fisheries in this country. 
They have those adjustments to base, just like we do as well. 
They need support, and I am proud that the President's budget 
does that.
    Also, $7.5 million is for protected species and management, 
like sea turtles, right whales, dolphins, and salmon.
    And $10 million is for enforcement and for vessel 
monitoring assistance, an essential program.
    Next slide, climate services. Climate is, of course, a 
major area of science and research for NOAA. Much of what we 
know is due to the long-term monitoring and observations that 
NOAA has made for over 40 years in places like Mauna Loa in 
Hawaii, where we do observation of CO2 every day.
    Climate is both seasonal--we look at if it will be warmer, 
the weather, this summer--as well as longer term, such as: What 
is happening with global atmospheric and sea surface 
temperatures? What do we think will happen?
    Climate is about real world issues, Mr. Chairman, like 
water levels or west coast salmon and hydropower, about sea 
levels rising, drought. In fact, it is an essential ingredient 
to be able to forecast harmful algal blooms in the Chesapeake 
Bay. Understanding Pfiesteria is about understanding whether or 
not we are having a drought.
    Climate is, of course, an oceanic issue. As the oceans are 
changing, they drive the world climate system. And our budget 
proposes an increase of $16.5 million for climate services.
    I will just point out that there is $7.3 million for ocean 
systems. For example, an increase of $3.2 million is included 
for the ARGO profiling float survey. These are like a weather 
balloon system, if you will, for the oceans. We are working to 
obtain a 3,000-float system worldwide. This budget gets us up 
to about 275 floats per year from NOAA.
    And $4.1 million completes support for other ocean 
observational components, including Arctic Ocean fluxes, ocean 
reference stations, volunteer observing ship obligations.
    Modernization of the Marine Transportation System. In 1988, 
Congress directed Federal agencies to produce an assessment of 
the U.S. maritime transportation system and a plan for 
modernizing government navigation services. I testified before 
you last year on our efforts to modernize both programs, and 
this budget does step up to show what we are doing in our 
oldest mission in NOAA, which goes all the way back to 1807 
when Thomas Jefferson said that we needed to map the coast for 
safety for Americans. This is about safety, jobs, and economic 
competitiveness.
    Included in this request is $9.5 million to complete the 
refurbishment of the FAIRWEATHER, a ship that we have had in 
mothballs in Seattle, which will be working in Alaska, where we 
have some of our biggest backlogs, so we really need this one 
now.
    Included is $3.6 million for electronic navigation charts, 
and an increase of $1 million is for shoreline mapping by 
contract.
    And $3 million is for our coastal storms initiative, which 
is about using better sensors, bathymetric data, and storm 
models to help coastal communities deal with severe storms and 
flooding and the fact that more and more of the population is 
in the coastal areas.
    The final slide is ocean exploration. We are requesting $14 
million for NOAA ocean exploration. That is an increase of $10 
million over the $4 million Congress provided last year. This 
is about exploring new computers and resources from the sea, 
America's heritage, and something called the Census of Marine 
Life, which is looking at the ocean canyons and shelves before 
the fishing industry moves to exploit those resources, so we 
know what is out there.
    We are moving out this summer with the funds that Congress 
provided, and we will be conducting a series of exploration 
dives and submersible work off the east coast in the canyons, 
off the west coast in the vents, and in the seafloor study area 
in the Gulf of Mexico. These are really voyages of discovery 
that will map the physical, chemical, biological, and 
archaeological treasures of the United States Exclusive 
Economic Zone (EEZ).
    So much of our marine climate, Mr. Chairman, remains 
uncharted and unexplored. Only a small percentage of marine 
species have been categorized.
    Last year, we had an ocean exploration panel, chaired by 
Dr. Marcia McNutt and included Dr. Bob Ballard, Shirley 
Pomponi, and a number of experts in ocean exploration. And they 
pointed out to us that some 95 percent of our oceans have 
really not been explored.
    NOAA really has not stepped up to this mandate that was 
established by the Stratton Commission back when our agency was 
created, but we are doing so now. And it is in partnership with 
other Federal agencies like the National Science Foundation and 
the Navy.
    And finally, Mr. Chairman, ocean exploration is about 
education and outreach. It is about reaching schools and kids 
across this country and including them in this voyage of 
discovery.
    In fact, 10 percent of anything that this Congress gives us 
for ocean exploration will be used for education and outreach. 
It is part of the program. NOAA, in its entirety, I really do 
believe, is about creating the next generation of marine 
biologists, oceanographers, cartographers, and, yes, explorers.
    And the final slide I gave you is a depiction of our Web 
site, www.noaa.gov. The people here with me worked hard 
reengineering our Web site. In today's age, that is part of how 
we get these products that this Committee and this Congress 
invest in out to the American public. And I am very proud of 
this.
    When I go around the country, one of the things that really 
makes it worthwhile for me is when teachers and students and 
citizens come up to me and they tell me, ``You know that Web 
site, www.noaa.gov? That's great. We were able to get the 
satellite imagery,'' or track that hurricane or learn about 
whales or estuaries. It is about that, Mr. Chairman.
    And I just want to say again that we do very much 
appreciate the support of you and the Subcommittee, and we look 
forward to working with you as we have in the past.
    [The prepared statement of Mr. Gudes follows:]

Statement of Scott B. Gudes, Acting Under Secretary and Administrator, 
  National Oceanic and Atmospheric Administration, U.S. Department of 
                                Commerce

    Thank you, Mr. Chairman, and members of the Subcommittee, for this 
opportunity to testify on the President's Fiscal Year 2002 Budget 
Request for the National Oceanic and Atmospheric Administration (NOAA).
    Let me begin by saying that NOAA, a key component of the Department 
of Commerce, plays a vital role in the everyday lives of our citizens 
through our numerous contributions to the Nation's economic and 
environmental health. In a period of strongly competing Government 
priorities, the President's Fiscal Year 2002 Budget Request for NOAA is 
$3,152.3 million in total budget authority for NOAA and represents a 
decrease of $60.8 million below the Fiscal Year 2001 Enacted levels. 
Within this funding level, NOAA proposes essential realignments that 
allow for a total of $270.0 million in program increases in critical 
areas such as infrastructure, severe weather prediction, coastal 
conservation, living marine resources, and climate.
    The funding requested in the Fiscal Year 2002 President's Budget 
Request will allow NOAA to ensure that our vision for environmental 
stewardship and assessment and prediction of the Nation's resources 
becomes a reality and that NOAA will continue to excel in our science 
and service for the American people.
    From safe navigation to coastal services, fisheries management to 
climate research and ocean exploration, NOAA is at the forefront of 
many of this Nation's most critical issues. NOAA's people, products and 
services provide vital support to the domestic security and global 
competitiveness of the United States, and positively impact the lives 
of our citizens, directly and indirectly, every single day.
    NOAA's mission is to describe and predict changes in the Earth's 
environment and to conserve and manage the Nation's coastal and marine 
resources to ensure sustainable economic opportunities. NOAA implements 
its mission through its line and staff offices: the National Ocean 
Service (NOS); the National Marine Fisheries Service (NMFS); the Office 
of Oceanic and Atmospheric Research (OAR); the National Weather Service 
(NWS); the National Environmental, Satellite, Data and Information 
Service (NESDIS); the Office of Marine and Aviation Operations (OMAO); 
and Corporate Services (CS).
    Today, the Nation and the world look to NOAA to provide timely and 
precise weather forecasts that protect lives and property; to manage 
fisheries and protected species; to promote and sustain healthy 
coastlines; to make America more competitive through safe navigation; 
to examine changes in the oceans; and to inspire and create approaches 
that will protect and keep our precious natural resources alive for the 
generations to come.
    NOAA conducts research to develop new technologies, improve 
operations, and supply the scientific basis for managing natural 
resources and solving environmental problems. NOAA's comprehensive 
system for acquiring observations from satellites and radars to ships 
and submersibles provides critical data and quality information needed 
for the safe conduct of daily life and the basic functioning of a 
modern society.
    NOAA's products and services include nautical charts, marine 
fisheries statistics and regulations, assessments of environmental 
changes, hazardous materials response information, and stewardship of 
the Nation's ocean, coastal, and living marine resources.
    NOAA's programs for Fiscal Year 2002 support several key cross-
cutting initiatives. These cross-cutting initiatives illustrate the 
degree to which NOAA's programs are inter-related. Each of the 
component programs within a cross-cutting initiative uniquely 
contributes to NOAA's ability to meet its mission.
    The Fiscal Year 2002 President's Budget Request supports NOAA's 
cross-cutting initiatives, each of which is I will discuss in greater 
detail.
People and Infrastructure
    The request for the People and Infrastructure cross-cutting 
initiative brings together the heart of what NOAA is and does. These 
are the underlying and interconnecting threads that hold NOAA and its 
programs together. Investments in NOAA's scientific and technical 
workforce and NOAA's facilities and equipment is essential to the 
agency carrying on it's mission into the 21st Century. ``People and 
Infrastructure'' is about investing in the future.
People
    NOAA requests $60.0 million in base adjustments that are critical 
to preserve and develop NOAA's human capital, our greatest asset. The 
demand for NOAA's scientific work products and services is expected to 
increase significantly in Fiscal Year 2002 and beyond. This trend is 
evidenced by market responses to increasingly accurate seasonal 
forecasts, protection of life and safety, competing interests for 
marine resources and the need to protect and recover endangered 
species, and the application in pharmaceutical manufacturing of the 
earliest rewards from increased ocean exploration. Similar increases in 
demand for NOAA's products and services are expected from the national 
energy community and other potential user communities. To ensure NOAA's 
mission capacity is adequate to respond to these demands, NOAA must 
continue to invest in its people.
    This investment will ensure NOAA's programs are maintained at the 
current services level. These are ``must-pay'' bills like pay raises, 
benefits, inflation, and rent. Failure to receive these adjustments in 
any given year results in program dislocations and minor cutbacks. 
Failure to receive these adjustments over time has a cumulative erosion 
effect that can be programmatically devastating. Consequently, these 
adjustments to NOAA's funding base are essential for NOAA to continue 
meeting core mission-related requirements and the expectations of the 
American public.
Infrastructure
    NOAA's facilities and information technology infrastructure 
directly and immediately impacts the ability of NOAA's program offices 
to satisfy mission demands. The condition, readiness and 
vulnerabilities of this infrastructure have direct consequences on 
human welfare, economic well being, and the advancement of the state of 
the sciences. To ensure mission capacity, NOAA requests infrastructure 
funding of $73.3 million in the following key categories: critical 
systems, construction, maintenance and repair, and NOAA program 
support.
Systems
    The total request of $4.0 million for the National Marine Fisheries 
Service (NMFS) Computer Hardware and Software represents an increase of 
$0.5 million. This continued investment will be used for information 
technology refreshment to support the scientific and computational 
needs of the NMFS. Many of the observational data elements obtained 
from the new sensors, observers, Fisheries Research Vessels (FRVs) and 
survey and census data collection programs in this budget submission 
will rely on the NMFS Information Technology infrastructure for all or 
part of their life cycle. The cumulative effect of rising costs, the 
unmet need for adjustments to base, and expanding requirements have 
created an erosion of base program functionality. These funds will 
result in a continuous process of technology refreshment to keep pace 
with the increasing information flow created by the deployment of new 
sensors, platforms and data collection activities throughout NMFS' 
initiatives.
Construction
    NOAA requests a total of $3.0 for the Honolulu laboratory. This 
investment will continue the replacement of the Honolulu Laboratory 
which consists of a main lab building and two annex building. This 
funding will enable the project to proceed with work needed to correct 
several deficiencies such as overcrowding, lack of laboratories, 
inadequate or nonexistent handicap access, and hazardous materials.
    The Fiscal Year 2002 Presidents Budget request includes a total of 
$1.0 million for the Coastal Services Center Wing. This investment will 
allow for construction of a new wing adjacent to the main facility of 
the Coastal Services Center (CSC) in Charleston, SC. This small 
expansion will add an estimated 6,000 square feet to house office 
space, a storage area and a loading dock. The funding will also allow 
for a partial demolition of CSC's obsolete and deteriorating 
structures. The demolition would eradicate some, but not all, of the 
structures that pose threats to CSC's inhabited buildings. Additional 
needs for security enhancements and other expansion remain under 
consideration in the comprehensive facilities plan being completed in 
Fiscal Year 2001.
Maintenance
    The total request of $4.4 million for the National Marine Fisheries 
Service Facilities Operations and Maintenance represents an increase of 
$0.4 million above the Fiscal Year 2001 Enacted level. This continued 
investment will be used to cover increased operation and maintenance 
costs of two key NMFS facilities, the new Santa Cruz, California 
Laboratory, and the Kodiak, Alaska Laboratory.
    NOAA's request of $3.6 million for Facilities Maintenance, Repairs 
and Safety represents an increase of $1.7 million above the Fiscal Year 
2001 Enacted level. This continued investment will allow for 
remediation of NOAA's deteriorating facilities. NOAA's capital assets, 
totaling 496 installations spread across all 50 states are valued in 
the hundreds of millions of dollars. The majority of these facilities 
are over 30 years old, and 29 percent are over 40 years in age. To 
date, renovations have been relatively few, and maintenance has been 
deferred. NOAA has already identified over $50 million in maintenance 
and repair projects, and this continues to grow as a comprehensive 
facility assessment unfolds. Major systems in many facilities are in 
imminent danger of failure, or are well past their useful lives. The 
requested funds will help address these facilities maintenance, repair 
and safety needs.
    Funding in the amount of $1.0 million is requested for NOAA's 
Beaufort Laboratory. This investment will allow for repairs at NOAA's 
Beaufort, NC Laboratory. The funds will be used to address health and 
safety issues, primarily the installation of a sanitary sewage 
connection and electrical repairs. The Beaufort Laboratory is the 
Nation's second oldest marine research center a national treasure and 
is collocated with the Rachel Carson National Estuarine Research 
Reserve.
    NOAA's request of $1.8 million for the GORDON GUNTER will allow for 
the upgrade of the vessel to meet modern safety standards and to 
provide a more capable platform to support fisheries research, stock 
assessment and other missions such as submersible operations. The 
upgrade will include modifications to an engine-room bulkhead that will 
enable the ship to meet modern safety standards for one-compartment 
damage stability, allowing a compartment to be fully flooded and the 
ship to remain afloat with stability. This funding also would provide 
positioning and instrumentation upgrades. The GORDON GUNTER, homeported 
in Pascagoula, MS, is a former Navy T-AGOS vessel which has been 
converted and currently serves in the Gulf of Mexico, the Caribbean Sea 
and the Southeast Atlantic Ocean.
    Included in NOAA's Fiscal Year 2002 Presidents Budget request is 
$4.0 million for the ALBATROSS IV. This investment will allow for 
repairs and the extension of the ship's useful life until a new 
Fisheries Research Vessel (FRV) can be constructed for the Northeast 
Fisheries Science Center (NEFSC). In order to calibrate the new vessel 
with the ALBATROSS IV, the ALBATROSS IV must be upgraded and its 
service extended until a new vessel is completed. This calibration-
overlap protects the integrity of long-term surveys.
    Additional funding has also been requested for the FAIRWEATHER. 
This investment is identified under the Marine Transportation System 
crosscut.
Coastal Conservation Activities
    Over the past several years NOAA has proposed, through various 
initiatives and programs, funding to address some of the most serious 
challenges facing the U.S. coasts and oceans. Through those programs 
NOAA has made significant progress in addressing a number of critical 
environmental issues. The Coastal Conservation Activities Initiative 
will continue to build on the progress made to preserve the Nation's 
coasts and oceans.
    In the Fiscal Year 2002 President's Budget, NOAA requests $284.4 
million to continue environmental programs that are critical to 
ensuring the continued preservation of our Nation's coastal and ocean 
resources. The Fiscal Year 2002 Budget Request includes resources to 
enhance our ability to effectively manage the National Marine 
Sanctuaries, enhance habitat protection through the National Estuarine 
Research Reserve System and strengthen and improve Marine Protected 
Area (MPA) programs and their conservation goals. These funds will be 
leveraged through improved Federal, state, local, tribal, and 
territorial coordination and collaboration to fill shared information, 
technical and operational needs. Also included are additional resources 
to increase Coastal Zone Management grants to states to enable coastal 
states to address such issues of national importance as the impact of 
coastal storms, declining water quality, shortage of public shoreline 
access, loss of wetlands, deteriorating waterfronts, and the challenge 
of balancing economic and environmental demands in the coastal zone. 
With the funds requested in Fiscal Year 2002 NOAA will also continue to 
implement recommendations of the Coral Reef Task Force and enhance the 
recovery of threatened and endangered coastal salmon. The programs that 
comprise the Coastal Conservation Activities cross-cut are highlighted 
below.
Coral Reef Activities
    The total request of $27.7 million for Coral Reef Activities 
represents an increase of $0.7 million above the Fiscal Year 2001 
Enacted level. This continued investment will allow for NOAA's support 
for coral reef activities across the Nation. Funding will enable NOAA 
to continue implementing priorities of the U.S. Coral Reef Task Force 
and recommendations included in the America's Ocean Future Report. 
Working with state, territorial, and local partners, this level of 
funding will support research, monitoring, and local level projects to 
reduce human impacts and increase sustainable use of America's valuable 
coral reefs.
Coastal Zone Management Program
    The total request of $75.4 million for the Coastal Zone Management 
(CZM) Program represents an increase of $12.2 million above the Fiscal 
Year 2001 Enacted level. This includes an increase of $8.6 million for 
CZM grants, a technical change in the transfer from the CZM Fund, and 
an increase of $0.4 million for Program Administration. In addition, 
$10.0 million is requested for Nonpoint Pollution Implementation 
Grants, a separate but integral program, which will be discussed later.
    The total request of $69.0 million for CZM Grants represents an 
increase of $8.6 million over the Fiscal Year 2001 Enacted level. This 
continued investment will allow NOAA to provide direct grants to 
coastal states for implementing and improving their approved coastal 
management programs. Currently 33 of the 35 eligible coastal states 
have an approved coastal management program, with approval of the 34th 
state program, Indiana, expected in Fiscal Year 2002. Combined, these 
programs serve to manage and protect 99.9 percent of the Nation's 
shoreline to the benefit of the environment and the economy. The 
requested investment would provide resources for coastal states to more 
fully implement their coastal management plans. Specifically, NOAA 
provides grants to coastal states and territories to address issues of 
national importance such as the impact of coastal storms and flooding, 
declining water quality, shortage of public access to the shoreline, 
loss of wetlands, deteriorating waterfronts and harbors, and the 
challenge of balancing economic and environmental demands in 
increasingly competitive ports.
    In order to streamline CZM administrative processes, NOAA proposes 
to consolidate all funding for CZM Program Administration under ORF. 
Doing so requires replacement of the $3.2 million that had been 
transferred from the CZM Fund (a non-ORF account) in prior years. In 
Fiscal Year 2002, the CZM Fund is proposed as a general offset to CZM 
Act activities.
    The total request of $6.4 million for the CZM Program 
Administration represents an increase of $0.4 million above the Fiscal 
Year 2001 Enacted level. This continued investment will support NOAA's 
national program administration responsibilities under the Coastal Zone 
Management Act (CZMA), which continues to grow. This request will 
assist NOAA's ability to bring together representatives from state, 
Federal, and tribal governments and the private sector, to address 
issues such as coastal hazards, habitat and polluted runoff. It will 
allow NOAA to address the increasing requests of the states (33 in the 
program, one state program in development) for support and technical 
assistance. This level of funding will also enable NOAA to maintain 
national support for the 25 National Estuarine Research Reserves.
Nonpoint Pollution Implementation Grants
    NOAA requests a total of $10.0 million for Nonpoint Pollution 
Implementation Grants. This investment will provide states with 
resources to reduce nonpoint pollution, the greatest single threat to 
coastal water quality. Coastal waters are increasingly impacted by 
polluted runoff. Symptoms include the impacts of Pfiesteria in coastal 
waters of the eastern seaboard, nutrient over-enrichment in the Gulf of 
Mexico, the loss of salmon fisheries in the Pacific Northwest and local 
closures of shellfish beds and beaches throughout the country. NOAA 
will provide grants to states with approved plans to address the causes 
of these and other symptoms of the degradation of our coastal water 
quality.
National Estuarine Research Reserves
    The total request of $26.3 million for the National Estuarine 
Research Reserves (NERRS) represents a decrease of $29.3 million below 
the Fiscal Year 2001 Enacted level. This funding level supports an 
increase in operations of $1.7 million for a total of $16.4 million in 
the Operations, Research and Facilities (ORF) Account, and a decrease 
in one-time construction items of $24.5 million, for a total request of 
$9.9 million in the PAC Account. With regard to the increase for NERRS 
operations, these funds will improve the ability of NOAA and its state 
partners to understand, manage, and protect these special estuarine 
habitats and biodiversity. The NERRS is a network of protected areas 
established to improve the health of the Nation's estuaries and coastal 
habitats through long-term research, protection, and education and to 
address such issues as water quality, loss and degradation of habitat, 
and loss of species biodiversity. The increase will significantly 
enhance the monitoring and technical training programs at the 25 
designated reserves, and ultimately lead to healthier estuaries, 
coastal water quality, and fisheries.
    Of particular interest is the NERRS' System-Wide Monitoring Program 
(SWMP). The SWMP is a national monitoring system that will integrate 
water quality, and biological and land-cover change elements, making 
the information available to scientists and managers. The 25 existing 
reserves will expand their participation in SWMP by increasing spatial 
coverage of water quality stations, and by monitoring additional 
biological indicators. Reserve staff will also improve estuarine 
resource management by providing enhanced technical training for 
planners, policy-makers, and other state and local coastal decision-
makers on water quality, habitat, invasive species, and sustainable 
ecosystem issues. Funding of $9.9 million for infrastructure 
investments in the Procurement, Acquisition, and Construction (PAC) 
account includes resources to complement these activities by providing 
resources for research, education, and visitor facilities at multiple 
reserve sites across the Nation. The NERR system uses a competitive 
priority -setting process each year to fund the best projects from the 
long list of eligible proposals. At some sites, land acquisition from 
willing sellers may be a high priority to enhance the protection of key 
resources. At other sites, facilities and related structures, such as 
interpretive centers, laboratories, boardwalks, and boat docks may be 
the best use of funds to enhance the outreach, education, and research 
programs within the NERRS.
National Marine Sanctuaries
    The total request of $52.0 million for the National Marine 
Sanctuaries represents an increase of $16.6 million above the Fiscal 
Year 2001 Enacted level. This increase of $16.6 million is comprised of 
$3.6 million for operations (for a total ORF request of $36.0 million), 
and an increase of $13.0 million for new construction (for a total PAC 
request of $16.0 million). With regard to National Marine Sanctuaries 
operations, this continued investment will provide funding to upgrade 
the operating and technical capacity in the thirteen national marine 
sanctuaries. The results will improve protection of important sanctuary 
resources, including coral reefs, endangered marine mammals, sensitive 
habitats, and significant cultural resources. In addition to supporting 
the operations, this investment will provide for additional site 
characterization, additional enforcement capabilities, public 
education, and the implementation of key management changes. Changes 
are expected in a wide range of activities, including drafting and 
amending regulations, establishing new partnerships, expansion of 
outreach and education efforts, and additional research, monitoring and 
restoration.
    The Congress has called for sufficient resources for operational 
staff, facilities and equipment, effective implementation of management 
plans, enforcement, and particularly for site characterization 
including cultural resources and inventory of existing natural 
resources. Elements that must be compiled for cultural and natural 
resource inventories include location of shipwrecks, data on marine 
mammals, fish, shellfish and sea birds, habitat types, and physical 
characteristics, such as bottom typography, water quality, and water 
temperature. The goal is to gather enough characterization information 
at each site to be able to effectively manage the resources. New 
funding will support these efforts and the Sustainable Seas 
Expeditions. This Fiscal Year 2002 Budget responds to Congressional 
direction and the recently passed National Marine Sanctuary Amendments 
Act.
    With regard to the increase of $13.0 million for Marine Sanctuaries 
construction in the PAC Account, NOAA will continue to implement the 
detailed, comprehensive facilities plan developed in Fiscal Year 2000 
in order to respond to the growing public interest in the ocean 
environment and the Marine Sanctuary System. NOAA will work in 
partnership with other Federal agencies and private institutions such 
as museums, aquaria, and foundations. NOAA will establish or upgrade 
facilities to ensure access to sanctuary resources and allow public 
appreciation of the unique marine habitats in those sanctuaries. These 
facilities provide important outreach and education functions for these 
special places, since many visitors are unable to visit the actual 
sanctuary sites which, in several cases, are many miles offshore or 
require individuals to be certified scuba divers in order to view 
firsthand these national treasures.
    Within these funds, an estimated $6.5 million is targeted for the 
Dr. Nancy Foster Florida Keys Environmental Center to complete 
renovation and construction at this former Navy installation and 
properly support the multi-agency partnership and the Center's mandates 
to promote environmental education, protection, marine safety and 
rescue, and coastal stewardship. This center, which was dedicated last 
year, stands as a tribute to the late Dr. Nancy Foster, NOAA's 
Assistant Administrator for the National Ocean Service. One of the two 
buildings will host a state-of-the-art multi-agency (NOAA, National 
Park Service, Fish & Wildlife Service) visitor center. The other 
building will become the operations center for the Florida Keys 
National Marine Sanctuary and host office space; laboratory space; a 
diving locker; a maintenance area for mooring buoys, boats and 
vehicles; and dock space. The new facility will also provide 
consolidation of office space and boat docks that are currently 
scattered across multiple leased facilities in the Key West area.
Marine Protected Areas
    NOAA requests a total of $3.0 million for Marine Protected Areas. 
This investment will strengthen and improve agency-wide Marine 
Protected Area (MPA) programs and their conservation goals. This effort 
supports NOAA's responsibilities for fulfilling the National Marine 
Sanctuaries Program, National Estuarine Research Reserve Program, 
Coastal Zone Management Program, and coral reefs. This funding will 
foster collaboration with the Department of the Interior and other 
Federal agencies, state, local, tribal and territorial governments as 
well as non-governmental partners. Efforts will focus on developing a 
supporting framework for effective communication and collaboration 
among MPA programs by creating a national system of marine protected 
areas including NMS, NERRS, and other Federal, state, and tribal marine 
protected areas. These funds will also support preparation of the first 
comprehensive inventory and assessment of the existing system of U.S. 
MPAs. The NOAA MPA Program will consist of a Marine Protected Areas 
Center, comprised of a small core staff in Washington, DC and two 
regional Institutes of Excellence.
Pacific Coastal Salmon Recovery Fund
    The total request of $90.0 million for the Pacific Coastal Salmon 
Recovery Fund represents an increase of $0.2 million above the Fiscal 
Year 2001 Enacted level. This continued investment will allow the 
states and tribes to continue support for habitat restoration and 
protection, research and enhancement, monitoring and evaluation, and 
salmon recovery planning and implementation efforts. Funding will be 
used to enhance Pacific coastal salmon recovery and for the purpose of 
helping share the costs of state, tribal and local conservation 
initiatives. Programs funded within this account will assist in the 
conservation of Pacific salmon runs, some of which are at risk of 
extinction in the states of California, Oregon, Washington, and Alaska. 
Funds provided to these states will have at least a 25 percent matching 
requirement. This request responds to current and proposed listings of 
coastal salmon and steelhead runs under the Endangered Species Act by 
forming lasting partnerships with states, local and tribal governments 
and the public for saving Pacific salmon and their important habitats.
Climate Services
    From the storms of next week to the drought of next season to the 
potential human-induced climate change over the coming century, issues 
of climate variability and change will be continue to be a major issue 
for the Nation. Whether responding to the ongoing drought in the 
Pacific Northwest and its effect on power generation and endangered 
salmon, or in determining how much atmospheric carbon dioxide is taken 
up by the North American biosphere, these questions influence users 
from the Western water manager to the shapers of national policy. The 
challenge is to extend the research successes, maintain the 
observational backbone, and improve the capability to provide useful 
information services to our customers. Improved climate predictions 
will enable resource managers in climate sensitive sectors such as 
agriculture, water management, and energy supply to alter strategies 
and reduce economic vulnerability. Building on the understanding of the 
Earth's climate system that has resulted from the Nation's strong 
scientific research and numerical modeling programs, this Climate 
Observations and Services Program will begin the transition of research 
data, observing systems and understanding from experiments to 
applications, and from basic science to practical products.
    NOAA maintains a balanced program of focused research, large-scale 
observational programs, modeling on seasonal-centennial time scales, 
and data management. In addition to its responsibilities in weather 
prediction, NOAA has pioneered in the research and operational 
prediction of climate variability associated with the El Nino Southern 
Oscillation (ENSO). With agency and international partners, NOAA has 
been a leader in the assessments of climate change, stratospheric ozone 
depletion, and the global carbon cycle. NOAA scientists have been 
leaders internationally in the Intergovernmental Panel on Climate 
Change (IPCC). It maintains national coordination through participation 
in the U.S. Global Change Research Program.
    The agency-wide Climate Observations and Services activity 
represents a partnership that allows NOAA to facilitate the transition 
of research observing and data systems and knowledge into operational 
systems and products. During recent years, there has been a growing 
demand from emergency managers, the private sector, the research 
community, decision-makers in the United States and international 
governmental agencies and the general public to provide timely data and 
information about climate variability, climate change and trends in 
extreme weather events. The economic and social need for continuous, 
reliable climate data and longer-range climate forecasts has been 
clearly demonstrated. NOAA's Climate Observations and Services 
Initiative responds to these needs. The following efforts will be 
supported by this initiative:
Continuing Climate Services
    NOAA's request for Ocean Observations in Fiscal Year 2002 is $5.0 
million. NOAA maintains the sustained global observing and data 
stewardship system necessary for climate research and forecasting as 
well as the long-term monitoring system necessary for climate change 
detection and attribution. The observation network is based on a set of 
``core'' observations (e.g., temperature, surface wind stress, 
salinity, sea level, carbon dioxide), consisting of both in-situ and 
remotely sensed measurements, that have been identified in NOAA and 
other national and international reports as needed to satisfy research 
and operational climate requirements.
Ocean System for Improved Climate Services
    NOAA requests a total of $7.3 million for the Ocean System for 
Improved Climate Services. This investment will contribute to the 
global operational ocean-observing system by enhancing its present 
components and establishing new components. Of the $7.3 million 
requested, $3.2 million is required to support the U.S. commitment to 
deploy and maintain 1000 ARGO profiling floats in the proposed global 
array of 3,000 floats. This commitment requires a deployment of 280 
ARGO floats per year. The remainder of this request, $4.1 million, 
supports other observational components including Arctic Ocean fluxes, 
ocean reference stations, oceanic carbon, and augmentation of the 
volunteer observing ship (VOS) instrumentation. Finally, investments 
are to be made for data management and assimilation. Based on a firm 
scientific foundation, this ocean observing system is closely coupled 
with other U.S. and international observing efforts, and will greatly 
improve the data available for understanding climate variation.
Modernization of NOAA Fisheries
    The Fiscal Year 2002 President's Budget Request for the National 
Marine Fisheries Service (NMFS), referred to as ``NOAA Fisheries,'' 
follows Congressionally enacted levels in Fiscal Year 2001 and invests 
in core programs needed for NOAA to meet its mission to manage 
fisheries, rebuild stocks, and protect endangered species such as sea 
turtles and whales. NOAA Fisheries modernization funds will be 
allocated within NMFS to ensure that existing statutory and regulatory 
requirements are met for fisheries and protected species management 
programs (including the Magnuson-Stevens Act, National Environmental 
Protection Act, Endangered Species Act, Marine Mammal Protection Act, 
and other statutory requirements). In Fiscal Year 2002, there are 
sufficient funds for NMFS to meet its statutory and regulatory 
requirements.
    This budget request builds upon last year's effort to begin the 
modernization of NOAA Fisheries. The Modernization of NOAA Fisheries 
Initiative encompasses a long-term commitment to improve the NMFS' 
structure, processes, and business approaches to meet its mission of 
sustaining the Nation's living marine resources and their habitat. This 
initiative focuses on improving NMFS' science, management, and 
enforcement programs and beginning to rebuild its aging infrastructure. 
These improvements will result in measurable progress in the biological 
and economic sustainability of fisheries and protected resources. In 
order to ensure the viability of these modernization efforts, the 
Fiscal Year 2002 President's Budget Request includes the following 
program investments:
Science
    A total of $1.9 million is requested for research and monitoring 
activities for the South Florida ecosystem, an increase of $0.6 million 
over the Fiscal Year 2001 Enacted level.As a result of the U.S. Army 
Corps of Engineers construction projects within the Florida Everglades, 
NMFS must monitor the impact of inland restoration efforts and the 
changing freshwater inflow on Florida Bay habitats, nutrient flow, 
hydrodynamics, and ultimately on measurable ecosystem productivity and 
health.
    The total request of $15.0 million for Expanding Annual Stock 
Assessments represents an increase of $13.3 million above the Fiscal 
Year 2001 Enacted level. This continued investment will provide for 
additional scientific survey data collection to improve NMFS' ability 
to make accurate, timely stock predictions. Funding at this level would 
add 829 chartered ship days toward the deficit of 2,564 days identified 
in the NMFS Stock Assessments Improvement Plan as needed for adequate 
stock assessment coverage. Included in this increase is $1.0 million to 
enhance the assessment of marine mammal population status and trends as 
required by the Marine Mammal Protection Act.
    A total request of $2.0 million for fisheries oceanography 
represents a $2.0 million increase above the Fiscal Year 2001 level. 
This request is comprised of two increases, $1.5 million for NMFS and 
$0.5 million for fisheries oceanography within the National 
Environmental Satellite, Data and Information Service (NESDIS). The 
$1.5 million increase will enable NMFS to assess how long-term 
environmental factors affect fish stocks. By better identifying the 
potential environmental causes of fish population fluctuations, NMFS 
will be able to improve its stock predictions and resultant management 
actions. The $0.5 million increase will enable NESDIS to explore using 
Synthetic Aperture Radar technology and data in fishery resources 
monitoring. This investment would build on applications demonstrated in 
October 1999 using RADARSAT-1 imagery in Alaska, and would result in 
radar data and products useful in fisheries enforcement, NMFS 
laboratories and for other agencies such as the Coast Guard.
    NOAA requests a total of $1.0 million to promote environmentally 
sound marine aquaculture. NOAA will improve the aquaculture regulatory 
framework by developing and implementing of a code of conduct for 
responsible aquaculture. NOAA will also address the important 
environmental aspects of aquaculture in the non-indigenous species 
area, especially for shrimp viruses.
    NOAA requests a total of $1.0 million for Pacific highly migratory 
species research. This request would fund growing and critical research 
needs as a new Fishery Management Plan for these species is 
implemented. Activities include: conducting stock assessments and 
biological studies for four major tuna species and three species of 
sharks, conducting research to evaluate the extent of bycatch and 
effectiveness of mitigation measures in purse seine fishing using fish 
aggregating devices, and developing and implementing assessment 
methodologies tailored for highly migratory species.
    A total request of $6.0 million for Cooperative Research represents 
an increase of $0.5 million over the Fiscal Year 2001 Enacted level. 
This request will expand cooperative research activities in the 
Southeast and will involve fishermen in designing and conducting 
research programs, utilizing their expertise and insights in resource 
survey design and interpretation. By working together to design and 
implement data collection programs, these partnerships between NMFS and 
the industry significantly strengthen fisheries research. This 
Southeast cooperative research effort compliments similar efforts, 
including Northeast Cooperative Research funded at $5.0 million, 
cooperative research coordinated by the Northeast Consortium funded at 
$5.0 million and, and National Cooperative Research efforts, funded at 
$3.0 million.
    A total request of $4.4 million for expanding economic and 
statistics research represents a $1.4 million increase over the Fiscal 
Year 2001 level. This request is needed to conduct economic and social 
assessments of management alternatives by improving NMFS' economic and 
social science staff capability, and initiation of data and applied 
research programs. This funding will enable NMFS to better evaluate and 
predict the economic and community impacts of potential management 
actions, and satisfy statutory, regulatory and Executive Order 
requirements for assessing the benefits and costs of fisheries 
management and protected species management actions
    NOAA requests a total of $8.0 million for the National Fisheries 
Information System. This investment will begin the implementation of a 
National Fisheries Information System to improve the quality, 
timeliness, coverage and access to data collected by state and Federal 
entities for use in the science and management of fisheries. This 
system will be developed in cooperation with the fishing industry, 
states, interstate fisheries commissions, and other stakeholders as 
outlined under section 401 of the Magnuson-Stevens Act. The funding 
provided to the Atlantic States Marine Fisheries Commission for 
regional implementation activities in Fiscal Year 2001 is included in 
addition to this funding. The proposed system would improve the 
accuracy and effectiveness of existing data collection programs by 
establishing common data collection, information technology, and 
quality standards for regional programs, and integrating the results 
into unified Web-enabled information system. The proposal will also 
fill critical information gaps through initiation of new data 
collection programs that will subsequently improve living marine 
resource policy decisions by reducing data uncertainties.
    NOAA requests a total of $1.0 million to reduce fishery impacts on 
essential fish habitat. This request funds research that will focus on 
the effects of specific fishing activities on essential fish habitat, 
comparing those impacts with other sources of habitat degradation, 
monitoring habitat recovery in areas where fishing has been curtailed, 
and developing management strategies to ensure sustainable harvesting 
practices.
    NOAA requests $4.0 million for additional Fishery Observers - 
Improving Data Collection. This investment will provide for increased 
observer coverage to minimum levels around the country as required by 
regulation or to optimal levels as recommended by fisheries scientists 
for statistical validity, and initiates coverage in fisheries that were 
previously not observed. Observers are increasingly essential to 
managing fisheries and marine mammal stocks. To improve the quality of 
data collected by observers and to provide a more sound base for 
fishery management decisions, the plan includes resources to provide 
better coordination and consistency of NMFS observer program policies 
and procedures. It also provides for the development of technological 
enhancements to make the future observer program less costly and more 
efficient. A total request of $10.0 million for Fisheries Habitat 
Restoration represents an increase of $2.0 million over the Fiscal Year 
2001 level. These funds will expand NMFS involvement in community- 
based restoration projects. This highly successful national effort 
encourages partnerships with groups outside NOAA and has regularly 
leveraged appropriated funds by factors of five to six, and by as much 
as ten to one.Presently, NOAA receives many more high-quality habitat 
restoration proposals than it has funds to support. The requested funds 
would enhance national restoration efforts to meet this enthusiastic 
demand.
    NOAA requests a total of $0.3 million for Habitat Characterization. 
This investment will allow NESDIS to develop maps of fishery habitat 
distributions in space and time, and to answer important questions with 
such maps. A computer mapping capability will be created that will 
allow spatial/statistical delineations (stratification) of the 
landscape. Such maps can represent inferred ecosystem ``potentials'' 
that are critical in monitoring, assessment, and management. The system 
will allow rapid iteration of the mapping process, thus affording 
opportunities to test, modify, and document model criteria, statistical 
mapping technique, and data selection. In this manner, habitat maps can 
be adaptively maintained.
Management
    NOAA requests a total of $1.5 million to refine essential fish 
habitat designations.This request funds programs to collect critical 
scientific data needed to identify essential fish habitat more 
precisely for managed species, enhancing the effectiveness of fishery 
management actions, and filling data gaps that can result in 
litigation.
    NOAA requests a total of $3.5 million for the Northeast Fisheries 
Management program. This investment will enable NMFS to continue 
rebuilding overfished and overcapitalized Northeast fisheries including 
groundfish and scallops by reducing the amount of fish takes by 
fishermen, thus giving the fish stocks time to recover. Funding will 
also be used, in part, to implement new and innovative cooperative 
research efforts in the Region.
    The total request of $15.6 million for Regional Councils represents 
an increase of $2.5 million above the Fiscal Year 2001 Enacted level. 
This continued investment will support all eight Regional Councils' 
increased workload from new programs and regulations as a result of 
implementing the Sustainable Fisheries Act amendments to the Magnuson-
Stevens Act. The Regional Councils are integral partners with NOAA in 
the management of the Nation's fisheries. NOAA is the Regional 
Fisheries Councils' only source of funding to carry out their mission.
    The total request of $6.3 million for marine sea turtle activities 
represents an increase of $3.0 million over the Fiscal Year 2001 
Enacted level. This investment will allow NOAA to recover Atlantic and 
Pacific marine sea turtle stocks threatened by domestic and 
international fisheries interactions as well as inadequate conservation 
of marine turtles on nesting beaches.
    The total request of $4.5 million for dolphin conservation and 
recovery represents an increase of $1.0 million over the Fiscal Year 
2001 Enacted level. This investment will allow NOAA to expand current 
activities in dolphin stock identification and assessment, to reduce 
mortality incidental to commercial fishing activities, and to initiate 
efforts to use bottlenose dolphins as an indicator of the health of the 
ecosystems they occupy.
    The total request of $3.5 million for Atlantic salmon represents 
and increase of $1.5 million over the Fiscal Year 2001 Enacted level. 
This investment will allow NOAA to conserve and restore healthy 
populations of Atlantic salmon in the Gulf of Maine Distinct Population 
Segment (DPS) and their habitats. NOAA will use this investment to 
expand the monitoring of Atlantic salmon population dynamics, expand 
habitat assessment and conservation, enhance scientific knowledge 
related to human resource usage and development activities that are 
affecting species survival, and strengthen evaluations to minimize risk 
through coordinated planning, innovative partnering, and on-site 
involvement in restoration, conservation, and protection activities.
    The total request of $7.0 million for Northern Right Whales 
represents an increase of $2.0 million over the Fiscal Year 2001 
Enacted level. This investment will allow NOAA to expand current 
Northern Right Whale population and health assessments and recovery 
efforts in the North Atlantic and in the North Pacific.
Enforcement
    The total request of $47.3 million for Enforcement Activities 
represents an increase of $10.0 million above the Fiscal Year 2001 
Enacted level. This continued investment will allow NOAA to modernize 
its fisheries and protected species enforcement programs. Improved 
enforcement is essential to ensuring that fisheries regulations are 
effective and yield conservation benefits for the industry and the 
public. Of the total funding amount, $7.4 million (of which $6.1 
million is new funding) is included for additional support, continued 
modernization and expansion of the vessel management system (VMS) 
program. The VMS national program is capable of accommodating nearly 
10,000 vessels throughout a number of different fisheries. The request 
also includes $39.9 million (of which $3.9 million is new funding) to 
expand and modernize base enforcement programs. These programs include 
Alaska and west coast groundfish enforcement, protected species 
enforcement, state and local partnerships, specialized Magnuson-Stevens 
Act investigatory functions, community oriented policing and problem- 
solving, and swordfish/Patagonian toothfish import investigations.
Modernization of the Marine Transportation System (MTS)
    Since our Nation's founding, maritime trade has been vital to 
economic prosperity. NOAA's lineage dates back to 1807 when President 
Thomas Jefferson called for charting the coasts and harbors. Today, 
more than 95 percent of U.S. foreign trade moves by sea. In 1998, about 
2.4 billion tons of cargo moved on our waterways and through our ports. 
U.S./foreign waterborne commerce grew about 23 percent from 1993 to 
1997about 4.6 percent per year. Trade is projected to at least double 
by 2020. Vessels have also grown dramatically; over the last 50 years, 
the length, width, and draft of commercial vessels has doubled, pushing 
the limits of many ports and posing significant safety concerns. 
Ensuring safe and efficient port operations is vital to maintaining the 
competitiveness of the U.S. port industry and exports. Growth in ferry, 
cruise line, and recreational boating is contributing to increased 
congestion on our waterways.Nearly half of all goods in marine commerce 
are petroleum products or other hazardous materials. One key to 
reducing risk is to invest in the national information infrastructure 
that supports the safe and efficient movement of goods and people.
    In 1998, Congress directed Federal agencies to produce an 
assessment of the U.S. Marine Transportation System (MTS) and a plan 
for modernizing government navigation services. This Fiscal Year 2002 
request is NOAA's effort to direct a set of targeted investments to 
expand and capitalize on its existing programs in Mapping and Charting, 
Survey Backlog, Geodesy, Tide and Current Data, Response and 
Restoration, and Fleet Replacement to further the goals of this ongoing 
effort. This is a first step toward developing a 21st century 
transportation system that can address the major issues faced by the 
country in maritime safety, security, infrastructure, the environment, 
and competitiveness.
    NOAA maintains the Nation's suite of nautical charts, the coastal 
water level observations system, and the geodetic positioning reference 
system needed to ensure safe navigation. NOAA also maintains the 
scientific expertise to respond to hazardous releases when they occur. 
NOAA charts are developed from NOAA's hydrographic and shoreline 
surveys, tide and current measurements, and national geodetic/
geographic positioning data, as well as information from other sources. 
Demonstration projects have shown that these programs can provide the 
accurate data necessary for determining precise under-keel and 
overhead/bridge clearances and support near zero visibility docking, 
allowing commercial vessels to more safely navigate and efficiently 
load and move cargo in and out of depth-limited harbors. NOAA's 
integrated suite of surveying, charting, water level, and positioning 
services is capable of increasing the efficient movement of goods while 
significantly reducing the risk of marine accidents and resulting 
environmental damage. When accidents do occur, NOAA can provide the 
necessary support to ensure a scientifically-based response and 
restoration of damaged coastal resources. Economic benefits include 
reducing vessel fuel consumption and port pollution, supporting just-
in-time delivery of goods, enhancing the competitiveness of U.S. 
exports, and restoration of important coastal resources that support 
tourism, fishing, and other ocean- and coastal-dependent industries. 
Specific program increases are described in detail below.
    NOAA requests an increase of $3.6 million for Electronic 
Navigational Charts (ENCs). This continued investment will allow for 
the ongoing production and maintenance of ENCs and the ability to 
enhance and expand the full suite of ENCs to a total of 200 from the 70 
in existence at the end of Fiscal Year 2000. ENCs provide a more 
complete picture of coastal waterways. NOAA requests an increase of 
$1.0 million for Shoreline Mapping. This investment will allow for a 
more accurate national shoreline. An increased emphasis on shoreline 
mapping is required to keep pace with the growing stress on our 
Nation's marine transportation system and to assist states and coastal 
managers.
    NOAA requests an increase of $0.5 million for the National Spatial 
Reference System (NSRS). This investment will increase the Nation's 
access to the Continuously Operating Reference Stations (CORS), a set 
of Global Positioning System (GPS) stations, and the mainstay of the 
NSRS. This investment will expand the number of National CORS, expand 
the Federal Base and Cooperative Base Network stations connected to the 
national standard for vertical heights, which are used for all 
applications that require surveying. These activities will provide 
better access to accurate and consistent height data for a wide-range 
of economic pursuits.
    NOAA requests a total of $0.5 million to Implement Forecast Models. 
This investment will enhance tides and tidal current services to the 
user by obtaining new current meter measurements at locations critical 
to the navigation community and by accelerating the development of 
nowcast/forecast products for users of oceanographic data.
    NOAA requests a total of $3.0 million for Coastal Storms. This 
investment will build upon existing NOAA environmental monitoring and 
data management capabilities and will enhance our efforts to provide 
Marine Transportation System users, as well as coastal resource 
managers, with the data and tools needed to safely maximize commercial 
shipping, mitigate hazards, and sustain the environmental health of 
coastal communities and resources when disasters strike. Initial 
efforts will focus on a pilot project in Florida and include updating 
shallow water bathymetry, adding sensors to National Water Level 
Observation Network stations, and developing a hydrodynamic model for 
improved forecasting applications.
    NOAA requests an increase of $2.0 million for Spill Response and 
Habitat Restoration. This investment will develop and distribute tools 
and guidance to assist decision makers when releases of contaminants 
occur within the Marine Transportation System and other coastal 
environments. These funds will enable NOAA to more accurately evaluate 
the effectiveness of spill response measures, leading to improved 
response techniques as well as better methods of restoring injured 
resources.
    The total request of $9.5 million for the FAIRWEATHER repair and 
activation represents an increase of $2.7 million above the Fiscal Year 
2001 Enacted level. This continued investment will complete the 
refurbishment and reactivation of the FAIRWEATHER and help reduce the 
survey backlog, a high marine transportation priority. This project was 
directed by Congress in 2001 and makes efficient use of this vessel 
which has been located at NOAA's Pacific Marine Center. With its home 
port in Alaska, the FAIRWEATHER will provide a platform that will help 
reduce the critical hydrographic survey backlog.
Other Key NOAA Programs
    The total request of $14.0 million for Ocean Exploration represents 
an increase of $10.0 million above the Fiscal Year 2001 Enacted 
level.Despite covering 70 percent of Earth's surface, the oceans remain 
largely unexplored and unknown. Not surprisingly, most of the oceans' 
resources remain untapped. Our best scientists believe that fewer than 
25 percent of the species that live in the oceans have ever been 
identified. Even within America's own Exclusive Economic Zone (EEZ), 
less than five percent of the ocean floor has been mapped in high 
resolution. In fact, prior to Fiscal Year 2001, the United States did 
not even have a concentrated program of ocean exploration. As a result, 
NOAA has pursued a course of ocean resource management without adequate 
decision-making data and information being available to policy makers, 
regulators, and commercial users of the ocean's resources.
    However, today we live in an age of technological innovation. There 
are many opportunities that simply were not available in earlier 
decades. We now can completely rethink how we might conduct exploration 
in Earth's oceans. Developments in sensors, telemetry, power sources, 
microcomputers, and materials science have greatly improved our ability 
to go into and study the undersea frontier.
    The benefits of such a program of exploration are potentially 
enormous. For example, gas hydrates comprise more than 50 percent of 
all of our planet's carbon and potentially hold more than 1000 times 
the fuel in all other estimated reserves combined! In addition, there 
are certain to be other benefits which currently are beyond our ability 
even to conceive. With 95 percent of the underwater world still unknown 
and unseen, what remains to be explored may hold clues to the origins 
of life on earth, cures for human diseases, answers to how to achieve 
sustainable use of our oceans, links to our maritime history, and 
information to protect the endangered species of the sea.
    We are stewards of our oceans' resources. We need to explore and 
know more about our oceans if we are to effectively manage them. We 
need to explore the oceans in the same way that the U.S. has 
successfully explored space. We need to determine what our marine 
resources are, their relative abundance, and the rates at which they 
can be used and replenished. Accurate knowledge of the oceans is 
essential for environmental, economic, and national security.
    The Fiscal Year 2002 budget increase will enable NOAA to fund six 
major and several minor interdisciplinary voyages of discovery that 
will map the physical, geological, biological, chemical, and 
archaeological aspects of parts of the U.S. EEZ. NOAA will conduct 
missions of exploration in the Gulf of Mexico, South Atlantic Bight, 
Northwest Hawaiian Islands, Northeast Pacific, California, and the Gulf 
of Alaska. Education and outreach is a major component of NOAA's Ocean 
Exploration Initiative. NOAA will carry-out this program relying on 
partnerships with universities, the private sector, and other agencies. 
NOAA's Ocean Exploration Initiative will help us to fulfill our 
national strategic goals to Sustain Healthy Coasts, Recover Protected 
Species, and Build Sustainable Fisheries.
Marine Environmental Research
    The total request of $11.6 million for Marine Environmental 
Research represents an increase of $1.8 million above the Fiscal Year 
2001 Enacted level. This continued investment will support ongoing 
operations at OAR's Atlantic Oceanographic Meteorological Laboratory 
(AOML) and the Pacific Marine Environmental Laboratory (PMEL). The 
requested funds will enable AOML's Remote Sensing Division to 
reactivate its field measurements that provide data for major community 
health-related decisions in contaminant-release emergencies in Florida 
and elsewhere.Coral reef monitoring activities are also supported. 
These funds will also enable PMEL's Fisheries Oceanography program to 
continue ocean measurements planned for the Gulf of Alaska and the 
Bering Sea. These funds are important to the study of the potential 
influences of climate changes on recent shifts in the species 
composition of these ecosystems including declines in salmon and 
Steller sea lion populations.
    NOAA requests a total of $2.0 million for the Estuary Restoration 
Act. This investment will allow for NOAA-wide activities mandated by 
the Estuary Restoration Act of 2000. NOAA will work with other partners 
to implement a national estuary habitat restoration strategy designed 
to ensure a comprehensive approach towards habitat restoration 
projects. Healthy estuarine ecosystems provide a number of benefits 
pertaining to wildlife habitat, commercial and recreational fisheries, 
water quality, flood control, erosion, and outdoor recreation. NOAA's 
activities include the development of scientifically sound monitoring 
protocols and standards for coastal habitat restoration projects 
throughout the United States and its protectorates. NOAA will develop 
restoration databases that provide quick and easy access to accurate 
and up to date information regarding all projects funded under the 
Estuary Restoration Act of 2000. This work will provide scientists and 
resource mangers with information critical to successful estuary 
habitat restoration efforts.
    The total request of $63.8 million for Marine Services represents 
an increase of $1.9 million above the Fiscal Year 2001 Enacted level. 
This continued investment will allow NOAA to operate its fleet of 15 
vessels capable of safely collecting hydrographic and coastal 
assessment data, conducting fishery independent scientific and survey 
operations, and conducting sustained oceanographic and atmospheric data 
collection in various marine environments and provides funds for 
outsourcing to meet some data-collection requirements. The request 
includes an increase of $1.0 million to provide days-at-sea, primarily 
through University-National Oceanographic Laboratory System (UNOLS) and 
charter vessels, to support research in the Gulf of Mexico concerning 
the interactions of the Mississippi River plume, nutrient loading, and 
resulting effects of hypoxia on Gulf fisheries. These funds will also 
maintain or increase day-at-sea levels supporting other NOAA programs, 
including the science programs in NOS and the sanctuary program. The 
request also includes an increase of $0.9 million which will be used to 
pay the increased costs for operating the ADVENTUROUS' and to add days-
at-sea on fisheries research vessels. The ADVENTUROUS, which will 
replace the TOWNSEND CROMWELL, is a larger and more capable vessel that 
will carry more scientists and complete more research on a daily basis.
NOAA's Budget and Financial Management
    NOAA requests a total of $19.8 million for the Commerce 
Administrative Management System (CAMS). This investment will allow for 
the full benefit and value of CAMS to be realized in NOAA.CAMS is in 
the final stages of completion, expected in Fiscal Year 2003, and 
adequate funding will ensure that CAMS is deployed in a timely manner, 
allowing all modules to progress toward completion. Once fully 
deployed, CAMS will contribute in significant ways to maintaining a 
clean NOAA financial audit through systematic controls rather than 
through labor-intensive manual efforts. It will provide managers with 
on-line, real-time, and accurate financial information in support of 
their programmatic missions, and will be legally compliant. Requested 
funding for CAMS is vital to preserve NOAA's ability to have a 
satisfactory financial accounts system and allow NOAA and DOC to meet 
statutory obligations under the Federal Managers' Financial Integrity 
Act (FMFIA) and the Chief Financial Officer Act (CFO Act).
    For the Fiscal Year 2000, NOAA received an unqualified opinion on 
NOAA financial statements from an independent auditor. The Fiscal Year 
2000 audit represents the second consecutive year NOAA has received a 
clean audit and demonstrates the intensive efforts made by NOAA to 
improve financial management. NOAA continues to place a high priority 
on improving fiscal and financial management in order to increase 
accountability and efficiency.
    Over the past several years, NOAA has been working to respond to 
Congressional concerns stemming from the NOAA budget structure. The 
Congressional Appropriation Committees have challenged NOAA to make 
recommendations to simplify its budget structure. NOAA has taken 
several actions that address the restructuring of its budget and 
financial management processes. The outcome of these actions is already 
apparent and demonstrated in its improved budgetary communications as 
well as in the improved accuracy of its documentation (e.g., sustaining 
a clean audit and improved timeliness in the distribution of funds). 
NOAA continues to work toward meeting the challenges of restructuring 
the NOAA budget and is excited about the improved efficiency a new 
budget structure will bring.
    As evidenced by NOAA's improving financial and budgetary 
management, NOAA is doing its part to exercise fiscal responsibility as 
stewards of the Nation's trust as well as America's coastal and ocean 
resources. And, in the same way that NOAA is responsible for assessing 
the Nation's climate, we are responsible for assessing our management 
capabilities. It is within this broader management context that NOAA 
continues looking for opportunities to improve. NOAA's Fiscal Year 2002 
Budget Request includes measures which track results to the level of 
public investment. NOAA will continue to leverage its programs and 
investments by developing those associations that most efficiently and 
economically leverage resources and talent, and that most effectively 
provide the means for successfully meeting mission requirements.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Scott.
    I think, with the indulgence of Mr. Jones, since we do have 
a couple of votes at 10 o'clock and Scott has to leave, we will 
do some questions, Scott, for the next few minutes.
    Mr. Jones. Fine. Absolutely.
    Mr. Gilchrest. Scott, I think we can hold you a little 
after 10, because everybody is going to leave at 10, so your 
next hearing will be disrupted as well, if that is all right.
    Mr. Gudes. Yes, sir.
    Mr. Gilchrest. That way members can ask those questions.
    Mr. Gudes. Sir, I follow Secretary Evans. I will stay.
    Mr. Gilchrest. What was that?
    Mr. Gudes. I need to back up Secretary Evans at the next 
hearing, and, as you point out, that hearing will be--
    Mr. Gilchrest. I see. I think by the time they can get 
started--I don't think they can get started.
    Mr. Gudes. Yes, sir.
    Mr. Gilchrest. Thank you very much.
    A couple of quick items: Is there any proposal being 
floated around in NOAA about an expansion of any particular 
marine sanctuary? Or are there any areas around the Exclusive 
Economic Zones that you might want to expand or add a new 
Marine Protected Area?
    Mr. Gudes. First of all, in terms of sanctuaries, I think 
all of the sanctuaries deal with this issue as part of their 
just being sanctuaries, whether or not there is an expansion of 
boundaries.
    I know, for example, to answer your question, at the 
Channel Islands Marine Sanctuary in California, there is an 
ongoing proposal on what their boundaries should be, how far 
should they expand beyond current boundaries, and should they 
have areas that exclude, for example, ongoing oil and gas 
exploration in that area.
    I think you know, Mr. Chairman, I think it was last week, 
the State of Florida and Governor Bush's Cabinet supported the 
creation of an MPA, if you will, for the Tortugas Ecological 
Reserve as part of the Florida Keys sanctuary.
    I think, actually, this is an issue that is part of the 
ongoing review and understanding of the Marine Sanctuary 
Program. But I do think that, in each case, where these issues 
are successful, it is because of the local people.
    Mr. Gilchrest. Same with a wildlife refuge. If it is 
managed appropriately by the people in the region, I think 
there is more of a chance of expansion.
    Mr. Gudes. Our local managers, like Billy Causey in the 
Keys, work very hard with the local community. They have 
advisory committees that include the fisherman, include the 
divers, include the people who work with the resources. And it 
is all from a consensus-based approach, and it is one of the 
things that is a very important part of these.
    Mr. Gilchrest. Another question: Is there enough money in 
NOAA to come up with a pretty clear analysis of the Navy's use 
of sonar and its impact on whales under certain circumstances? 
I understand it is an ongoing research study with the Navy. Is 
there anytime soon that we can see some type of analysis or a 
further conclusion to that?
    Mr. Gudes. Both in general, Mr. Chairman, sound in the sea 
and its effects on marine mammals is, of course, a big issue. 
NOAA fisheries really plays the lead role in that.
    There is a specific issue now out for public comment, 
having to do with a specific proposal by the Navy for a low-
frequency sonar called the LFA SURTASS, I believe the name is, 
where we are involved in going out to the public and holding 
public hearings; I probably shouldn't comment on that specific 
one.
    But sound in the sea and sonar and its impact on marine 
mammals, this is something also that I think we work closely 
with the Navy on, in the last year especially, to work together 
in terms of issues. And the Navy takes a number of measures, 
for example, in terms of military uses of sonar, to ensure that 
there is not a negative impact on marine mammals.
    [NOAA's response follows:]

                  NOAA-Navy Low Frequency Active Study

    Although there has been no comprehensive NOAA-Navy Low Frequency 
Active (LFA) study to date, NOAA and the Navy did prepare a preliminary 
report last summer on the investigation into the stranding of beaked 
whales in the Bahamas. A final report on this investigation should be 
completed this summer. We will provide a copy of the report as soon as 
it is available.
    In addition, NOAA consulted with the Navy on a Environmental Impact 
Statement on LFA for their Surveillance Towed Array Sensor System, 
described more fully below. Our liaison with Navy indicates that the 
Executive Summary of the Final EIS was provided to your staff. Copies 
of the entire Final OEIS/EIS and technical reports of this research are 
available from Navy. NOAA will be pleased to assist the Committee in 
obtaining these reports, as desired:

Background on NOAA-Navy LFA Consultation

    In the early stages of the preparation of the Surveillance Towed 
Array Sensor System (SURTASS) Low Frequency Active Overseas Environment 
Impact Statement/Environmental Impact Statement (LFA OEIS/EIS), Navy 
organized a Scientific Working Group (SWG) on ``The Potential Effects 
of Low Frequency Sound on the Marine Environment.'' This was a forum 
for scientific discourse among government and non-governmental 
organizations to address the underlying scientific issues. NMFS 
participated in the SWG and throughout the progress of the resulting 
scientific research and its integration into the OEIS/EIS as a 
``cooperating agency'' with Navy.
    Navy provided resources for the Low Frequency Sound Scientific 
Research Program (LFS SRP), that involved approximately 60 researchers 
studying the potential effects of low frequency sound on baleen whales, 
and the Diver Risk Analysis Team, that developed guidance for safe 
exposure limits for recreational and commercial divers who might be 
exposed to low frequency sound.

The SRP involved controlled experimental tests in three phases that 
        involved the following species and settings

    <bullet> LPhase 1: Blue and fin whales feeding in the Southern 
California Bight (September-October 1997)
    <bullet> LPhase 2: Gray whales migrating past the central 
California coast (January 1998)
    <bullet> LPhase 3: Humpback whales off Hawaii (February-March 1998)

Final OEIS/EIS for Surveillance Towed Array Sensor System Low Frequency 
        Active (SURTASS LFA) SONAR

    <bullet> LTechnical Report 1 - Low Frequency Sound Scientific 
Research Program Technical Report
    <bullet> LTechnical Report 2 - Acoustic Modeling Results
    <bullet> LTechnical Report 3 - Summary Report on the Bio-effects of 
Low Frequency Waterborne Sound (Divers)
                                 ______
                                 
    Mr. Gilchrest. Last question I have now--I do have a series 
of questions, and I would like to set them up here, Scott, and 
get some response over the coming weeks: The Chesapeake Bay has 
had a program with NOAA for ballast water. And ballast water in 
our region, because of the vulnerability of the bay as a result 
of it being so shallow, and the heat in the summertime, it is 
susceptible to a lot of problems, one of which is the ballast 
water issue. And you zeroed out ballast water study in your 
budget.
    We were wondering if we could--
    Mr. Gudes. We hear you. Not everything can end up back in 
the budget, but I should say that actually ballast water is an 
issue that the Sea Grant program does a lot of work on. The 
University of Maryland Sea Grant program is working on the use 
of ultraviolet light to try to treat water and ballast.
    Some of our port partners, like the Long Beach port, are 
doing a lot of work to try to educate shippers, as well as with 
the new technologies. I don't know the specifics of the--
    Mr. Gilchrest. We would like to work with you to somehow 
get that--
    Mr. Gudes. Yes, sir.
    Mr. Gilchrest. Mr. Underwood?
    Mr. Underwood. Thank you, Mr. Chairman.
    I am very heartened, Scott, by the interest in ocean 
exploration, and I am glad to see that there is a $14 million 
request in the administration's budget.
    However, other than your basic comments that you made 
earlier about this emphasis, it really seems to me that it 
really lacks clarity in terms of what kind of exploration this 
office is going to do. I know that it is emerging, but I would 
like to hear some ideas.
    And then I want to also ask whether the ideas expressed in 
last year's report by the previous administration's panel on 
ocean exploration, especially the emphasis on the development 
of new technologies to facilitate deep-ocean exploration, I 
want to hear what your comments are about that and see if NOAA 
has received that kind of emphasis.
    Mr. Gudes. Well, first, a real priority, Congressman, I am 
looking forward to the $4 million that Congress provides for 
the jump start of this program. And as I mentioned, that is 
going to ensure a few things, including some specific missions 
this summer.
    We have 30 days on the ALVIN, the deep-sea submersible for 
the ship the ATLANTIS, and we will be working on the east 
coast, for example. Secondly, we created an office of ocean 
exploration, a small office, in our research component. But it 
is a joint NOAA office. The first is new frontiers. The second 
is new products, drugs, different types of products of the 
ocean resources. Third, America's heritage; there are the 
shipwrecks--I don't have the exact number--there are thousands 
of shipwrecks that have really not been explored. As I 
mentioned, census of marine life and deep-ocean exploration.
    There is a theme to the President's panel, which talked 
about nonhypothesis-driven exploration. It may be a nuanced 
difference, but we are trying to follow what the President's 
panel told us they want us to do in ocean exploration.
    And what that means is, in the case of these missions, for 
example, in September, we are going to go to the Hudson Canyon; 
we are going to some of the canyons on the east coast. We are 
going to go there to explore, but we also are going to be doing 
science when we go there.
    The difference is that our National Undersea Research 
Program over the years has tended to be hypothesis-driven, 
where we go into an area for a specific type of research 
intent. So that is one area.
    In terms of the investment in technology, I do think that 
for this country, overall, that is a real issue that the 
commission pointed out. The Alvin, which is our principal 
person submersible, was built about 1964, 1965, and it has been 
renovated since that time. It is principally run by NSF; NOAA 
has some portion of days on there. The Aquarius, which is our 
undersea habitat off the Keys, which is run by the University 
of North Carolina at Wilmington, again, older technology.
    That is a real issue, and it is my hope that the ocean 
exploration program will get all Federal agencies to focus on 
the new technology issue, not just NOAA.
    Mr. Underwood. You know, there is no deeper part of the 
ocean than where I am from.
    Mr. Gudes. Yes, sir.
    Mr. Underwood. And I am sure interested in that technology, 
and I am glad you recognize the fact that technology has not 
been developed for several decades. And that is always of 
interest to me.
    So now, am I understanding that you are talking about 
mapping and you are talking about commercially driven or 
products that we can get out of the ocean, and we are also 
talking about exploitable resources? Is that what you mean?
    Mr. Gudes. Yes, sir.
    Mr. Underwood. On the Marine Protected Areas, under 
Executive Order 13158, it called for NOAA and other Federal 
agencies to develop a nationwide system of Marine Protected 
Areas. In your budget, there is request of $3 million to 
complete this process that was detailed by this executive 
order.
    How much of this money has been spent for this purpose? And 
is this money sufficient to carry out the activities envisioned 
under this executive order?
    Mr. Gudes. I think it is only a one-person office in the 
Fisheries Santa Cruz lab that we have. And that is really the 
science center, if you will, or the site that we will run a lot 
of science for this issue of MPAs, which is a term, actually, I 
think, that probably means a lot of different things to a lot 
of different people. And I probably should comment on that.
    And then secondly, at the training site in Charleston, at 
the Coastal Services Center, we try to work with marine 
managers in terms of the larger issue of MPAs. We did that out 
of existing funds. I think we are talking several hundred 
thousand dollars in the current year.
    The budget proposal is $3 million, actually, to reinforce 
those capabilities and to be able to do more science in terms 
of MPAs overall. Our marine sanctuaries, all 14 of them, are 
MPAs. Our 25 National Estuarine Research Reserves are MPAs. 
There are also special areas of protection within those sites; 
those are MPAs.
    And so one of the issues on this whole issue, if you will, 
is the definition of an MPA. For us, it means all of the above. 
And often, the issue is, what is the science behind what kind 
of benefit this sort of area of special protection will have. 
We need to do that, and we are hopeful that the budget request 
will be supported.
    Mr. Underwood. Well, you know, in general, I am in support 
of MPAs, but there is a lot of loose thinking about what 
constitutes MPAs. And more importantly, at the community level, 
it is being interpreted to mean various things and being used 
in long-standing arguments between people interested in 
protecting the environment, people interested in pursuing 
indigenous practices.
    And it is very important that a very clear definition be 
given to this and, more importantly, that sufficient outreach 
be given to stakeholders in local communities, so that they 
have a good understanding. Because otherwise, I think we are 
setting up a dynamic for some local conflicts which are 
entirely unnecessary.
    Mr. Gudes. I think next week, Congressman, we are doing a 
public meeting in Charleston to talk about these issues. And a 
few weeks ago, we held one here in Washington, DC.
    And I agree with you, there is a lot of confusion about the 
issue of what does exactly MPA mean. If Margaret Davidson was 
here, who will be coming up, she would remind us this is an 
international term. Marine Protected Areas is an international 
term about special areas.
    Mr. Underwood. All right, thanks.
    I have other questions that I will submit for the record 
and let you proceed you to the other hearing.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    [NOAA's response to Mr. Underwood's statement follows:]

    Consumption of shrimp has steadily increased over the last decade; 
rising from 2.2 pounds per capita in 1990 to 3.0 pounds in 1999. The 
U.S. shrimp fishery has been relatively stable over that period, with 
landings fluctuating between a high in 1990 of 213.9 million pounds and 
low of 175 million pounds (heads-off weight) in 1994. In 1999, U.S. 
landings were 189.1 million pounds. According to the state of Texas, 
Texas shrimpers land about 70 million pounds of shrimp a year. The 
industry is experiencing low profit margins and faces competition from 
foreign imports and farm raised shrimp. Approximately 4-5 million 
pounds are raised annually on Texas shrimp farms. To meet the increase 
in consumer demand, imports of shrimp have continued to rise over the 
1990s. Imports of shrimp, at 579.4 million pounds (heads-off weight) in 
1990, have steadily increased to 959.9 million pounds in 1999. Setbacks 
to the Texas shrimping industry in recent years include rising fuel 
costs, level price of shrimp caught, the prohibition against fishing in 
Mexican waters, and measures to reduce the catch of sea turtles and 
other species in shrimp nets. The Texas shrimp industry is 
overcapitalized and the state is reducing the number of bay shrimpers 
in its waters. Although there has been some reduction in the shrimp 
fleet there remains a large number of vessels in the fishery. There 
were 5,676 vessels in the Gulf shrimp fishery in 1990, 4,682 vessels in 
1993 and 4,246 vessels in 1998 (the latest year available).
                                 ______
                                 
    Mr. Ortiz?
    Mr. Ortiz. Thank you, Mr. Chairman. I have a couple, or 
three questions for the Under Secretary.
    What is the priority of NOAA for fish stock assessments, in 
particular, the red snapper stock? How is NOAA working to 
address this need? And if this is a priority, what funding is 
being requested for these type of activities?
    Mr. Gudes. Congressman, red snapper is a very significant 
fishery, obviously, in the Gulf of Mexico. Bill Hogarth is 
here, who, before he got to Washington, was the southeast 
regional director.
    It is a difficult type of species in that they tend to 
congregate in certain areas, and it is a little more difficult 
to survey. We obviously use both our independent data as well 
as the industry statistics to take a look. It also is a species 
that is not a directed fishery but rather on the shrimp 
fishery, and so that is a big issue.
    I would say that, last year, Congress came forward with 
$8.3 million to help us do the kind of surveys that you have 
asked us to do. And that was one of the issues, Congressman. 
Our budget includes the continuation of $8.3 million, and I 
believe that our men and women in places like our Pascagoula 
laboratory will do the kind of research needed. And with the 
right management measures, we will bring back the stocks of red 
snapper.
    Mr. Ortiz. I have some other questions, like Mr. Underwood.
    I would like to enter into the record a story that came out 
in New York yesterday about progress and what we used to have. 
And this is for both of you; Mr. Jones as well.
    [The news article referred to follows:]

        Two Breeds of Survivor: Gulf Shrimp and Texas Shrimpers

                           By R. W. APPLE JR.

                      New York Times, May 2, 2001

    ARANSAS PASS, Tex.--For the better part of the last century, they 
billed this little port near Corpus Christi as ``the shrimp capital of 
Texas.'' As a matter of fact, it was one of the shrimp capitals of the 
United States, working flat-out to help satisfy the nation's ravenous 
appetite for its favorite shellfish.
    But not anymore. A few shrimpers still operate out of windswept 
Conn Brown Harbor, but the mood along the docks is decidedly downbeat.
    Imported shrimp have made up for any shortfall in the catch here 
and elsewhere in this country, so prices have not risen much. But 
fresh, never-frozen shrimp--always that little bit pinker and sweeter, 
always that little bit more succulent, in my obdurately old-fashioned 
view--are harder to find now, even in stores and on restaurant menus 
hard by the Gulf of Mexico.
    Stop for breakfast at the Bakery Cafe, founded in 1929, for a 
glimpse of Aransas Pass in its glory days. Color photographs mounted on 
the walls show dozens of trawlers in smart red-and-white livery, lined 
up with military precision, with a forest of masts and booms towering 
above.
    A waitress, whose name tag said ``Bobbi Ann,'' noticed me eyeing 
the photos and put me straight.
    ``Long gone,'' she said. ``Every one of them.''
    Long gone to Nicaragua, to which they were dispatched six years ago 
by their owner, Sydney E. Herndon. For a half-century, his companies, 
doing business here under the trade name Gulf King, caught, packed and 
shipped gulf shrimp.
    But Mr. Herndon, who is now 83 years old, finally gave up, 
convinced that he could find better weather, less bureaucratic bother 
and cheaper labor farther south, plus ample stocks of highly prized 
pink shrimp. As for the shrimp stocks here along the Coastal Bend of 
Texas, which once seemed inexhaustible, their well-being is the subject 
of urgent and impassioned debate. Here, as in other parts of the world, 
a combination of rapidly accelerating demand for fish, heightened 
ecological consciousness and more aggressive government intervention 
has unsettled the old order.
    Marine biologists, determined to safeguard the local sea turtle 
population, especially a rare species called Kemp's ridley, see the 
shrimpers' nets as a threat to their efforts, and government officials 
have backed turtle-protection plans. Fearful that overfishing could 
expose gulf shrimp themselves to the kind of dramatic depletion that 
hit the cod of the Grand Banks and the redfish of the Gulf of Mexico, 
the officials have also adopted tight restrictions on commercial 
shrimping in this area.
    The fishermen, beleaguered, feel misunderstood and persecuted.
    ``I'm like the last of the Mohicans,'' a grizzled skipper said as 
he unloaded his day's catch at the People's Street T-Head, a pier in 
downtown Corpus Christi, where a few small shrimp boats share space 
with excursion boats. ``Who's going to want to go into this work now?''
    Wilma Anderson, the hard-boiled, hard- smoking executive director 
of the Texas Shrimp Association, acknowledged that times are tough--but 
not, she said, because the shrimp are disappearing. Poor catches in 
recent years, she insisted, were part of the normal cycle of bad years 
and good, caused by the changing conditions in the estuaries where the 
shrimp eggs hatch.
    ``Our big problem is the environmentalists and the bureaucrats,'' 
Mrs. Anderson said. ``They won't let us catch our maximum, even in good 
times. The recreation and environment lobbies get listened to, but we 
don't. They outshout us at hearings, and they'd as soon as not put us 
out of business.''
    Although some studies have shown a 30 percent decline in shrimp 
stocks, the fishermen question those findings, and Hal Osburn, the 
director of the coastal fisheries division of the Texas Parks and 
Wildlife Department in Austin, conceded that estimating fish stocks was 
``an elusive thing at best.''
    He said that there had been no significant decline in the amount of 
shrimp landed in Texas in the last five years; the average from 1994 
through 1998, he said, was 216 million pounds, and the total for 1999 
was 236 million pounds.
    ``But we think we see warning signs, little things,'' Mr. Osburn 
continued, ``and because of them, we think it is time to be proactive. 
So, we've tightened up the regulations. The shrimpers hate it, but the 
fact is, if we wait until the stocks start to collapse, it may be too 
late to do much about it. And I don't propose to preside over the 
demise of the shrimp fishery in the gulf.''
    Federal figures collected over the last 39 years show that, on 
average, shrimp are caught earlier and earlier in their life cycle; 
that means that more and more of them are taken before they have a 
chance to reproduce. New technology has made it possible to peel and 
market the tiniest shrimp.
    ``All in all, it seemed to us that they were in danger of 
harvesting most of their chickens as chicks,'' Mr. Osburn said. ``We 
wanted to pull back from that, not to penalize the gulf shrimp industry 
but to save it.''
    DEEP-FRIED gulf shrimp are almost as much a Texas staple, at least 
in the eastern half of the state, as barbecue and chicken- fried steak. 
But these days, a lot of the ``gulf'' shrimp come from other, less 
familiar waters.
    Already, more than half the shrimp consumed in the United States 
comes from overseas, according to federal statistics. Much of this 
originates in Ecuador and Thailand, which specialize in farm-raised 
shellfish. Increasingly, gulf fishermen also have to compete with 
domestic shrimp farmers, including some located here along the Texas 
coast and others who operate in the seemingly unpromising setting of 
arid West Texas, where they utilize saline groundwater.
    ``In 1990, shrimp farming was essentially zero in the United 
States,'' said Addison L. Lawrence, a shrimp mariculture expert at 
Texas A&M's Port Aransas campus, on Mustang Island to the east. 
``Today, it's a $20 to $30 million annual industry in terms of value to 
the farmer. No matter what happens to the gulf fishery, farmed shrimp 
will have to fill much of future need.''
    The most famous seafood restaurant in these parts, the King's Inn, 
sits picturesquely in the evocative coastal marshlands south of Corpus 
Christi. ``On the water's edge,'' its advertisements say. As we 
approached the place along little-used back roads, my wife, Betsey, and 
I couldn't help thinking that the shrimp must practically jump from the 
water into the fry basket.
    An old-fashioned, curiously formal sort of fried fish emporium, the 
inn boasts white tablecloths, a crystal chandelier and a dress code. We 
overheard a hostess politely instructing a sheriff, who was sitting at 
the next table, to remove his hat while eating. Face reddening, he 
meekly complied.
    Someone in the King's kitchen knows how to fry. Oysters in a 
cornmeal batter were small, firm and nutty. Onion rings were sweet and 
spicy. And the shrimp were all that we had hoped for--butterflied, 
incredibly plump and juicy, their crunchy jackets light and greaseless, 
awaiting a squirt or two of lemon juice or a drop of Tabasco. We must 
have eaten a dozen each, and I quietly confessed to myself that I could 
have handled a dozen more.
    When it came time to pay the bill, I complimented the young man at 
the register and asked whether the inn had its own shrimp boats.
    ``Oh, no, not at all,'' he responded. ``Those shrimp come in by 
truck from San Antonio, from Sysco--you know, the big wholesale 
house.''
    We looked on other tables in the area for fresh local shrimp, 
without much success. A waiter at Vietnam, a busy place in Corpus 
Christi, told us that the chef stopped using local shellfish in his 
spicy Vietnamese shrimp salad and in his shrimp with eggplant because 
it sometimes smelled of gasoline. But Guy Carnathan's two restaurants 
out at Port Aransas, across the Inland Waterway, make do with the 
genuine article.
    Mr. Carnathan buys his shrimp every day from a local boat. At 
Beulah, his upmarket establishment, he seasons them with lime and 
cayenne, grills them a second or two less than you or I would and 
serves them with a cilantro pesto on the side. The centers of the 
shrimp stay sweet, mild, still fleshy, while the edges, charred by the 
grill, provide a crisp, bitter accent.
    Next door, at his bar and bistro, which is called ``The Other Guy's 
Cafe,'' Mr. Carnathan turns out nonpareil regional classics, including 
deep-fried shrimp. I found them wonderfully tender, a notch better than 
the King's Inn's, and the portions were smaller, so this time we did 
order seconds. ``There is freezing and freezing,'' an old seafood hand 
told me. ``Freeze shrimp the minute you catch them and keep them frozen 
until you cook them--do that and you can't tell them from fresh. But 
that's not what happens in 99 percent of the cases these days. They're 
frozen, thawed, sorted, refrozen and rethawed. You have to have a cast-
iron palate not to taste the difference between that stuff and fresh 
shrimp.''
    In addition to telling the shrimpers where they can fish, when they 
can fish and what they can catch, the state has required them for the 
last decade to use ``turtle excluder devices,'' which are metal plates 
or pieces of webbing designed to keep turtles out of the nets.
    The fight to save gulf turtles centers on Kemp's ridleys, the most 
seriously endangered of the five sea turtle species in the region. They 
weigh as much as 100 pounds each.
    Environmental groups sought the excluders and tighter restrictions 
on shrimping zones and seasons in the conviction that most of the 
turtles washed up on beaches had died in shrimpers' nets. Since the 
various limitations have been imposed, the population of Kemp's ridleys 
has slowly increased to about 9,000 adults, according to Donna J. 
Shaver-Miller, a research biologist, who heads the United States 
Geological Survey's field station on nearby Padre Island.
    ``Not all the turtles that are stranded--killed, wounded, sick--are 
stranded because of the shrimp trawlers,'' said Dr. Shaver-Miller, 
whose soft-spoken manner masks a passion for her work. ``But it's a 
significant factor. Our figures show that there has always been a big 
reduction in strandings during the closed shrimp season.''
    Mr. Herndon, the rubicund old-timer who runs Gulf King, has another 
set of figures, which, he said, proves the opposite. Shrimpers, he said 
``don't catch any turtles, never have, but the people who make the 
rules don't accept what we say.'' During last summer's closure, he 
insisted, there were 41 strandings, against 38 in the comparable six-
week period that followed the closure.
    In addition to moving his boats south, Mr. Herndon was forced to 
shut down a $12 million shrimp processing plant that was built in 1986.
    ``If the shrimp industry collapses,'' Mr. Herndon said, with 
considerable asperity, ``it's Osburn's and Shaver's regulations that 
will cause it, not overfishing by our boats.''
    The Texas authorities began sharply curtailing the number of new 
bay shrimp boat licenses in 1995 to guard against the danger of more 
and more boats pursuing a finite number of shellfish. So far, 550 
licenses have been bought back for $2.8 million, and Mr. Osburn, the 
Parks and Wildlife official, said he hopes to get the number down to 
roughly 1,500 from twice that five years ago.
    Thousands of Vietnamese refugees, fishermen in Southeast Asia, took 
up shrimping 20 years ago in Texas and Louisiana, originally in small, 
cheap wooden boats well suited for fishing in the shallow, protected 
bays along the coast. Many settled in Rockport, a fishing village just 
north of here; its local celebrity is Dat Nguyen, a linebacker for the 
Dallas Cowboys.
    But bay fishing dwindled. Some immigrants found other jobs in 
Corpus Christi or Rockport, and others, with more capital, bought 
bigger seagoing boats and joined the Vietnamese-American colonies 
around Palacios and Port Lavaca, farther up the coast. Some of those 
boats--modern, efficient shrimp-stalking machines--cost $600,000.
    In the Mekong Delta, where most of the Vietnamese came from, they 
would qualify as ocean liners.
                                 ______
                                 
    Mr. Ortiz. We don't have a shrimping fleet any more. We 
have to put up with a lot of imported shrimp, from other 
countries. And I would like you to answer this question for the 
record. I think this is a very, very interesting problem.
    Mr. Gilchrest. Thank you very much, Mr. Ortiz. Your 
question will be submitted for the record.
    Mr. Gudes, thank you for coming. Good luck in your next 
hearing.
    Mr. Jones, we will be back as soon as we can.
    Mr. Gudes. Thank you.
    Mr. Gilchrest. The committee is in recess.
    [Recess.]
    Mr. Gilchrest. The Subcommittee will come back to order. We 
are trying to figure out what we are doing up here.
    [Laughter.]
    I think what we will do is, we will start with Mr. Jones. 
We will hear your testimony, sir. And then we will have the 
members ask questions both to NOAA and to deal with Fish and 
Wildlife issues.
    Mr. Jones?

  STATEMENT OF MARSHALL JONES, ACTING DIRECTOR, U.S. FISH AND 
                        WILDLIFE SERVICE

    Mr. Jones. Thank you, Mr. Chairman. We will be pleased to 
work with you in any way we need to as you go through your 
procedures this morning. We have plenty of hours, too.
    I am very pleased to be here today to discuss the Fiscal 
Year 2002 budget request for the Fish and Wildlife Service. The 
administration is requesting $1.78 billion, an increase of 
about $30 million from last year's request and $205 million 
more than was appropriated in Fiscal Year 2000. My formal 
statement contains extensive details relating to these amounts 
that I won't repeat now, but I do want to highlight some of the 
issues.
    The request for the resource management account, which 
funds the bulk of the service's operational programs, is $807 
million, which is essentially the same amount appropriated last 
year, although it has some different components, and $92 
million more than was appropriated in Fiscal Year 2000.
    Within this $807 million for what we would call base 
programs, there are proposed reductions of $41 million, 
primarily from the elimination of earmarks and pass-through 
funds and corresponding increases, which just coincidentally 
added up to about the same amount, restoring about $41 million 
for high-priority programs and for pay costs, the increases for 
those uncontrollable expenses, which Mr. Gudes has also alluded 
to in his testimony.
    Thus, while total funding for the resource management 
account is the same as last year, there are program amounts 
which have been adjusted to reflect the President's priorities. 
There are also proposed reductions in the additional funding 
provided the service in Title A of last year's appropriation 
act. Most of these reflect the President's proposal to fully 
fund the Land and Water Conservation Fund.
    Within the resource management account, we are proposing an 
increase of $15 million over last year's enacted level for the 
National Wildlife Refuge System. $10 million of this will be 
used to hire additional maintenance workers for essential 
needs, to increase annual preventive maintenance, and to 
address the maintenance backlog, while an additional $5 million 
will go toward covering the increase in our fixed costs. There 
is also $12.2 million in our construction request for refuge 
facility rehabilitation projects.
    This Subcommittee has, for many years, been a champion of 
increased funding for the refuge system. I am very pleased that 
the administration's request continues the increase in funding 
for the system that we have seen with your help in the last 
several years, and hope that we can continue to count on 
working with you to build on your support this year and in the 
future.
    We will provide Congress later this year with a report that 
is called for in the refuge centennial act on how we might 
address additional unfunded needs.
    In the Endangered Species Program, we are requesting an 
increase of $2 million for endangered species listing. This 
request provides a 34 percent increase above Fiscal Year 2001 
and a 37 percent increase above Fiscal Year 2000 funding 
levels.
    This increase will help return balance to the listing 
program, enabling the service to protect species that are in 
decline, respond to citizen petitions to list new species, and 
designate critical habitat for species that are already listed.
    Due to a flood of litigation, as detailed in my formal 
statement, we cannot now do this. All of our available funds 
must be spent as dictated solely by court orders and settlement 
agreements.
    I want to note that this proposal was initiated by the 
service over the last several months, and we viewed it as a 
continuation of efforts that began several years ago to find a 
more rational way to address this issue.
    This is a real problem which needs to be addressed, Mr. 
Chairman, and we would welcome the opportunity to work with you 
and other interested members of the committee and the Congress 
as a whole to craft a solution that would meet with wide 
approval.
    The request for both our fisheries and law enforcement 
programs is slightly more than last year, while that for the 
contaminants and migratory bird programs is essentially 
unchanged. There is a slight decrease requested for the Habitat 
Conservation Program.
    Mr. Chairman, the President's decision to fully fund the 
Land and Water Conservation Fund, as you noted in your opening 
remarks, includes $450 million for Federal land acquisition, as 
well as $450 million for the stateside land and water program.
    Of the Federal portion of this, the administration is 
requesting $164 million for the Fish and Wildlife Service. 
Within that $164 million, $104 million will be used for refuge 
easements and land acquisitions, and an additional $60 million 
for two proposed new grant programs. Included within the refuge 
land acquisition proposal is $1 million for Blackwater refuge 
in Maryland, $3.2 million for the Forsythe refuge in New 
Jersey, $3 million for Laguna Atascosa in Texas, $500,000 for 
the Louisiana black bear complex, and a number of other 
priority acquisitions.
    In terms of the two new grant programs that are included in 
the Land and Water Conservation Fund proposal, the first of 
these is a $50 million landowner incentive program, which will 
provide competitively awarded grants to states, tribes, and 
territories for technical and financial assistance to 
landowners who voluntarily desire to protect and manage 
wildlife habitat on their land while they continue traditional 
land use practices.
    The second new program is a $10 million private stewardship 
grant program. These grants would go directly to individuals 
and groups that are engaged in local, private, and voluntary 
conservation efforts that benefit listed candidate endangered 
species or at-risk species.
    The states are given the opportunity to provide additional 
funding for some of the service's programs through the 
President's proposal to expand the purposes of the stateside 
Land and Water Conservation Fund. Under this proposal, states 
would receive flexibility to use these funds for endangered 
species and other wildlife and habitat conservation efforts, 
including protection, enhancement, and restoration of wetlands, 
if consistent with the North American Wetlands Conservation 
Act.
    In conclusion, Mr. Chairman, thank you for giving us the 
opportunity to present an overview of the Fish and Wildlife 
Service's Fiscal Year 2002 budget request, and we look forward 
to answering any questions that you or the other members of the 
committee might have.
    [The prepared statement of Mr. Jones follows:]

    Statement of Marshall Jones, Acting Director, Fish and Wildlife 
           Service, U.S. Department of the Interiorse pelican

    I appreciate this opportunity to present the President's Fiscal 
Year 2002 Budget Request for the United States Fish and Wildlife 
Service.
    The Service's Fiscal Year 2002 budget requests $1.782 billion, 
consisting of $1,091,265,000 in current appropriations and $690,754,000 
in permanent appropriations. The Fiscal Year 2002 budget for current 
appropriations is $167,935,000 less than Congress enacted in Fiscal 
Year 2001, but an increase of $204,747,000 above Fiscal Year 2000. The 
2002 request for the resource management operating account totals 
$806,752,000, $64,000 less than levels enacted for Fiscal Year 2001. 
The Land Acquisition account, is funded at $164,401,000, including 
$104,401,000 for land and easement acquisition from willing sellers, 
$50,000,000 for a new Landowner Incentive Program, and $10,000,000 for 
a new Private Stewardship Grants Program. The Construction account is 
funded at $35,849,000 in accordance with the Department's five-year 
plans for construction and maintenance.
    The Service's principal trust responsibilities encompass protecting 
and conserving migratory birds, threatened and endangered species, 
certain marine mammals, and inter-jurisdictional fisheries. The Service 
mission is to work with others, to conserve, protect, and enhance fish, 
wildlife, plants and their habitats for the continuing benefit of the 
American people. The Service manages 535 National Wildlife Refuges, 78 
Ecological Services Field Stations, 70 National Fish Hatcheries, 64 
Fisheries Resources Offices, nine Fish Health Centers, seven Fish 
Technology Centers, 37 Wetland Management/waterfowl production areas, 
and 50 Coordination Areas, totaling about 94 million acres. We work 
with diverse partners, including other federal agencies, state and 
local governments, tribes, international organizations, private 
entities, and the local citizenry, both on and off Service lands.
    The Service's Fiscal Year 2002 Budget increases resources for state 
and local conservation initiatives and provides our state, local and 
tribal partners more flexibility to support the programs that best suit 
their needs. The Service's mission will be furthered by the President's 
historic decision to fully fund the Land and Water Conservation Fund 
(LWCF) at $900 million. Full LWCF funding and more flexible program 
choices will enable states, tribes, communities and private landowners 
to protect great places and conserve and restore open space for 
recreation and wildlife. For example, states may use their share of the 
new Department of the Interior $450 million state LWCF program for 
grants in line with their habitat restoration and other conservation 
priorities within their overall allocation.
    Two new grant programs under LWCF and administered by the Service 
can achieve state and local species protection and habitat restoration 
priorities. A new $50 million Landowner Incentive Program for states 
and tribes will help private landowners protect and manage habitat for 
imperiled species--while continuing to engage in traditional land use 
or working land conservation practices. A new $10 million Private 
Stewardship Program will fund grants to individuals and groups for 
conservation projects on private lands.
    All of these efforts anticipate the future needs of conservation, 
as land use decisions grow more complex and increasingly require 
cooperation with states, tribes, communities, and the private sector. 
We will assist these partners, who are among America's most ardent 
conservationists, in their efforts to preserve lands and the wildlife 
that inhabits them.
    In summary, the programs and projects contained in this budget 
serve people, champion fish and wildlife, and address every major 
habitat type across the nation. The Service intends to do this, while 
streamlining work practices and improving program delivery. The Service 
will continue using cross-cutting cost allocation methodology to fund 
general operating expenses.
    In addition, the budget proposes several targeted initiatives to 
address high-priority conservation needs in California, the Pacific 
Northwest, the Florida Everglades, and the Great Lakes.
CALFED Bay Delta Restoration
    The Service requests an additional $1,000,000 to support the multi-
agency CALFED Bay-Delta Program that rehabilitates ecosystems and 
improves water management in California's Sacramento-San Joaquin Bay-
Delta estuary. The Service has a major role in addressing compliance 
with state and federal endangered species acts; managing the 
Environmental Water Account; and overseeing wetlands, flood plain 
management, and restoration contracts under the CALFED Program. The 
Service will participate on collaborative, multi-agency teams to 
develop water project operations and will take part in many of the 
approximately 170 different site-specific projects.
Trinity River Restoration
    The Service requests an additional $2,000,000 to implement a 
comprehensive river restoration program for the Trinity River in 
northern California and southern Oregon. The program specifies flows in 
the river, restoration actions, and monitoring/adaptive management 
necessary to restore the lost fisheries of the Trinity River. The 
Service will work closely with the Trinity Management Council to select 
the highest priority habitat restoration projects. The projects will 
help increase populations of coho, steelhead, and chinook salmon, 
increase suitable spawning habitat, and establish adequate water 
quality for essential fish migration.
Columbia Basin Salmon Conservation
    The Service requests an additional $3,500,000 to address salmon 
conservation in the Columbia River Basin of the Pacific Northwest. 
Development in the Columbia Basin has contributed to the decline of 
listed fish (bull trout, Kootenai white sturgeon, and salmon and 
steelhead populations) and others. The Service, with over a century of 
involvement in fisheries management in the Columbia Basin and 
Endangered Species Act responsibility for bull trout and Kootenai white 
sturgeon, will be a key player in this multi-species, basin-wide 
strategy. We will restore and protect federal and non-federal habitat; 
modify fish propagation strategies; improve hydropower operations for 
native aquatic species survival; manage harvests to minimize take of 
listed species while meeting treaty trust responsibilities; provide 
sustainable levels of sport and commercial harvest; and, address 
Caspian tern depredation on juvenile salmon.
Comprehensive Everglades Restoration Plan
    The Service requests an additional $2,700,000 to support the 
Comprehensive Everglades Restoration Plan (CERP), the most far-reaching 
and ambitious ecosystem restoration project ever undertaken in the 
United States. The 30-year restoration effort is designed to restore 
the Everglades'' hydrological and ecological functions, which have been 
seriously degraded by 50 years of flood control and drainage projects. 
We will work with the Corps of Engineers and other interagency partners 
to ensure ecosystem benefits consistent with long-term CERP project 
goals. These efforts, a major Service focus in South Florida, will 
restore habitat for wetland-dependent and other aquatic species, 
restore native aquatic species, recreational and commercial fisheries, 
and other aquatic resources.
Great Lakes Consent Decree
    The Service requests an additional $1,200,000 to uphold tribal 
fishing rights and allocate fishery resources between tribes and state 
fishers in accordance with the U.S. v. Michigan 2000 Consent Decree. As 
a party to the Consent Decree, the United States, through the Service, 
is required to provide expert technical support on dispute issues 
related to the Decree; provide biological expertise and technical 
assistance to tribes and the State of Michigan on the allocation and 
management of shared fishery resources; maintain and increase the 
number of lake trout stocked in Lakes Michigan and Huron; and, evaluate 
the success of lake trout rehabilitation.
    Let me now direct my comments about the Fiscal Year 2002 budget to 
the specifics of each of the resource management programs the Service 
administers.
The U.S. Fish and Wildlife Service Programs and Benefits
    There is a national consensus that fish and wildlife conservation 
is integral to our way of life, our national economy, and the outdoor 
legacy we will leave for future generations. Viable fish and wildlife 
populations are resources the nation cannot afford to lose. More than 
ever, the Service is turning to conservation partners for common-sense 
approaches that benefit both wildlife and people.
Resource Management
    Ecological Services--The Service requests a total of $198,493,000, 
a net decrease of $11,389,000 below the Fiscal Year 2001 enacted level, 
but an increase of $12,111,000 above Fiscal Year 2000 levels, for 
Ecological Services programs, including:
          Endangered Species--The Service requests a total of 
        $111,814,000, $9,133,000 below the Fiscal Year 2001 enacted 
        level, but $5,743,000 above Fiscal Year 2000. The program 
        funding will support operations that enhance implementation of 
        the Endangered Species Act, one of the nation's most 
        significant environmental laws.
                  Candidate Conservation * The request will keep three 
                species from being listed by supporting additional 
                Candidate Conservation Agreements with private 
                landowners and state and local governments to better 
                manage threats to species and their habitats before 
                they become critically imperiled.
                  Listing * The request includes a $1,962,000 program 
                increase to address a critical backlog of required 
                listing actions, help meet statutory time frames, 
                complete court-ordered listing and critical habitat 
                actions within imposed deadlines, and adequately inform 
                the public about listing actions. This program 
                determines whether to list wildlife and plant species. 
                If listed, a species is protected under the ESA, 
                including prohibitions on taking (e.g. killing or 
                harming) the species.
                  This request provides a 34% increase above Fiscal 
                Year 2001, and a 37% increase above Fiscal Year 2000 
                funding levels. This increase will help return balance 
                to the listing program, enabling the Service to protect 
                species that are in decline, respond to citizen 
                petitions to list new species and designate critical 
                habitat for species that are already listed.
                  A flood of court orders requiring the Service to 
                designate critical habitat for hundreds of species 
                threatens to consume the entire listing budget in 
                Fiscal Year 2002, as it has in 2001. The budget 
                increase will not be enough by itself to restore this 
                balance. In fact, after complying with existing court 
                orders to designate critical habitat, the Service does 
                not have any remaining resources or staff to place new 
                species on the list of threatened and endangered 
                species or to respond to citizen petitions to list new 
                species. In short, because of the lawsuits, we 
                currently do not have an effective listing program.
                  The prior Administration requested that Congress 
                place a cap on the listing program beginning in 1998, 
                and this Administration is asking Congress to continue 
                the cap. The reason for the cap is to ensure that the 
                Service can maintain an overall endangered species 
                program that not only includes listing new species and 
                designating critical habitat but also undertaking 
                recovery programs, working with states, landowners, and 
                others to conserve species before they require listing, 
                consulting with federal agencies where required by the 
                Act, and delisting species when they have recovered. 
                Absent the cap, the Service is concerned that the 
                courts might require us to take funds from not only 
                other endangered species activities, but also possibly 
                other resource management accounts to designate 
                critical habitat. If this were to happen, the imbalance 
                that currently plagues the listing program could spread 
                not only to the entire endangered species program, but 
                also potentially affect other non-endangered species 
                resource management programs within the Service.
                  The President, therefore, is continuing efforts begun 
                by the last Administration to break this gridlock and 
                get back to the important business of protecting 
                imperiled species. We are asking Congress to concur 
                that funds be spent on listing actions that provide the 
                greatest benefit for species at risk of extinction. 
                This proposal would not change any of the underlying 
                substantive requirements of the ESA, but would allow 
                the Service to use its resources to protect the species 
                that are in greatest need of listing. The Service hopes 
                to engage the public and interested groups in the 
                development of a listing priority system, and then to 
                put the resulting priority system out for public review 
                and comment this summer.
                  We recognize that this proposal has resulted in 
                considerable controversy. While the problem is real and 
                needs to be addressed, we would welcome the opportunity 
                to work with this Committee and other interested 
                Members to craft a solution that meets with wide 
                approval.
                  Consultation/HCP * The request includes a $520,000 
                program increase to support the Comprehensive 
                Everglades Restoration Plan. In addition, we will 
                continue to address the growing demand by landowners, 
                state and local governments, and developers for Habitat 
                Conservation Plans (HCPs). The Service expects to be 
                involved in implementing more than 650 HCPs covering 
                more than 48 million acres in Fiscal Year 2002, and 
                developing an additional 200 HCPs, covering 26 million 
                acres.
                  As part of these efforts, the Service will assist in 
                development of a regional HCP with the Edwards Aquifer 
                Authority in central Texas for individual, municipal 
                and industrial water withdrawals from the Edwards 
                Aquifer. Also Fiscal Year 2002, final application 
                documents are expected from Pima County, in southern 
                Arizona for the Sonoran Desert Conservation Plan, a 
                multispecies, watershed-based HCP on 5.9 million acres. 
                The Service also anticipates an HCP in Fiscal Year 2002 
                with International Paper for the threatened gopher 
                tortoise on more than 275,000 forested acres in Alabama 
                and Mississippi. The Service, during informal and 
                formal interagency consultations, now reviews 
                approximately 62,000 federal actions for section 7 
                compliance per year.
                  Recovery * The request includes a $390,000 program 
                increase to support the Comprehensive Everglades 
                Restoration Plan. In addition, we will continue 
                activities to recover, downlist, and delist species, 
                conduct ESA-mandated, post-delisting monitoring, and 
                involve private landowners in recovery through Safe 
                Harbor agreements. The most recent delisting is that of 
                the Aleutian Canada goose. The Service will intensify 
                efforts for species in need of special attention, such 
                as Columbia River salmon with a requested increase of 
                $625,000.
          Habitat Conservation--The Service requests a total of 
        $76,209,000 for Habitat Conservation programs, $2,081,000 below 
        the Fiscal Year 2001 enacted level, but $5,760,000 above Fiscal 
        Year 2000.
                  Partners for Fish and Wildlife * The request will 
                continue this highly effective program for voluntary 
                habitat restoration on private lands. The 14-year-old 
                Partners program has quietly worked with 24,000 private 
                landowners through voluntary partnerships to implement 
                on-the-ground habitat restoration projects across the 
                country. The program provides cost-sharing and one-on-
                one restoration expertise to assist private landowners 
                in restoring wetlands, grasslands, streams and other 
                habitats important to migratory birds, anadromous 
                (migratory) fish, and declining species. These habitat 
                restoration projects will enhance habitat for fish and 
                wildlife while recognizing the need to maintain 
                profitable agriculture, sustainable communities, and 
                the nation's overall quality of life.
                  Project Planning * The request includes a $1,690,000 
                program increase to support the Comprehensive 
                Everglades Restoration Plan and a $1,000,000 program 
                increase to support efforts (consistent with the 
                California Bay-Delta Environmental Enhancement Act) to 
                assess potential fish, wildlife, and habitat 
                restoration impacts of federal, state, local and tribal 
                water management projects. The San Francisco Bay-Delta 
                area has many listed, proposed, and candidate species, 
                including Delta smelt, Sacramento splittail, California 
                clapper rail, salt marsh harvest mouse, and Suisun 
                thistle. The Service will assist federal, state, and 
                local agencies in planning and implementing habitat 
                restoration and species recovery.
          Environmental Contaminants--The Service requests a total of 
        $10,470,000 for the Environmental Contaminants Program, a net 
        decrease of $175,000 below the Fiscal Year 2001 enacted level, 
        but $608,000 above Fiscal Year 2000 levels.
          The request will continue to fund cooperative partnerships 
        with federal, state and private entities to identify, quantify 
        and provide remedies for pollution problems affecting fish, 
        wildlife and habitat resources. In particular, the contaminants 
        program will continue proactive efforts with the Environmental 
        Protection Agency to improve water quality criteria, assess 
        effects of EPA's proposed new and re-registered pesticides, and 
        continue work at Superfund sites; coordinate pre-spill 
        planning, response efforts and development of new response 
        options; and implement integrated pest management to control 
        invasive and nuisance species on Service lands.
          National Wetlands Inventory--The Service will continue to 
        strategically produce maps and updated digital resource 
        information, with emphasis on areas of the nation experiencing 
        substantial developmental growth and change. Contemporary 
        habitat maps in digital format will also assist in the planning 
        for needed energy and infrastructure development projects that 
        avoid potential adverse effects on trust fish and wildlife 
        resources.
    National Wildlife Refuge System: Fulfilling the Promise--The 
Service requests $314,664,000 for National Wildlife Refuge operations 
and maintenance, a net increase of $14,986,000 above the Fiscal Year 
2001 enacted level and $55,687,000 above Fiscal Year 2000, which 
includes a $10 million program increase to address the Secretary of the 
Interior's commitment to reducing maintenance backlogs.
    In 1903, President Theodore Roosevelt was so impressed upon seeing 
Pelican Island, a tiny Florida island crowded with birds, he 
immediately established it as the first federal wildlife refuge. 
Pelican Island still thrives as a living legacy and symbol of the 
Refuge System's upcoming Centennial. The budget requests funds to begin 
constructing an Interpretive Center and Administrative facility to 
share Pelican Island's legacy.
    These are historic times for the National Wildlife Refuge System. 
As we approach the centennial anniversary, we are proud of the progress 
we have made together strengthening the Refuge System. Several 
important events during the last few years have given us the 
opportunity to make the Refuge System an even more powerful 
conservation tool and to provide even greater opportunities for people 
to enjoy the Refuge System. These events set the stage for us to 
address our most pressing operational and maintenance needs, and to 
develop comprehensive conservation plans for each refuge in the System. 
Refuge operations and maintenance focus areas include:
          Wildlife * The Refuge System will implement projects that 
        support its core mission to protect wildlife. The projects will 
        improve science-based management, expand management 
        capabilities on newly acquired refuge lands, and enhance the 
        protection and management of endangered species throughout the 
        refuge system.
          Habitat * The Refuge System will employ a full range of land 
        management activities, from protection of pristine areas to 
        intensive manipulation of soils, water, topography, and 
        vegetative cover, and fighting invasive species. These invaders 
        threaten critical wildlife habitat and native species on 
        refuges and adjacent lands. Invasive species spread nationally 
        over 5,400 additional acres each year, and now affect more than 
        six million refuge acres, indicative of invasive species 
        threats in many communities.
          People * The Refuge System will accommodate more than 37 
        million visitors in 2002, a number expected to grow by another 
        six million by the Centennial in 2003. The Service will improve 
        public use, environmental education, recreational, and 
        interpretive programs on refuges to better serve these 
        visitors. Other high priorities include the recreational fee 
        demonstration program, refuge law enforcement, support for the 
        Alaska subsistence program, Challenge Cost Share grants, the 
        Native American Graves Protection and Repatriation Act, and 
        volunteer activities.
          Refuge Maintenance * The request includes a $10,042,000 
        program increase to address the most critical annual and 
        deferred maintenance projects. In Fiscal Year 2002, we will 
        implement a three-step approach to reducing the deferred 
        maintenance inventory by increasing funding to hire essential 
        maintenance workers, performing additional annual preventive 
        maintenance, and performing additional deferred maintenance, 
        including a $1.8 million increase for condition assessments and 
        improving maintenance management systems.
    Migratory Bird Management--The Service requests $25,159,000 for 
migratory bird management, a net decrease of $525,000 below the Fiscal 
Year 2001 enacted level, but $3,560,000 above Fiscal Year 2000.
          Conservation and Monitoring * The request includes a $250,000 
        program increase to address Caspian tern depredation in support 
        of the Columbia Basin Salmon initiative. In addition, we will 
        implement management projects in priority habitats and 
        throughout annual migratory cycles. Migratory birds travel 
        thousands of miles across and between the Americas. They are 
        among the best indicators of landscape health. They provide 
        recreational opportunities for millions of people, and a major 
        boost to the economy. The Migratory Bird Management program 
        provides reliable status and distribution information that 
        forms the scientific basis for effective conservation decisions 
        and sound hunting regulations.
          Partnerships in Action: The North American Waterfowl 
        Management Plan * The Service is improving coordination of the 
        Joint Venture program, which expanded by nine newly funded 
        Joint Ventures for a total of 15 in Fiscal Year 2001. This 
        successful program protects and restores essential habitat for 
        diverse migratory bird species across all of North America, 
        both on, and, to a greater extent, off Service lands. As of 
        December 2000, Plan partners have contributed approximately 
        $1.5 billion to protect, restore, or enhance 5.9 million acres 
        of U.S. wetlands, grasslands, forests, and riparian habitat, 
        more than one-third of the 17 million acres of U.S. habitat 
        objectives under the Plan.
          The Service and more than a thousand communities, 
        governments, nonprofit organizations, ordinary citizens, 
        federal agencies in 49 states, and academia have participated 
        in this program to date.
    Law Enforcement--The Service will implement many important 
initiatives in our newly strengthened law enforcement program, 
including hiring and equipping up to 20 new agents, to fill vacancies, 
continuing to train the 35 agents hired in Fiscal Year 2001, 
establishing a designated port in Anchorage, Alaska, and addressing the 
growing docket of wildlife crimes. Today's law enforcement program is 
at a critical crossroads--facing increasingly complex and potentially 
devastating illegal trade, unlawful commercial exploitation, habitat 
destruction, and environmental contaminants. Priorities will include 
ensuring successful species reintroduction and Habitat Conservation 
Plans, working with industry to reduce contaminants and other 
industrial hazards, and controlling illegal wildlife trade.
    Fisheries--The Service requests $92,979,000, $950,000 above the 
Fiscal Year 2001 enacted level and $9,039,000 above Fiscal Year 2000, 
to continue supporting activities that restore the nation's waterways, 
native aquatic species, and habitats. Our waterways are an economic 
lifeline, provide recreation, and have a significant impact on the 
quality of life in our communities.
          National Fish Hatchery System * The request includes a 
        $1,000,000 program increase to support the Columbia River 
        Salmon Initiative and $575,000 to implement lake trout 
        restoration activities for the U.S. v. Michigan Consent Decree. 
        Federal hatcheries are a powerful tool for conserving 
        biological diversity, restoring imperiled aquatic species, and 
        recovering listed aquatic species. Nearly two-thirds (56) of 
        all approved recovery plans for fish and more than one-third of 
        all fishery restoration plans prescribe hatchery propagation, 
        refugia, or technology development as essential components of 
        species recovery. The hatchery system is currently assessing 
        how it will re-direct its activities, with an emphasis on 
        retaining the wild characteristics and genetic diversity of 
        fish produced for reintroduction to their native environments. 
        Fish production and refugia strategies complement actions to 
        restore habitats and waterways.
          Fish and Wildlife Management * The request includes a 
        $1,625,000 program increase to support the Columbia Basin 
        Salmon Initiative, a $625,000 program increase for tribal trust 
        responsibilities under the U.S. v. Michigan Consent Decree, a 
        $100,000 program increase to support the Comprehensive 
        Everglades Restoration Initiative, and a $2,000,000 program 
        increase to implement the Record of Decision resulting from the 
        Trinity River Flow Evaluation to restore steelhead, chinook 
        salmon and coho salmon to pre-dam levels.
          Fish and Wildlife Management Assistance assists state, 
        federal, tribal, and private partners in restoring watersheds, 
        recovering endangered species and managing inter-jurisdictional 
        fisheries and marine mammals by administering cooperative 
        programs such as the Cooperative Tagging Program for striped 
        bass, the Mark-Recapture Programs for Pacific salmon, the 
        Mississippi River Basin Paddlefish Research Project, and the 
        Connecticut River Atlantic Salmon Commission Tagging Program. 
        The program facilitates effective decision-making and large-
        scale restoration, conservation and management of aquatic 
        resources by bringing diverse interest groups together; sharing 
        population and habitat information; and coordinating research, 
        planning, and management activities. These cooperative 
        activities ensure environmental, economic, and aesthetic 
        benefits of restored or improved river habitats, increased fish 
        and other aquatic populations, and sustained recreational and 
        commercial fishing.
    General Operations--The Service requests $124,053,000 a net 
decrease of $4,913,000 below the Fiscal Year 2001 enacted level but an 
increase of $809,000 above Fiscal Year 2000, for Central Office 
Administration, Regional Office Administration, Service-wide 
Administrative Support, National Fish and Wildlife Foundation, National 
Conservation Training Center, and International Affairs programs.
  Cost Allocation Methodology
          Allocation of General Operations Expenses * The Service has 
        implemented a cost allocation methodology (CAM) to fund general 
        operations expenses. General operations include both 
        administrative and facility support programs that are essential 
        to all Service programs. CAM distributes these costs among all 
        Service appropriations and funding accounts based on actual use 
        of specific business operations to benefiting activities. As a 
        result, each appropriation and account funds an equitable share 
        of general operations costs. CAM was implemented in response to 
        internal and external (Congress, the General Accounting Office) 
        reviews of Service funding practices. The CAM is displayed on 
        all funding tables as a non-add item indicating that the 
        operating expenses are integral to program operation.
  Streamlining
          As part of the overall Department initiative, we will 
        implement $3,518,000 in administrative cost savings, travel 
        reductions, across-the-board initiatives, and headquarters and 
        regional consolidation of functions.
    Construction--The Service requests $35,849,000 for Construction, a 
net reduction of $27,028,000 below the Fiscal Year 2001 enacted level 
and $17,679,000 below Fiscal Year 2000, for our most urgent 
construction needs.
          Construction Projects * The request includes $ 27,357,000 for 
        18 dam safety, road and bridge safety, and other priority 
        projects at national wildlife refuges, fish hatcheries, and law 
        enforcement facilities, including dam and bridge safety 
        inspections. The rehabilitation and replacement projects will 
        address the most critical health, safety, and resource 
        protection needs in the Service's Five-Year Construction Plan.
          Nationwide Engineering Services * The remaining $8,492,000 
        supports the Nationwide Engineering, seismic safety, and 
        environmental compliance programs.
    Land Acquisition--The Land Acquisition Account has been 
significantly restructured to reflect the President's commitment to 
fully funding the Land and Water Conservation Fund (LWCF) and enhance 
partnerships with states, communities, tribes, and private landowners. 
The Service requests $104,401,000 for high-priority acquisition of land 
and conservation easements from willing sellers. This request would 
acquire approximately 53,855 fee interest acres and 23,053 permanent 
easement interest acres. Major focus areas for Fiscal Year 2002 include 
Pelican Island, Balcones Canyonlands, Canaan Valley, Chickasaw and 
Columbia. A full list of requested projects is included in the Land 
Acquisition section of the budget.
    The request includes $19,291,000 for acquisition management, land 
exchanges, inholding acquisitions, and emergency acquisitions, an 
increase of $7,218,000 above the Fiscal Year 2001 enacted level. The 
increase reflects an internal transfer of $4,526,000 from projects to 
land acquisition management to more accurately reflect personnel costs 
that were charged to projects in Fiscal Year 2001. This is an interim 
step, and the Service is working with the Department to estimate non-
project costs and develop standards and the types of costs that should 
be charged to projects.
          Landowner Incentive Program * The budget proposes a 
        $50,000,000 Landowner Incentive Program for states to help 
        private landowners protect imperiled species while engaging in 
        traditional land use or working land conservation practices.
          Private Stewardship Grants * The budget proposes a 
        $10,000,000 Private Stewardship Grant Program to provide 
        federal funding for private conservation initiatives.
    Cooperative Endangered Species Conservation Fund--The Service 
requests $54,694,000 for the Cooperative Endangered Species 
Conservation Fund, $50,000,000 below the Fiscal Year 2001 enacted level 
but $31,694,000 above the Fiscal Year 2000 level. The proposed funding 
level would provide $21,000,000 to support Habitat Conservation Plan 
Land Acquisition; $17,759,000 for Recovery Land Acquisition grants to 
help implement approved species recovery plans; and $6,650,000 for HCP 
planning assistance to states. The Service will use $7,520,000 to 
provide conservation grants for habitat restoration, studies, surveys, 
and other state activities supporting endangered species conservation.
    The budget provides additional funding opportunities to protect 
species and habitat by fully funding the Land and Water Conservation 
Fund at $900 million and giving states the flexibility to use these 
funds to meet the purposes of the Cooperative Endangered Species 
Conservation Fund.
North American Wetlands Conservation Fund
    The Service requests $14,912,000 for the North American Wetlands 
Conservation Fund, $25,000,000 below the Fiscal Year 2001, but about 
the same as the Fiscal Year 2000 enacted level. These funds are being 
redirected toward new state conservation initiatives in the budget. 
This Fund protects and restores wetland ecosystems that serve as 
habitat and resting areas for migratory game and non-game birds. The 
Fund supports non-regulatory private-public investments in the U.S., 
Canada, and Mexico. To date, nearly 1,500 partners have worked together 
on nearly 900 projects in 48 states, the U.S. Virgin Islands, ten 
Canadian provinces, and 21 Mexican states to protect, restore and/or 
enhance almost seven million acres of wetlands and associated uplands 
in the U.S. and Canada and vital habitat on millions of acres within 
Mexico's large biosphere reserves. This request is expected to generate 
approximately $49,000,000 in total partner funds and resources and 
protect and enhance 409,000 acres of wetland and upland habitat.
    The budget provides additional funding opportunities to protect 
species, habitat and wetlands by fully funding the Land and Water 
Conservation Fund at $900 million and giving states the flexibility to 
use these funds to meet the purposes of the North American Wetlands 
Conservation Fund. Likewise, the existing Partners for Fish and 
Wildlife program and two new grant programs, the $50 million Landowner 
Incentive Program and the $10 million Private Stewardship Program, may 
also fulfill these purposes by protecting imperiled species and their 
habitats.
Multinational Species Conservation Fund
    The Service requests $3,243,000 for the Multinational Species 
Conservation Fund, the same as the Fiscal Year 2001 enacted level, to 
provide technical and cost-sharing grant assistance to African and 
Asian nations for conserving elephants, rhinoceros, tigers, great apes, 
and their habitats. African elephants, Asian elephants, rhinoceros, 
tigers and great apes are endangered species protected from take and 
trade by CITES and U.S. laws. This Fund provides successful, on-the-
ground support to range countries involved in elephant, rhinoceros, 
tiger and great ape conservation; and, generates local matching 
resources from these countries.
National Wildlife Refuge Fund
    The Service requests $11,414,000, the same as the Fiscal Year 2001 
enacted level, for payments to counties in which Service lands are 
located. This amount will be augmented by an additional $197,000 in 
expected receipts from the sale of products, other privileges, and 
leases for public accommodations or facilities on the refuges. The 
Fiscal Year 2002 estimate for payments to counties is $15,682,000.
    The Service's estimates indicate that refuge visitors contribute 
more than $400,000,000 to local economies each year. These benefits 
will continue to grow with projected increases in visitation.
Wildlife Conservation and Appreciation Fund
    The Service proposes to discontinue this account in Fiscal Year 
2002 and redirect these funds toward other state and local conservation 
initiatives. The President's Budget provides additional funding 
opportunities to protect species and habitat by fully funding the Land 
and Water Conservation Fund at $900 million and giving states the 
flexibility to use these funds to meet the purposes of the Wildlife 
Conservation and Appreciation Fund. Likewise, the Partners for Fish and 
Wildlife program and two new grant programs, the $50 million Landowner 
Incentive Program and the $10 million Private Stewardship Program, may 
also fulfill these purposes by protecting imperiled species and their 
habitats.
State Wildlife Grants Fund
    The Service proposes to discontinue both the formula and 
competitive State Grant programs in Fiscal Year 2002 and redirect these 
funds toward other state and local conservation initiatives. The 
President's Budget provides additional funding opportunities to protect 
species and habitat by fully funding the Land and Water Conservation 
Fund at $900 million and giving states the flexibility to use these 
funds to meet the purposes of the State Wildlife Grants Fund. Likewise, 
the existing Partners for Fish and Wildlife program and two new grant 
programs, the $50 million Landowner Incentive Program and the $10 
million Private Stewardship Program, may also fulfill these purposes by 
protecting imperiled species and their habitats.
    Permanent Appropriations--In Fiscal Year 2002, receipts into the 
Service's permanent appropriations are projected to total $690,754,000, 
a combined $54,983,000 increase to Fiscal Year 2001 deposits, to the 
following accounts: National Wildlife Refuge Fund, North American 
Wetlands Conservation Fund, Cooperative Endangered Species Conservation 
Fund, Recreational Fee Demonstration Program, Migratory Bird 
Conservation Account, Sport Fish Restoration Account, Federal Aid in 
Wildlife Restoration Account, Miscellaneous Permanent Appropriations, 
and Contributed Funds. The major changes are:
          Sport Fish Restoration Account * An additional $50,355,000 in 
        receipts will become available to the U.S. Fish and Wildlife 
        Service due to anticipated increases in tax revenues and 
        interest on invested tax collections. Tax receipts and interest 
        earned are available for obligation in the year following their 
        deposit into the Aquatic Resources Trust Fund.
          Federal Aid in Wildlife Restoration Account * Tax receipts 
        available in Fiscal Year 2002 for Wildlife Restoration projects 
        are expected to slightly increase by $66,000 above Fiscal Year 
        2001 levels, and due to increased interest rates, interest 
        earned is estimated to increase by $2,000,000. Tax receipts 
        become available for obligation in the year following their 
        deposit to the U.S. Treasury, although interest earned in the 
        current year is available during the year in which it is 
        earned.
    This concludes my statement. I would be pleased to respond to any 
questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Jones.
    The last couple of things that you talked about, the grant 
program for land use and people who will continue to use the 
land in a traditional way and receive grant dollars for habitat 
restoration or habitat protection, those kinds of things, were 
they two programs you just described? Two grant programs?
    Mr. Jones. Yes, sir.
    Mr. Gilchrest. What were the names?
    Mr. Jones. The first was a $50 million landowner incentive 
program; the second, a $10 million private stewardship program. 
Both programs are directed toward ways that we can work with 
landowners and communities to address the needs of the--
    Mr. Gilchrest. Those are existing programs in Fish and 
Wildlife right now?
    Mr. Jones. No, sir. Those are both new programs.
    Mr. Gilchrest. That we will have to authorize? We would 
have to authorize those programs?
    Mr. Jones. That is correct. They would be authorized 
through the appropriations process.
    Mr. Gilchrest. We would not have to authorize that here in 
this committee?
    Mr. Jones. No, Mr. Chairman, because these programs are 
included in the broad umbrella of the Land and Water 
Conservation Fund request.
    Mr. Gilchrest. I see.
    Mr. Jones. But they, unlike the other part of Federal Land 
and Water Conservation Fund, the part that we would use--
    Mr. Gilchrest. Well, Mr. Underwood said ``consternation.''
    [Laughter.]
    This is something I would like to talk to you further 
about--I don't know if any other members have questions--
whether we need specific authorizing language from this 
committee or whether you just go through the Appropriations 
Committee. It sounds interesting, in the context that, between 
those two programs, it is about $60 million before some effort 
to work with the private sector.
    Just briefly, on the Delmarva peninsula--Maryland, 
Delaware, Virginia--we have been working for about 2 years with 
a number of people, including farmers; chambers of commerce; 
planning and zoning committees; ag extension agents; and, to a 
lesser extent, just conversations with the Department of 
Agriculture, Federal and state; and the Department of Natural 
Resources; and, to some extent, Fish and Wildlife.
    Without working through any existing structure or any 
existing program, what we want to do on the Delmarva peninsula, 
we are about ready to do some structural things, and $60 
million pumped into Delmarva, I don't know if that is a 
national program or a Delmarva program--
    [Laughter.]
    At any rate, what we do with the Delmarva peninsula is keep 
its rural character, help create a situation where agriculture 
will be unique and profitable, and create a habitat 
conservation corridor for wildlife through public land and 
private land.
    So this program sounds like it may not be a significant 
part of that, but certainly a piece of that. The director of 
Fish and Wildlife for this region has also been attending some 
of the meetings, and he has been very helpful.
    While we are on the endangered species, can you give us 
some idea of the rationale for the proposed cap and how the 
agency may spend ESA listing funds to comply with the court 
orders for legal settlements? What is the practical effect of 
the funding restriction?
    Mr. Jones. I would be pleased to do that, Mr. Chairman.
    The cap itself is not new. We have had that included in our 
appropriation for the last couple of years.
    We first asked for the cap when it became clear that we 
were no longer in control of the process of listing and 
designating critical habitats because of litigation. And all of 
our resources were being consumed with court-ordered actions or 
actions for which we had settled with plaintiffs, where we knew 
that we had little chance of winning in court.
    And so the result was that we could foresee that not only 
our entire listing budget might be consumed with these actions 
that were the result of court orders of settlements, but in 
addition, if there were no barrier, courts might begin to 
direct us to spend other funds outside of the endangered 
species listing budget for these actions.
    And so we could see, Mr. Chairman, kind of a black hole 
that could consume all the resources that get near it. That 
could include our very important resources for our consultation 
work, endangered species candidate work, for recovery, and 
then, at least conceivably, might even extend it beyond the 
Endangered Species Program into other programs in the Fish and 
Wildlife Service.
    Mr. Gilchrest. Do you have any idea of the number of 
pending court cases or the number of settlement agreements?
    Mr. Jones. Mr. Chairman, we have those statistics. As I 
recall, it is in the several dozens of pending actions that we 
have not yet been able to resolve right now. We also have large 
backlog of petitions that have not been addressed, of proposed 
rules that have not been finalized.
    Specifically, Mr. Chairman, we have 22 cases right now that 
are pending, in terms of critical habitat designation, and we 
have nine other challenges to critical habitat designations 
that we have already made.
    Mr. Gilchrest. Where are they? Are they mostly out west?
    Mr. Jones. I would guess they are out west. But, Mr. 
Chairman, they are not all out west by any means. A very recent 
decision challenged our decision regarding critical habitat for 
the Gulf sturgeon on the gulf coast. So, these could come up 
anywhere.
    We have 38 other active listing lawsuits right now, ones 
that are not pending, and 12 notices of intent to sue that are 
still within the mandatory 60 day period before they can 
actually be taken to court. And we have 82 notices of intent 
where the 60 day comment period has expired, but they have not 
actually gone to either court or settlement, and another 200 or 
so listing actions that have some other kind of legal 
vulnerability.
    Mr. Gilchrest. You proposed the cap because it is your 
sense that other monies of Fish and Wildlife could be siphoned 
off to go to lawsuits?
    Mr. Jones. That is correct.
    Mr. Gilchrest. There has to be some fix for the problem. 
Eventually, you have to deal with these lawsuits, I would 
guess.
    Mr. Jones. And that is the other part of our proposal for 
this year, and that is what is new. The concept of a cap is not 
new. It has been in our appropriation for the last couple of 
years.
    This year, we requested an increase for listing, so that 
the total amount would go from a little over $6 million to a 
little over $8 million. We would like to continue the cap, so 
that--
    Mr. Gilchrest. What is the cap?
    Mr. Jones. The cap would be that amount.
    Mr. Gilchrest. The $8 million.
    Mr. Jones. The $8.4 million.
    Mr. Gilchrest. So you have asked for $8.4 million for 
listing, but you have some idea that instead of listing 
species, that money is going to be used for litigation.
    Mr. Jones. As it stands now, Mr. Chairman, a significant 
part of that $8.4 million already was committed to those court-
ordered actions and settlements we have already reached for 
next year. Those things go on even in 2003, some of them.
    But we are requesting $8.4, and we are also requesting a 
limit that no more than that amount, $8.4, is going to be spent 
on all the different aspects of listing. Now, that will include 
addressing petitions for listings; it would include making the 
findings that are required; it would included proposed or final 
rules to list species; and it would also include critical 
habitat.
    So under the broad category of listing, we would spend no 
more than $8.4 million on all of those actions.
    Mr. Gilchrest. But any idea of the number of species you 
have not listed because of the lawsuits?
    Mr. Jones. That have not been listed? Mr. Chairman, I am 
advised that we have 236 candidate species. Now, those species, 
some of those may be subject to the lawsuits that I mentioned.
    Mr. Gilchrest. I see.
    Mr. Jones. We have a number of outstanding notices. Others 
are not. Those are the species that we believe are ones that 
likely should be listed, but we have not been able to get to 
because we don't have all the resources that are necessary to 
address all of them in any given year.
    But, Mr. Chairman, in addition to the cap, we ask for 
something else in the Fiscal Year 2002 proposal, and this is 
something new. We have asked that there also be some 
congressional guidance for us on how we should be spending that 
$8.4 million. And we asked for an endorsement of concepts that 
we proposed, so we suggested to Congress the guidance that we 
believe would be most helpful. That guidance would say that our 
expenditures of the $8.4 million in Fiscal Year 2002 would go 
for two things.
    The first would be for those court-ordered actions and 
settlement agreements we have already made. We made a deal with 
people; we do not believe there is any way we could go back on 
those agreements that we have already made.
    But for the remainder of funds that are not yet committed, 
we are asking for an endorsement of the concept of a listing 
priority system, a system that we would develop this summer. We 
would propose it for public comment. We would work with this 
committee and the Congress and any others who are interested as 
we develop this so that we would have this priority system in 
place for next fiscal year.
    And then we would be guided in all of our listing actions 
by that priority system.
    Mr. Gilchrest. You feel that that priority system would 
reduce significant lawsuits?
    Mr. Jones. We hope so. It would not eliminate in any way 
the citizen suit provision that is already in the Endangered 
Species Act, so we still could be sued. But we would feel that 
as long as we were acting in good faith, following that 
priority system, and were to work on those actions which were 
determined through the application of that system to be the 
highest priorities, we would believe that we were operating 
with guidance from Congress. And we would believe that it would 
unlikely, then, that courts would tell us to do something else.
    Mr. Gilchrest. If you were acting with the guidance of 
Congress, you would feel much more secure--
    [Laughter.]
    I am out of my time. Thank you very much, Mr. Jones.
    I yield to Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman.
    You certainly would be, perhaps, one of most litigated 
agencies in the government.
    I have to say that it is kind of a novel approach that you 
are pursuing here, with the capping of the money for listing 
issues. And I just wanted to ask: It is my understanding that 
the ESA listing language that you have requested will only 
restrict citizen suits seeking to have species listed as 
endangered or threatened, that it wouldn't restrict lawsuits to 
have a species down-listed, for example, from endangered to 
threatened or removed from the list altogether. Is that 
correct? And what is the rationale behind that?
    Mr. Jones. Mr. Underwood, that is a very good question. We 
fund the down-listing and delisting out of our recovery program 
not from this.
    We wish we had a big backlog of species ready to be 
delisted. We want to put more emphasis on recovery in the 
future so that we will have more species that can be delisted. 
But we don't have any contention there, in terms of a backlog 
of litigation. And the money that would fund that activity is a 
different source.
    And one of the reasons we asked for the cap certainly would 
be to make sure that the resources which we would need for 
undertaking down-listing and delisting activities wouldn't be 
tied up in court orders. So that wall protects those funds as 
well as all the other endangered species activities.
    Mr. Underwood. On the funding for the state conservation 
grant programs, it seems to me that what you have done by 
submitting this request for $450 million for the state Land and 
Water Conservation Fund is, in reality, shifted some funds from 
other programs.
    What is the rationale behind that? And what is the net 
effect on these programs? It seems to be a major policy shift.
    Mr. Jones. I think that is true. This was reflective of the 
desire of the administration to give the states and territories 
more control over how the funds would be spent.
    Let me start with a little background. The program for this 
current year, which funds outdoor recreation activities and 
urban parks and other things that are administered by the 
National Park Service, I believe is funded at about $90 
million. So this would add another $360 million or so to that.
    These funds would be available for additional wildlife 
purposes. This would include work that would benefit endangered 
species and candidate species. It would include work that would 
be consistent with the wetlands conservation goals of the North 
American Wetlands Conservation Act. And it would also include 
those projects and programs that were consistent with the new 
wildlife conservation and restoration program, which was in 
this year's budget.
    That is an example; that $50 million new program is not 
included in the President's budget for next year. Instead, 
there is this larger program. But the states would have choice 
on how they would use their allocation of funds. The funds are 
apportioned to each state by a formula; part of it is a equal 
amount, part of it is an amount that reflects the population 
and the land area of the state or territory.
    And then within that, they would have full choice. Each 
state could decide, and a state might decide to use its entire 
allocation for wildlife purposes or its entire allocation for 
parks purposes or anything in between.
    And the Chairman mentioned the work in the Delmarva 
peninsula. That would be something that the states of Delaware, 
Maryland, and Virginia each could determine whether they felt 
there were projects there that were worthy of being funded 
under this program.
    But the state would be the one to make the decision about 
how the funds would be applied. They would submit grant 
proposals that would be reviewed. The National Park Service 
would administer this program, but in consultation with the 
Fish and Wildlife Service. And we, in turn, will be working 
with states and territories to develop further the details of 
how that would be administered, so that we would have a new, 
cooperative program.
    And I think it does reflect a new philosophy, Mr. 
Underwood.
    Mr. Underwood. In general, I would support that philosophy. 
But it seems to me that we are going at this without a lot of 
attention to making sure that the money would be spent for the 
kinds of purposes that Congress has outlined in the past.
    Like so many of the other things that we are talking about 
here, we are wondering whether this needs some kind of clarity 
in the legislative language, in the authorization of these 
activities.
    Certainly, I am one that has always been supportive of 
trying to not only create opportunities for local communities 
to have more input into the operations of the Federal 
Government in their area, but more participation in rulemaking. 
But it seems to me that this a major shift.
    Lastly, I just want to one specific question, and it goes 
back to the invasive species.
    And I have other questions, if we have another round, Mr. 
Chairman.
    On the invasive species question, you know, it is kind of 
an old song with me. Certainly one of the things that is most 
disturbing is that I can't see any money that is being spent by 
Fish and Wildlife to deal specifically with the brown tree 
snake, other than supporting the Fish and Wildlife Refuge. Much 
of the money that is spent on actually controlling or trying to 
deal with the irradication of this invasive species comes from 
other units.
    Would you like to explain to me the rationale of that? 
Perhaps I will be pleasantly surprised, Mr. Jones.
    [Laughter.]
    Mr. Jones. Well, Mr. Underwood, we do have some 
expenditures. You are correct that we don't spend what we used 
to spend.
    At one time, the entire program for brown tree snake 
control was part of the research division of the Fish and 
Wildlife Service. When the previous administration made the 
decision that the research division would go out of the Fish 
and Wildlife Service, and eventually became part of the U.S. 
Geological Survey, all the funding that went with that program 
went with it. We had no funding left for that program. And we 
relied on them to do research on control mechanisms.
    On the other hand, we are looking to find ways that we can 
be a good neighbor and a good partner with Guam, with the Air 
Force. And we are now exploring Federal money to provide 
matching funds for the brown tree snake trapping that is going 
on at the munitions storage area on the Andersen Air Force 
Base, matching funds that the Air Force has put forward and the 
U.S. Department of Agriculture, which also has a role here, has 
put forward.
    We will seek other ways through the budget, both for the 
refuge division and through the budget for our ecological 
services activities, so that we can be a partner and 
participate. But it would be misleading for me to say that we 
could ever invest the same kinds of funds that we had at one 
time, since the bulk of that program, the funding for it, was 
transferred to another agency.
    Mr. Underwood. Thank you.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Pombo?
    Mr. Pombo. Thank you, Mr. Chairman.
    In regard to the new programs that are being created under 
this budget, Mr. Chairman, it has been the position of the 
committee in the past that new programs would need to be 
authorized by the committee. And I would hope that you, as the 
new Chairman of the Subcommittee, and Mr. Hansen, as the 
Chairman of the full committee, would use the ability of this 
committee to authorize those programs by the committee and not 
allow the appropriation process to authorize new programs.
    Mr. Gilchrest. Mr. Pombo, you can be assured that while we 
have great respect for the appropriators, we will look at this 
particular issue. And I assure the members of the committee, it 
will be authorized by this committee first.
    Mr. Pombo. I appreciate that.
    Mr. Jones, in response to the question of how many species 
were not listed as a result of the legal challenges or the 
lawsuits, you gave the number as to the number of candidate 
species that are out there.
    And I guess, in an effort to be fair, no one really knows 
how many species were not listed, because those species are 
candidate species because the science has not yet been done to 
determine whether or not they are endangered. And it could be a 
number of those may ultimately be listed as endangered species, 
but until Fish and Wildlife Service is allowed to actually do 
the science that is necessary to determine whether or not they 
are endangered, I don't think anybody really knows yet how many 
species there are.
    Mr. Jones. I would agree with that in the sense that these 
are species that we believe right now, based on the information 
at hand, likely qualify.
    But you are certainly right. Before they would ever be 
added to the list, there would be additional study, there would 
be a proposed rule, public comment. And we can't presume to say 
right now how many of them would wind up finally being added to 
the list.
    But these are the ones that we believe are the best 
candidates right now.
    Mr. Pombo. Along those lines, can you tell me how much 
money the Federal Government spent on those lawsuits? And how 
much of that went to the litigants to pay for their legal 
expenses?
    Mr. Jones. Mr. Pombo, I do not have that figure. The 
Department of Justice pays for the litigation expenses for 
plaintiffs in many of these cases. And so, in terms of payments 
to attorneys for plaintiffs, that would have to come from the 
Department of Justice.
    I suspect it would be a big number. I suspect it would be a 
number that all of us might feel, in an ideal world, ought to 
be used for things other than just paying legal fees. That is 
the situation we are in.
    Then there would be our own costs, both our attorneys and 
our staff, who are involved on their side. And we would be 
pleased to get you some information for the record, but I don't 
have statistics with me today.
    Mr. Pombo. I would appreciate it if you could get me the 
number as to how much money has been spent by the Federal 
Government as a whole, not just Fish and Wildlife Service, and, 
out of that, how much has gone to the plaintiffs in those 
cases, both in their attorneys' fees and in settlements that 
may have come as a result of any of those cases.
    On the different requests that are being put forward, and I 
understand that you are trying to make an effort to limit the 
amount of money that would be spent in those particular 
lawsuits and to use as much money as we possibly can for its 
intended purpose, and you have outlined for us here this 
morning somewhat of a request that we put guidelines on that.
    Can you give the committee this morning an idea of what 
kinds of things you are looking for in that particular request, 
as to how the money would be spent? Are you looking for 
specific line items coming out of Congress, saying we want this 
money broken down in this way?
    Mr. Jones. Mr. Pombo, we have not asked for it to be 
divided up any more specifically than $8.4 million as a 
maximum. What we have asked for, we provided suggested 
language, which I assume could be included a report to us that 
would accompany the appropriations bill, that would endorse the 
concept of a listing priority system, a system that we would 
develop, that we would propose over the summer, that all 
Members of Congress as well as all the interested parties--both 
those who have been involved in suing us, those who are 
affected by endangered species listings, and everyone else, the 
general public, everyone--would have a chance to comment on it.
    And so everyone would see this before the time that the 
final appropriations are done. Here is the priority system that 
we would be working under. This priority system would address 
how you factor the best science into decisionmaking so that you 
have a balanced program that results in the highest priority 
actions going ahead first, and other actions will just have to 
wait their turn.
    Since this was an appropriations issue, how to spend an 
amount that we know won't be as much the courts may ask us to 
do, that is why we put this forward in terms of appropriations 
guidance.
    Mr. Pombo. I am very interested in how that is going to 
work. I think it is probably a good idea to try to put 
something like that together, but I am very interested to see 
how we proceed with that, how that is going to actually come 
out. So I appreciate it.
    Thank you, Mr. Chairman.
    Mr. Jones. Mr. Pombo, if I could just correct one thing? I 
think I said language to be included in report, but I think 
what we propose is actually appropriations bill language rather 
than report language.
    But we would be pleased to work with you and all the other 
members of the committee as we go through this process.
    Mr. Pombo. Well, Mr. Chairman, if it is bill language and 
would carry the force of law--which I think, in order to 
achieve what you want, it would have to be bill language, to 
have the force of law--that is one area where I believe this 
Subcommittee and the full committee ought to be very involved 
with, exactly how that language comes out, because that is 
completely under the jurisdiction of this committee and the 
Agriculture Committee.
    Mr. Gilchrest. We will pay close attention to that as we 
move through the process.
    Thank you, Mr. Pombo.
    Mr. Ortiz?
    Mr. Ortiz. Thank you, Mr. Chairman. I am glad that I was 
able to come back.
    Mr. Jones, as the director, I know you are aware of recent 
actions on piping plover critical habitat designation. And I 
understand that some think the economic impact assessment for 
the wintering habitat is inadequate, and you have had several 
months to develop it.
    This is going to be devastating. I would like you to look 
at the impact of it.
    Now, what are your plans for completing this assessment on 
1,600 miles of coastline? And I might suggest that working 
together might be a lot easier than going through last 2 weeks 
again. For 2 straight weeks, I have tried to get a meeting with 
your office. Maybe you all were working hard in changing the 
assessment.
    Mr. Jones. Mr. Ortiz, I recognize that. It certainly has 
been very difficult for us. I know that it was difficult for 
you.
    On the advise of our legal counsel, Fish and Wildlife 
Service refused all requests for meetings that would take place 
because the comment period was closed, and because we were not 
allowed, under ex parte rules, to be able to consider any new 
information.
    Ultimately, we made the decision. However, we also were not 
ready to adopt this as a final critical habitat designation.
    I will note that this is one that we are here where we are 
because of litigation that resulted in our making an agreement 
that we would publish this final critical habitat designation 
by April 30. It wasn't in our plans at the time the litigation 
came about; we weren't ready to do that.
    But as a result of the litigation, and the situation we are 
in, where we felt we had, as a result of previous court 
decisions, we were very unlikely to be able to prevail in 
court, we entered into the settlement. Thus, we have our staff 
working under extremely difficult conditions.
    As you noted, Mr. Ortiz, this is a very complicated issue. 
There is a lot of coastline. We are talking about the wintering 
habitat, in particular for the piping plover, that stretches 
from the Carolinas all the way around to Texas.
    Lots of information, biological information, that we had to 
assess. And in addition, we contracted for an economic 
analysis.
    The economic analysis, the first version of it, required 
revision. We sent it back to the contractor. We only received 
the economic analysis with those revisions 1 week before the 
April 30 deadline, and that was not enough time for us to be 
able to make the rational decision we need to make.
    The Endangered Species Act does include provisions under 
Section 4(b)(2). It says we should include areas of critical 
habitat unless the benefits of excluding those areas outweigh 
the benefits of including those areas. And we still need more 
time to go through that analysis and decide if there are areas 
that would meet that test and should be excluded.
    I cannot say what the results of that evaluation will be. I 
can say that we sent to the Federal Register a notice that we 
need an additional time period of up to 60 days to complete 
this review. We have also notified the judge in this case. And 
the actions from here will depend partly on what the judge 
decides.
    But let's assume the judge and the court doesn't do 
something which changes the course that we are on now. Over the 
next 60 days--so through the months of May and June--we would 
be reviewing the biological data and the economic analysis that 
we have. But we have said, in order to make sure that we don't 
run afoul further of the court, that we will do this based on 
the existing record.
    Now, we know, Mr. Ortiz, you have constituents who have 
concerns. We believe that those concerns are on our record. We 
have a lot of material, including quite a bit of material, I 
know, from constituents in your district, as there are from a 
number of other Members of Congress.
    Everything that is on that record will be reviewed and will 
be part of this decision. We are not in a position to entertain 
new information. And so we are still going to be operating 
under ex parte rules. Otherwise, I think we would be in some 
real legal difficulties.
    So our attorneys have advised us, we have to keep this 
process one where we are doing it internally, but we are going 
to use every bit of information that people provided to us, in 
making those decisions.
    Mr. Ortiz. I guess your agency understands the impact that 
this going to have. Maybe you can tell me, how are you going to 
be able to complete this in 60 days?
    Mr. Jones. It is going to be a challenge for us. We 
certainly do recognize the concerns that are out there. And we 
will be taking those concerns into account as we go through 
this process, working within the structure of the law to decide 
what the final critical habitat should be.
    Mr. Ortiz. I wish you had a plan on how you are going to do 
this in 60 days.
    Mr. Jones. It is going to take some concentrated effort by 
our staff to do that, Mr. Ortiz.
    Mr. Ortiz. I just have one more question, Mr. Chairman.
    It is my understanding that the Kemp's ridley sea turtle 
population is doing better these days. I think that most of us 
are aware that the shrimping industry has had problems. In 
Mexico, they were harvesting the eggs and reducing turtle 
populations. At one time I think the service was giving them 
$200,000 to be sure that the population of the Kemp's ridley 
turtle was increased. All of a sudden, it was stopped. Am I 
correct?
    Mr. Jones. Mr. Ortiz, I don't think it has been stopped. I 
think it has been reduced due to other competing priorities. 
But we still have an active program working with the government 
of Mexico to help them provide protection for Mexican nesting 
beaches.
    Mr. Ortiz. So you are still doing that now?
    Mr. Jones. Yes, sir.
    Mr. Ortiz. What is the amount that it was reduced to, from 
$200,000.
    Mr. Jones. I believe it was cut about in half, but let me 
consult here.
    Mr. Ortiz, we will have to get you an answer for the 
record. But I have had discussions with our regional director 
in Albuquerque about this program to make sure that this is one 
that doesn't get cut unduly because we have other priorities 
and a limited budget. But I think it has been cut about in 
half, maybe $90,000 to $100,000, somewhere in that range.
    But we still have people actively working with the 
government of Mexico and with private organizations. And I 
think they have done a marvelous job.
    And we hope that, in the future, they will be able to take 
on an increasing share of this program, and then maybe we can 
shift other resources to other places. But we will never walk 
away from this program, Mr. Ortiz.
    Mr. Ortiz. I just want to put in the record, Mr. Chairman, 
that the shrimping industry has done a great job. There has 
been real progress in working together, and I just want to make 
sure that this is included in the record.
    Thank you, sir.
    Mr. Gilchrest. Thank you, Mr. Ortiz.
    I think we have time for another round of questions, if the 
witnesses don't mind.
    Mr. Jones. We are at your disposal.
    Mr. Gilchrest. Mr. Jones, getting back to the issue of 
invasive species, your agency has requested $2.7 million for 
invasive species problems. Does the agency have any ballpark 
estimate as to the damage, ecologically or economically, that 
invasive species have done around the country or specific 
refuges or looking at the brown tree snake or looking at 
nutria, comparing the ecological damage and the economic damage 
to the amount of money that Fish and Wildlife is putting 
forward to solve the problem?
    Mr. Jones. Mr. Chairman, I don't have a number here. We 
would be happy to see what kind of number we can provide for 
you. Obviously, this is a much bigger issue than just the Fish 
and Wildlife Service. It involves all of us who are involved in 
conservation within the Federal Government, the states, private 
interests. When you look at--
    Mr. Gilchrest. Do you have some idea? It is a pretty 
complicated issue, but do you have any idea as to the estimated 
costs of the number of projects recognized by the agency?
    Mr. Jones. Mr. Chairman, in our budget proposal, we have an 
estimate of about $123 billion as the cost to the nation for 
aquatic invasive species.
    Mr. Gilchrest. What is that figure?
    Mr. Jones. $123 billion.
    Mr. Gilchrest. $123 billion.
    Mr. Jones. Yes, sir.
    Mr. Gilchrest. Is that economic costs?
    Mr. Jones. Economic costs; that is, the losses to regional 
and local economies as a result of invasive species, the costs 
of interference with operations--
    Mr. Gilchrest. That is--
    Mr. Jones. The zebra mussels that clog the intakes for 
power plants, and the costs of fighting the species and 
everything else with it.
    Now, that is not specific, Mr. Chairman, to refuges. And 
that doesn't count nonaquatic. So it wouldn't count invasive 
beetles in trees or something like that.
    Mr. Gilchrest. Or snakes.
    Mr. Jones. Or snakes. Exactly.
    Mr. Chairman, I am advised, though, in our refuge 
operations needs system, our database for future operating 
priorities for the refuge system, there is about $140 million 
in invasive-species-related projects. So those would be 
priority projects that we identified--
    Mr. Gilchrest. Priority projects, $147 million.
    Mr. Jones. No, sir. This is in our needs.
    Mr. Gilchrest. That is the backlog.
    Mr. Jones. That is the backlog of our--
    Mr. Gilchrest. $140 million backlog--
    Mr. Jones. Yes, sir.
    Mr. Gilchrest. --for just refuge specific; billions of 
dollars of economic damage nationwide.
    The Invasive Species Council--I think I have the name of 
that correct--a couple of years ago--
    Mr. Jones. Right.
    Mr. Gilchrest. Are they still out there?
    Mr. Jones. Mr. Chairman, they are. The Invasive Species 
Council was established by an executive order in the previous 
administration. I think the new administration will need to 
sort out exactly how it wants to use the Invasive Species 
Council, but there is staff.
    The staff is located in the Department of Interior, but it 
is a staff that serves not just Interior, but serves the 
Department of Commerce, NOAA, the Department of Agriculture, 
consists of people from several agencies. And they are actively 
working now on ideas about how the new administration might 
continue to address--
    Mr. Gilchrest. Invasive species just has not been a high 
priority for a lot of people?
    Mr. Jones. Mr. Chairman, I think it is an increasing 
priority. Obviously, in the Department of Interior right now, 
our only Senate-confirmed appointee is the secretary. Though we 
have a nominee for the deputy secretary, we have others who are 
still not even in the pipeline yet.
    We in the Fish and Wildlife Service will certainly take 
every opportunity to educate all of the new appointees about 
the problems that invasive species are causing fish and 
wildlife conservation. And I think we will see the 
administration taking a hard look at what to do nationwide.
    It is an issue that affects everyone. It is bipartisan. The 
Federal Government, the states, private industry, individual 
landowners, everyone, has a stake in a strong national program 
to combat and--
    Mr. Gilchrest. Everyone has a stake in a strong national 
program, but you don't seem to be coordinating it out--
    Mr. Jones. The Invasive Species Council is an attempt to do 
that.
    Now, that builds on things that already existed, like 
aquatic nuisance task force that has been in existence for some 
time. It is very active. Our assistant director for fisheries 
and habitat conservation, Cathy Short, who is here today, is 
co-chair of that, along with a co-chair from NOAA. And we have 
a lot of state partners in that, other agencies.
    So in the aquatics area, I think it is fair to say, Mr. 
Chairman, the country recognized this. There was legislation by 
Congress several years ago that authorized this, and we stepped 
out.
    We are now coming to grips with the fact that we still need 
a lot more than we have. And that is something that we--
    Mr. Gilchrest. I would like to work with you, to try to 
come up with a program that will have the resources to make it 
work.
    Mr. Underwood?
    Mr. Underwood. Thank you. I certainly want to associate 
myself with those remarks and concern about the invasive 
species.
    You gave, Mr. Jones, a dollar amount related to aquatic 
invasive species. I don't know if you have a dollar related to 
beetles and snakes on land. And if there isn't, is there a way 
to come up with such a figure?
    Mr. Jones. We certainly can provide you with a figure. In 
our budget, I think we have a total, right now, of about $9.5 
million that will be oriented toward invasive species 
nationwide.
    That includes a little under $2.7 million that Mr. Gudes 
mentioned for the refuge system. It includes about $4.5 million 
for our Fish and Wildlife management assistance office for the 
branch of invasive species which works on the aquatic nuisance 
task force and other things. It includes a little under $2 
million in our partners for fish and wildlife program, private 
landowners with invasive species issues. And it includes about 
$200,000 for our international work, to work with other 
countries. So that is about $9.5 million total.
    Again, brown tree snakes, there was an additional amount 
which previously was in our budget but now would be in the 
budget of the U.S. Geological Survey's biological resources 
division.
    But in addition, we want to be a good partner. We want to 
work with the government of Guam. We want to work with the Air 
Force and others, and make sure that we do everything that we 
can to control brown tree snakes on Guam and prevent them from 
showing up anywhere else.
    Mr. Underwood. It seems like the only way we can get 
attention is to have a dead snake show up on the tarmac in 
Honolulu. Then you get lots of it. [Laughter.]
    But you get more for a live one. [Laughter.]
    Okay, I want to ask you a question on the North American 
Wetlands Conservation Act. This is one of those activities that 
received a $25 million decrease from the Fiscal Year 2001 
appropriation. And I would assume that this is part of the 
money that ended up in the LWCF.
    My understanding of this program is that a good chunk of 
this money is done on a matching basis. And, in fact, it has 
been able to leverage a 3-to-1 basis so that, over the years 
since NAWCF's inception, over $1 billion has been generated 
from nonfederal partners. A $25 million cut, under the same 
understanding, would mean, basically, $75 million is not going 
into these activities from nonfederal resources.
    It just doesn't seem to make a lot of sense when you have 
some programs that are designed to in fact generate the kinds 
of partnership across the country which would bring money into 
conservation activities, and now we are finding ways to 
actually reduce those grant programs.
    Mr. Jones. Mr. Underwood, there is no question that the 
North American Wetlands Conservation Fund has been one of our 
most successful program, and it certainly enjoys wide support.
    The funding level that we have requested for Fiscal Year 
2002 basically is what we requested in Fiscal Year 2000, which 
is $15 million. In 2001, we had a substantial increase for it. 
We returned it, in our proposal, back to the Fiscal Year 2000 
level of $15 million.
    But what we have that we hope will enable states to perhaps 
invest an even larger amount is the stateside Land and Water 
Conservation Fund. And the administration's proposal is that 
this fund, the stateside program, be amended to include the 
projects which would be consistent with the North American 
Wetlands Conservation Act.
    We can't give a fixed dollar amount, because that would be 
up to states and territories to decide how much of the total 
amount available to each one of them they would actually choose 
to orient in this direction. But it is a total of $450 million 
altogether that would be available. And this would be one of 
the purposes that those funds could be--
    Mr. Underwood. I understand the logic behind that. But in 
this particular instance, this is an example of a very popular 
program, a program widely supported in Congress, a program that 
is basically accountable, that we know where the funds are 
going and have a good sense of national direction. And in this 
particular instance, I think we are sacrificing some of that.
    I understand the logic behind what you are outlining, and I 
understand the logic behind the proposal. But I just think that 
it is probably not a good idea at this time, certainly in 
reference to the Wetlands Conservation Act.
    I just wanted to ask a quick question on Marine Sanctuary 
Program. In the National Marine Sanctuary system, NOAA has 
requested an increase of approximately $3.6 million over last 
year's appropriation. Has NOAA used this? And will NOAA be 
using this and other recent increases in funding to achieve its 
goal of establishing minimum management capability at all the 
existing national marine sanctuaries?
    Ms. Davidson. Congressman, we believe that the proposed 
increase would get about 70 percent of the sanctuaries up to 
what we consider the baseline operational level by year 2002, 
with 100 percent to be achieved by 2006, if the year 2002 
numbers were to continue until that time.
    I do have to point out, though, that would not take into 
account operations of a sanctuary program in the northwestern 
Hawaiian islands. And the process of the designation of that as 
a sanctuary has not yet quite begun.
    Mr. Underwood. So none of this includes funding to support 
the designation process in the Northwestern Hawaiian Islands?
    Ms. Davidson. We actually had some separate appropriations 
to support the process of establishing the coral reef ecosystem 
reserve there, and to begin the process of the sanctuary 
designation. You might recall, perhaps, from your own 
experience, it actually takes several years to go through the 
designation process.
    Mr. Underwood. How much funding will be spent on 
sanctuaries system-wide?
    Ms. Davidson. Excuse me, Congressman?
    Mr. Underwood. How much funding will be spent on 
sanctuaries system-wide, as opposed to just individual 
sanctuaries?
    Ms. Davidson. Well, there are funds within the proposed 
increase that not only address individual site requirements, 
management capabilities, such as official enforcement officers. 
But it also addresses system-wide concerns, such as the issue 
of reviewing management plans, which we have begun, for 
instance, on the California coast, and hope to complete 
throughout the sanctuary system over the next few years.
    So there are system-wide increases accounted for in that 
request, sir.
    Mr. Underwood. Okay, thank you.
    If I could just ask one more question on backlogs, back to 
Fish and Wildlife. I remember in the previous year, you had a 
chart, a very interesting chart that defined the decline of 
backlogs, the decline of the rate of increase.
    [Laughter.]
    It is going to be a long time before I forget that chart. 
[Laughter.]
    Now, under the budget proposal that you have, we are 
actually, probably, going to increase that rate of increase, 
are we not? Or is that decline of the rate of increase going to 
continue?
    It is your chart, so that is why I am asking--
    [Laughter.]
    Mr. Jones. Mr. Underwood, I am glad that chart was so 
memorable.
    The fact is that we are continuing to decrease that rate of 
increase. In other words, we are kind of flattening it out. We 
are doing our best to keep pace, but we also kind of have a 
large documented backlog.
    We do believe that the President's budget proposal for 
Fiscal Year 2002, which puts an emphasis on our maintenance 
backlog with a $10 million increase for that, will continue to 
make a contribution in the right direction.
    We have identified in our refuge operating needs system the 
full scale of the priority projects which are backlogged, and 
it is for operating projects, and it is considerable. 
Maintenance, we also have a big backlog of deferred 
maintenance, but we are continuing to chip away at it.
    And we look forward over the next few years to working with 
this committee and with our new National Wildlife Refuge 
centennial commission, which the Secretary will be announcing 
soon, and the activities that lead up to the refuge centennial 
in 2003, to continue to think about ways that we can address 
the needs of the National Wildlife Refuge System in the right 
context.
    Mr. Underwood. I won't forget that chart. I am also not 
going to forget Scott Gudes's nonhypothesis research.
    [Laughter.]
    Nonhypothesis research; that is, you just go in the ocean 
and whatever you find--
    [Laughter.]
    And that is how you go do research? I didn't get exactly 
what was going on with nonhypothesis research.
    Look, we have a taker.
    [Laughter.]
    Ms. Koch. The purpose of--
    Mr. Gilchrest. Can you use a microphone, please?
    Ms. Koch. I'm sorry.
    I am Louisa Koch, deputy director for the NOAA research 
program in which the ocean exploration program resides.
    The concept of nonhypothesis-driven exploration came out of 
the commission. It was to respect the fact that, for example, 
NSF has specific scientific hypotheses for their going out, --
and NOAA does, as well--to look at coral species and the health 
of them and what we think the factors are in continued health.
    As to exploration, we were trying to differentiate 
exploring a deep trench for the sake of going there, where no 
one has ever been before, being able to go into depths where we 
never--
    Mr. Underwood. It sounds like a good TV program.
    Ms. Koch. Excuse me?
    Mr. Underwood. It sounds like a good TV program.
    [Laughter.]
    Ms. Koch. Exactly. Exactly. We are hoping to get TV 
coverage.
    Mr. Underwood. But I am glad to see that nonhypothesis 
research was validated by a commission.
    [Laughter.]
    Mr. Gilchrest. Thank you, Mr. Underwood.
    If I may just follow up on a very good question on 
nonhypothesis research? I assume that is deep-ocean 
exploration. Is it your view that when you go down there, there 
is some sense of the landscape? There is some sense of what is 
there, so that we can connect that in an ecological way to 
other regions of the ocean and then pursue some specific 
hypothesis?
    Ms. Koch. Absolutely. In fact, one of the things that we 
have seen is, when there is exploration into deep trenches, 
there is often a follow-on activity, be it fishing or be it 
mineral exploration, where there are specific commercial 
pursuits.
    And one of the things that we want to do when we explore 
geographic areas of interest is to make sure that we fully 
understand what is there, and understand the impact of what may 
be coming, and can protect and provide a proper framework for 
whatever follow-on endeavors there may be.
    But certainly, there would be follow-on endeavors.
    Mr. Gilchrest. Is that a collaborative effort with the Navy 
or with anybody else?
    Ms. Koch. Navy and NSF and also other NOAA programs, and 
also the National Geographic. We have a number of private 
sector partners as well.
    Mr. Gilchrest. Are there specific areas that are targeted 
for this endeavor?
    Ms. Koch. We have target missions that we are pursuing both 
in 2001 and in 2002, along the east and west coast.
    Mr. Gilchrest. Marianas Trench, is that one?
    Ms. Koch. Marianas Trench, no.
    [The above question was originally answered incorrectly and 
the response was changed from ``yes'' to ``no'' during the 
editing process.]
    Mr. Underwood. We are relieved to hear that.
    [Laughter.]
    Mr. Gilchrest. Where else?
    Ms. Koch. South Atlantic Bight
    Ms. Davidson. From Belize through the Keys, following the 
Gulf Stream, and then beginning in the Hudson Canyon this year 
and following the Hudson Canyon down through the mid-Atlantic 
region.
    Mr. Gilchrest. And each of those, what you just described, 
is still in the stage of a nonhypothesis exploration?
    Ms. Davidson. To go where no man has gone before.
    [Laughter.]
    Mr. Gilchrest. No one has gone with nonhypothesis 
exploration.
    But moving through the stages: So you are down there not 
with any particular, specific hypothesis or theory, but you 
will evaluate that after you are there.
    While you are down there, is there any sense of studying 
continuing motion current, the potential for disruption for 
ocean current, its impact on the weather, those kinds of 
things?
    Ms. Koch. Absolutely. One of the areas that we are 
currently exploring and have been for a long time is the vents 
region off the west coast. One of the things that we looked at 
there is what is the contribution to warming of the ocean to 
ocean currents from those ocean vents. That kind of exploration 
topic would certainly be relevant to what we are continuing to 
do.
    The purpose of going into deep trenches where we have never 
been before is to understand what is there and, therefore, to 
be able to develop hypotheses for reasons to go back, again, 
with our partners.
    Mr. Gilchrest. The Navy's collaboration with you, is that 
pure science, pure nonhypothesis perspective? Is that partly 
science, partly understanding for defensive maneuvers or 
training or hiding a submarine somewhere or whatever?
    Ms. Koch. One area that we plan to pursue is ocean 
acoustics, and clearly the Navy has extremely sophisticated 
technologies that we will want to take advantage of, for 
example, as you mentioned earlier, the SOSUS array. So we will 
be building on the Navy's acoustical understanding when we try 
to explore further ocean acoustics.
    In the ocean's heritage, shipwrecks would be one area that 
we would be interested in. Obviously, wherever it is a military 
shipwreck, they would be very interested in joining us for 
naval history, for example.
    Mr. Gilchrest. How much money would this specific program--
    Ms. Koch. There is a $4 million appropriation in this 
fiscal year, and we are asking for an additional $10 million in 
2002, for a total program of $14 million.
    Mr. Gilchrest. That is just NOAA's contribution to this? 
The Navy adds another appropriation to this?
    Ms. Koch. The Navy does not have an appropriation 
explicitly for ocean exploration. However, they have other 
funds for ocean science, and we collaborate with them.
    Mr. Gilchrest. I see. Thank you very much.
    Mr. Underwood. Can I ask a follow-up?
    Mr. Gilchrest. Certainly, Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman.
    Ms. Koch, is it?
    Ms. Koch. Yes.
    Mr. Underwood. I know from the previous work, I remember 
when we went to Monterey and the President had an unveiling of 
national oceanographic efforts, that he had indicated that they 
Navy had released lots of documents that had been previously 
classified. Is that correct? There is that level of cooperation 
with the Navy?
    Ms. Koch. There is substantial cooperation with the Navy. 
And in fact, I was just talking to the researchers that we have 
off the west coast where they used the Navy's acoustic array to 
find an eruption that happened about 3 weeks ago. And they were 
actually able to target the SOSUS array at the spot they were 
interested in, in order to find out how much underwater 
turbulence there was.
    So there is a high degree of cooperation there. Obviously, 
there are some Navy programs that are so sensitive that that 
limits the--
    Mr. Underwood. How does this increase-funded program differ 
from the activities that are ongoing in NOPP and NURP?
    Ms. Koch. NURP is a very strong current partner. In fact, 
Barbara Moore, the director of NURP, was a very key leader in 
bringing this ocean exploration effort to fruition. And NURP is 
actually going to be involved in leading the signature mission 
this year, so they have a very strong and integral role.
    We have not yet determined the role of NOPP in ocean 
exploration. Clearly, NOPP is an excellent forum to bring NSF 
and Navy and other agencies that are interested in ocean issues 
to the table. We are exploring exactly how the relationship 
with NOPP would work.
    Mr. Underwood. Thank you very much.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Something a little closer to home, and not as exciting, I 
guess, Mr. Hogarth, could you comment on the ballast water 
program in the Chesapeake Bay and the fact that it was zeroed 
out in Fiscal Year 2002? I think your response is already 
noted.
    [Laughter.]
    Ms. Koch. I am sorry, sir, but actually that program is 
within NOAA research, and, therefore, Bill Hogarth is not to 
blame for that.
    [Laughter.]
    It is an important program. We actually do have a $3 
million aquatic nuisance species effort within Sea Grant. We 
are very interested in the Chesapeake Bay program, and it was 
crowded out of the budget due to other priorities, but it is 
something that we are very supportive of.
    Mr. Gilchrest. The $800,000 was--
    Ms. Koch. The $800,000 program was eliminated. There 
remains a $3 million program within Sea Grant.
    Mr. Gilchrest. So Sea Grant can pursue the ballast water 
issue?
    Ms. Koch. Yes, Sea Grant can pursue the ballast water 
issue. However, the $3 million is spread across the 29 Sea 
Grant programs, and, therefore, Chesapeake Bay would only be 
one target. But it is a very important target for that effort.
    Mr. Gilchrest. Can you tell us, of that $3 million, how 
much might be spent for ballast water research in the 
Chesapeake Bay?
    Ms. Koch. I will have to get back to you on that.
    [NOAA's response follows:]

    Sea Grant's invasive species funds are distributed competitively 
and the final distribution of funds for FY 2001 and FY 2002 will not be 
determined until mid-summer. For reference, in FY 2000, about $263,000 
of Sea Grant funds supported research on the ballast water issue 
(including $150,000 awarded through the Small Business Innovation 
Research Program). None of the funds went to the Chesapeake Bay or for 
Ballast Water in Chesapeake Bay.
                                 ______
                                 
    Ms. Koch. But I can tell you, since that is a continuation 
of a program ongoing in 2001, how much is being allocated to 
Maryland, to the Chesapeake Bay.
    Mr. Gilchrest. From Sea Grant?
    Ms. Koch. From Sea Grant, yes, sir, in addition to the 
$800,000, obviously.
    Mr. Gilchrest. Not too have you stand too much longer; I do 
have a question for Bill.
    Under your jurisdiction comes oyster disease? Is that 
something you--
    Ms. Koch. Yes, it does.
    Mr. Gilchrest. Sea Grant?
    Ms. Koch. Yes, it does.
    Mr. Gilchrest. I guess this would be a topic of another 
hearing. But if I understand the nature of ballast water and 
MSX or dermo, would you say there is or there absolutely isn't 
any connection there?
    Ms. Koch. I am sorry that I don't--
    Mr. Gilchrest. I shouldn't ask absolutes of scientists.
    [Laughter.]
    Ms. Koch. I don't have a good answer for you on that. I 
would be happy to get back to you with a detailed response on 
the record.
    [NOAA's response follows:]

    NOAA has sponsored some research to look at transport of pathogens 
into Chesapeake Bay through ballast water, but this was a general look 
at pathogens, not specific to oyster pathogens. Recent findings have 
verified the presence of pathogens in ballast tanks of some ships that 
have entered Chesapeake Bay, but the question of whether or not the 
pathogens can survive long enough once they are released into the Bay 
to have an impact has not yet been addressed.
                                 ______
                                 
    Mr. Gilchrest. We would like to work with you to pursue, 
certainly, oyster disease but also the critical problems based 
on the nature of the Chesapeake Bay and just the way it is--
ballast water, the lack of flushing, the problems of anoxia, 
the nature of the inland port, the distance these ships travel. 
We would like to work with Sea Grant and your office with 
finding what we can do about ballast water.
    Ms. Koch. And we would very much like to work with you. It 
is a major topic, coming out of the Great Lakes region, the 
Gulf of Mexico, and the Chesapeake Bay. It is all over the 
country, and it is not something that we are adequately 
addressing now.
    Mr. Gilchrest. Thank you very much.
    Bill, the $2.5 million for the Chesapeake Bay studies 
program that has been requested, is that a total amount that 
would come to Chesapeake Bay studies? That includes the 
Chesapeake Bay office?
    Dr. Hogarth That is correct. Yes, sir.
    Mr. Gilchrest. So it is $2.5 million for Chesapeake Bay 
studies. That is the total amount coming to the Chesapeake Bay?
    Dr. Hogarth The FY 2002 request for Chesapeake Bay related 
items is about $3.6 million for 2002.
    Mr. Gilchrest. $3.6 million?
    Dr. Hogarth $3.6 million.
    Mr. Gilchrest. We have this $2.5 million--
    Dr. Hogarth The $2.5 million is for the office itself.
    Mr. Gilchrest. I see.
    Dr. Hogarth And there is $3.6 million in total for fishery 
activities. There is $200,000 for marine education, programs at 
the Virginia Institute of Marine Sciences. For the first time, 
it includes funding for species, including $500,00 for blue 
crabs and $850,000 for the Chesapeake Bay oyster recovery 
program.
    Mr. Gilchrest. If you could sort of reemphasize from your 
position, we will certainly do it from our position, the strong 
collaborative effort with the private sector, the state and the 
Federal Government, and a great exchange of information on an 
ongoing basis about the critical nature of ocean recovery and 
the problems with oysters and blue crabs in the bay, both on 
the Virginian and our side.
    Ms. Davidson, the study level the 2002 budget request 
includes the electronic navigation charts for less than 1 
percent of the EEZ that have been determined to be crucial for 
navigation. Is that an acceptable percentage of the EEZ? And 
what is the status of that study?
    Ms. Davidson. First of all, Mr. Chairman, this actually 
represents the first time that we have had a specific line in 
the President's budget for electronic navigational charts 
(ENCs), so we are really pleased with that.
    At that rate, you are correct that it would take a while to 
complete requirements. We are, actually, sitting down and 
working with the Coast Guard and the Navy as well, to talk 
about how best to implement that effort. In fact, we actually 
have started a test pilot effort in the current year with about 
$250,000 to sort of get us a little bit ahead in terms of our 
planning horizon, in terms of collaborating with those 
agencies.
    And we are also discussing with the Navy the data-
management requirements. The Navy is interested in us becoming 
more of a data archive for not only our electronic navigational 
charts and how we can get that information in real time to a 
bridge of a vessel, but also how we make those kinds of data 
available in other ways.
    Mr. Gilchrest. Do you have some idea on the length of time 
it would take to complete about 1 percent of the EEZ for that 
type of charting?
    Ms. Davidson. I don't have that specific information. I can 
get back to you with that. I believe the number is, with that 
level of funding, that we will be able to actually convert 
about 60 to 70 charts to electronic navigational charts, with 
that rate of funding.
    [NOAA's response follows:]

    Responsible for over 3.4 million square nautical miles of the U.S. 
Exclusive Economic Zone (EEZ), NOAA has prioritized the EEZ to maximize 
the efficiency of resources available for hydrographic survey data. 
Many areas portrayed on nautical charts have never been adequately 
surveyed, and nearly half the depths on current charts were acquired 
before 1940 using leadline techniques. NOAA has identified 
approximately 550,000 square nautical miles as navigationally 
significant, which are further prioritized by threat of hazard to 
surface navigation. The critical survey backlog addresses the 43,000 
square nautical miles, or approximately 1.3% of NOAA's charting 
responsibility, considered most important to safe navigation. The 
highest priority are those critical waterways that have high commercial 
traffic volumes (cargo, fishing vessels, cruise ships, ferries, etc.), 
extensive petroleum or hazardous material transport, compelling 
requests from users, and/or transiting vessels with low underkeel 
clearance over the seafloor. Over half of the critical backlog area 
exists in Alaskan waters. At current funding levels, it will take about 
20 years to eliminate the 43,000 square nautical miles critical survey 
backlog.
                                 ______
                                 

    Mr. Gilchrest. So are there specific areas of the EEZ that 
you are targeting first?
    Ms. Davidson. I would have to check with the folks in Coast 
Survey. Our priorities would continue to be the major ports and 
the approach channels.
    We actually have a listing of the 200 ENCs that would be 
required to cover the 40 major port areas, but it does not 
identify for me what the actual priority would be. But we do 
have them identified in terms of which ones we are trying to 
cover.
    [NOAA's response follows:]

    NOAA proposes to first provide coverage for the 40 major U.S. ports 
and harbors. The fiscal year 2002 request for a $3.6 million increase 
will enable NOAA to enhance, build and maintain the suite of 200 ENCs 
needed for the 40 major ports and harbors. These ports and harbors are 
listed below. The prioritization of the top 40 major U.S. ports and 
harbors for commercial navigation was determined by analyzing data 
ranking U.S. ports by cargo tonnage. This model includes major ports of 
call visited by the cruise line industry, and coordinates with planned 
NOAA hydrographic surveying activity for the most current hydrographic 
data.

    NOAA will build 65 new ENCs in fiscal year 2002, as well as enhance 
existing ENCs, to complete the suite of 200. The ENCs will then be 
continually maintained with new data and updates as part of NOAA's 
nautical charting database.

    Below is the listing of the ports which have or are scheduled for 
ENCs. Please note that one port name might cover a number of port 
cities. For example, Port Everglades in Florida includes Miami, Palm 
Beach and Fort Lauderdale.

Baltimore                            Pascagoula
Boston                               Philadelphia
Brunswick                            Port Hueneme
Charleston                           Port of South Louisiana
Charlotte Amalie                     Port Everglades
Chicago                              Port of NY/NJ
Christiansted                        Portland, ME
Cleveland                            Portland, OR
Corpus Christi                       Richmond, VA
Detroit                              Richmond, CA
Duluth/Superior                      San Juan
Honolulu                             San Diego
Houston                              Savannah
Jacksonville                         Seattle
Lake Charles                         St. Clair
Long Beach                           Tampa
Lorain                               Toledo
Mobile                               Valdez
Nikiski                              Wilmington, NC
Norfolk
                                 ------                                
    The current estimate of full ENC coverage for U.S. waters, 
including specialized charts NOAA now produces in paper format, is 
1000. A total of 660 ENCs would be required to provide minimum full 
contiguous coverage for U.S. waters, in order to connect coastal waters 
between U.S. ports for safe navigation. These steps are not included in 
the President's request for fiscal year 2002.
                                 ______
                                 

    Mr. Gilchrest. Does charting 1 percent of the EEZ represent 
the basic need? Will there be charting beyond the 1 percent 
once that is completed?
    Ms. Davidson. We certainly would hope so. With an upgrade 
of resources, we could of course accelerate the rate of 
conversion to electronic nautical charts.
    Mr. Gilchrest. Okay. I just have one last question. I am 
not sure who from NOAA can answer it.
    About a year or two or three ago, we worked with a number 
countries from around the world with the intent to reduce the 
slaughter of right whales. Can someone tell me what the status 
of that is? Is it ongoing? Is it successful? Have we reduced 
the deaths of right whales?
    Dr. Hogarth I know it has continued to work, but right 
whales still have ways to go.
    [NOAA's response follows:]

    NOAA works through several international fora, bi-lateral 
cooperation (with Canada), and ongoing research to help protect right 
whales. The following is a list of recent and ongoing international 
activities by NOAA to protect right whales:

International Whaling Commission (IWC)

    NOAA scientists serve on the International Whaling Commission's 
(IWC) Scientific Committee (SC). The past US Commissioner was NOAA's 
Undersecretary for Oceans. The SC develops and provides recommendations 
to the IWC which in turn recommends protective measures for whales, 
globally. . Right whales have been a primary focus of this group and 
recent actions are no exception. For example, working through this 
group, NOAA scientists helped expose illegal hunting of right whales 
and data falsification by whalers from the former Soviet Union.

The International Maritime Organization (IMO)

    NOAA works actively with the IMO, the primary international body 
regulating shipping activities, to raise awareness of the international 
shipping community to the plight of right whales.

    <bullet> LThe IMO receives regular updates on right whales from the 
US delegation (including NOAA reps) at its annual and various committee 
meetings.
    <bullet> LNOAA staff helped Canada submit a proposal to the IMO on 
ship routing measures in Canadian waters to reduce the risk of ship 
strikes.

Mandatory Ship Reporting System

    In a collaborative effort by NOAA, the US Coast Guard, and Marine 
Mammal Commission, the US submitted a proposal to the IMO to establish 
a Mandatory Ship Reporting system in U.S. east coast waters to reduce 
the likelihood of ship strikes. It was endorsed by the IMO. As planned, 
the system began operation in July 1999 and is functioning on a daily 
basis. The system affects all commercial vessels (over 300 gross tons) 
entering US ports, including foreign flag vessels.

Management Options for Reducing Ship Strikes

    NOAA is studying various management options to reduce ship strikes 
and the legal authority needed to implement them. NOAA is working 
closely with the shipping industry, economists, and analysts to provide 
recommendations. The recommendations are due in September and will 
certainly affect foreign flag vessels and will almost certainly include 
recommendations on increasing international mariner awareness about 
right whales.

Navigational Aids

    NOAA provides information to regularly update publications by the 
National Imagery and Mapping Agency, Notice to Mariners and Sailing 
Directions, which are essential documents for U.S. pilots entering 
foreign waters.

Collaboration with Canada

    NOAA has regular bi-lateral meetings with Canada to facilitate 
collaboration on right whale (and other marine mammal) protective 
measures. Such collaboration includes:

    <bullet> Lensuring Canadian and US fishing gear restrictions are 
compatible, to the extent practicable, and collaboration on determining 
the types of fishing gear involved in whale entanglements
    <bullet> Lright whale field studies in Canadian waters
    <bullet> LNOAA staff provides supporting documentation, 
information, and expertise for vessel traffic separation regimes and 
other measures taken in Canadian waters to reduce ship strikes of right 
whales
    <bullet> LNOAA scientists provide advice and expertise on 
permitting requirements for scientific research in on right whales in 
Canadian waters

North Pacific Right Whales

    <bullet> LNOAA scientists are currently engaged, with National 
Marine Fisheries Service funding, to conduct boat and aircraft surveys 
throughout the Bering Sea to assess abundance and distribution of North 
Pacific right whales. These studies include biopsy sampling (for 
genetic studies), individual photoidentification studies (to study 
demographics, population size, and assess types and extent of human 
impacts), and photogrammetry studies (to assess size distributions and 
assess health).
    <bullet> LNOAA scientists recently helped identify the existence 
of, helped quantify the size of, and are working to reduce human 
impacts to, a North Pacific right whale population found along the 
eastern North Pacific rim, in Russian and Asian waters.
    <bullet> LNOAA scientists recently published a paper on every known 
(historic) take or death of a North Pacific right whale, including all 
known causes due to human activities.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Bill.
    My last comment, I guess, before I yield to Mr. Underwood.
    About the piping plover, when I see Mr. Ortiz--just for 
frame of reference purposes, a neutral suggestion, for 
migrating shore birds, would be to read the book ``Sea of 
Slaughter,'' by Farley Mowat. Just for frame of reference on 
what we have left and what we need to do.
    Mr. Underwood?
    Mr. Underwood. Thank you, and thank you for this hearing, 
again.
    And I just wanted to ask one last question on fisheries 
research and data collection, for Mr. Hogarth, and ask about 
managing fisheries based on all the insufficient data.
    This year, the agency requested a $13 million increase for 
stock assessment work. Is this amount sufficient to deal with 
the backlog in stock assessments? What would be an amount that 
would be sufficient?
    Dr. Hogarth I think this will get us to a point where we 
will be able to respond to the level of stock assessments now 
sort of on the back burner because we haven't been able to do 
them.
    If you look through the budget, there is also money for 
increased surveys. And I think that total package is what we 
are looking at to give us the increased data. The quality 
research of the industry will help get improved data also. And 
the requested stock assessment funding will enable us to hire 
some new stock assessment people, some who need to look at 
ecosystem management, some new thinking to look at modelling, 
to look at climatic conditions in the ecosystem as a whole.
    So this will be a continuing effort, and it is not just a 
one-time, in my opinion, but it is a long-term, continuing 
level of funding that we need.
    Mr. Underwood. Do you have a dollar amount that would 
satisfy the backlog?
    Dr. Hogarth I will think about it.
    [NOAA's response follows:]

    NOAA has two documents that define requirements for both expanding 
and improving stock assessments and their underlying fisheries data 
collection programs. The NMFS Stock Assessment Improvement Plan (SAIP) 
has projected the requirements to attain the goal of Tier Three stock 
assessments, which is a new term for the next generation of ecosystem 
assessments requiring substantial new or expanded data collection and 
research. There is a progression of improving the quality and quantity 
of assessment advice from Tier One to Tier Three.
    Tier One status, closest to being achieved if the President's 
fiscal year 2002 requested increase of $13.3 million is funded, 
requires minimal new data collection. Currently, 23 percent of the U.S. 
stocks included in the annual report to Congress are being assessed at 
least at the Tier One level. With the requested increase in days-at-sea 
and the addition of more staff to process samples, manage and quality 
control data, and derive and interpret assessment models, we can mine 
existing data resources and assess some of the unknown stocks, or more 
frequently assess known stocks, using relatively basic single species 
models. Total costs for Tier One are $15.5 million per year.
    Tier Two would elevate all stocks to a nationally-acceptable 
minimum standard of quality and frequency as identified by the regional 
councils and NMFS and consistent with National Research Council 
recommendations, but requires substantial amounts of new data in 
addition to more staff. Currently, 16 percent of U.S. stocks are being 
assessed at least at the Tier Two level. Funding Tier Two completely 
would achieve baseline monitoring for all federally-managed species, 
and upgrade core fishery management plan species to annual assessments 
using aggregated stock production models. Tier Two costs are estimated 
at $38 million per year.
    Tier Three advances the state-of-the-art in stock assessment by 
incorporating multi-species, environmental, and spatial data into 
seasonal ecosystem analyses. Significant data and basic research 
investments are required to attain Tier Three status. The long term 
goal upon completion of the SAIP is for all managed species to have, at 
a minimum, a scientific application of a surplus production stock 
assessment model (level 3, on a one to five scale), with all core 
species assessed at a higher level (4 or 5), which incorporates 
ecosystem and environmental parameters into the models. An estimated 
$46 million would be needed to completely fund Tier Three's approach. 
Tier Three is a long-term objective because considerable research is 
required and new time series of consistent data collection must be 
initiated.
    The different Tiers of stock assessment excellence provide useful 
benchmarks for monitoring performance improvements in the scientific 
knowledge base upon which management policies are developed. NOAA's 
strategy reflected in the fiscal year 2002 President's request is to 
seek a combination of Tier One and Tier Two improvements to reflect the 
priority species of NMFS and the regional councils. This investment 
will improve NOAA's scientific and technology competencies to collect 
and process the additional data into sound policy advice, and 
communicate it effectively to managers and the industry.
                                 ______
                                 
    Mr. Underwood. Maybe some hypothesis-driven research.
    [Laughter.]
    Dr. Hogarth One of the problems we have, to be honest with 
you, is people. There are just not enough people coming out of 
the universities to do stock assessments. So we are trying to 
work with the universities to develop programs to get people 
trained in stock assessment work. They are just not currently 
available and it is hard to find.
    It is a total program, I think, of the modernization of the 
ships, to get improved data collection, to get improved stock 
assessments, social and economic data. It is all part of the 
big package to allow us to be more responsive to the issues and 
better data collection. Year 2001 started the process; 2002 
will definitely continue it.
    Mr. Underwood. Okay, thank you very much.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    I have one last question. Actually, two last yes or no 
questions for Ms. Davidson from Mr. Young.
    Mr. Gilchrest. Does NOAA intend to complete the site 
characterization work on Pribilof Islands this year?
    Ms. Davidson. I think that we are intending to make 
substantial headway on the site characterization.
    As we explained in a recent briefing with some of Mr. 
Young's staff, we have almost fully characterized about 60 to 
70 percent of the known sites. It is a fairly complex activity, 
because you don't always fully appreciate the extent of 
contamination until you get in and begin to do the site 
characterization work. But it would be our goal.
    We just finished contracting with an outside company to 
review our on-site characterization to date, and they generally 
concurred with our conclusions to date and our estimates of 
likely requirements.
    Mr. Gilchrest. That is a tentative ``yes.''
    [Laughter.]
    Ms. Davidson. Yes.
    [Laughter.]
    It is, but with the understanding that cleanup is a complex 
issue.
    Mr. Gilchrest. A tentative ``yes'' with the understanding 
that it is difficult.
    With that in mind--apparently there is a two-party 
agreement, as far as the cost of all this--when will you have 
some idea of cost for the final cleanup?
    Ms. Davidson. Of course, that relates to the answer to the 
first question, Mr. Chairman.
    So we hope, with this next season, which is now, I am told, 
November, that we not only have a better feeling for the extent 
of the contamination as well as the complete cost requirements.
    We would be happy to get back to you at the end of the 
current season with the information.
    Mr. Gilchrest. The end of the current season, that would 
be?
    Ms. Davidson. Well, cleanups can only really proceed from 
about May to November in that particular geography. After that, 
there are certain types of weather constraints.
    Mr. Gilchrest. So you would like to wait until November to 
answer this question?
    Ms. Davidson. Well, I think that would be appropriate. I 
could probably more fully answer the question for you. You 
asked for a tentative answer, and I presume you would like--
    Mr. Gilchrest. I didn't ask for a tentative answer. I think 
Mr. Young wanted a--
    [Laughter.]
    But I will pass along what you said.
    Ms. Davidson. Thank you, sir.
    [NOAA's response follows:]

    NOAA will make every effort to complete remaining site 
characterization field work during the 2001 work season on the Pribilof 
Islands. Once necessary field work is done, contractors will prepare 
reports of the results of their work, and then NOAA will need to review 
and evaluate those reports, and develop either risk assessments and/or 
corrective action plans for the newly characterized sites.
    Once corrective action plans for all sites are available, NOAA will 
be able to develop an overall estimate of the cost to complete the 
Pribilofs cleanup. Based on site characterization and related work in 
past years, it is likely that NOAA's evaluation of contractors' 
reports, and preparation of corrective action plans, will take 4-8 
months after the end of the field season, or until the late Spring of 
2002.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Ms. Davidson.
    Ladies and gentlemen, thank you for your attendance. Your 
testimony was very useful for all of us, and we would like to 
continue to work with you on these issues in the coming months.
    Mr. Gilchrest. The hearing is adjourned.
    [Whereupon, at 11:57 a.m., the Subcommittee was adjourned.]
         fish and wildlife service - budget hearing may 3, 2001
                        questions for the record
    Question 1. What is the rationale for the proposed cap on how the 
agency may spend ESA listing funds to comply with court orders or legal 
settlements? What is the practical effect of this funding restriction?
    Answer 1: The revised appropriations language continues a provision 
recommended by the previous Administration, and enacted by Congress in 
fiscal years 1998 through 2001, limiting the amount of the resource 
management account that can be used for completing listings and 
critical habitat designations to the amount intended to be provided by 
Congress, as identified in accompanying legislative reports. That is, 
the effect of the language is to prohibit the Fish and Wildlife Service 
from reprogramming funds from other programs to the listing program. 
However, because some Courts have concluded that they have little or no 
discretion to give the Service relief from certain underlying mandatory 
deadlines in the ESA, even when limited listing funds do not allow the 
Service to meet all of the ESA listing requirements, the President's 
proposal also includes language clarifying that the Service may expend 
its listing resources in fiscal year 2002 only to comply with existing 
court orders or according to a priority system developed by the 
Service. It is our intention that the priority system be biologically 
based and issued only after public review and comment.
    The Service listing program has a substantial backlog of work that 
is needed to meet statutory requirements. Because of this backlog, the 
Service needs a mechanism to allow for the orderly management of the 
listing program that allows the Service to address the species most in 
need. The Service also must be able to efficiently plan its work for 
the year, without having to abruptly stop and start work and shift 
resources from one Region to another in response to new court orders 
throughout the year.
    The proposed language would preclude the Service from spending 
funds to comply with court orders to complete additional work in Fiscal 
Year 2002 as a result of past failure to meet the required deadlines 
identified in the ESA. The vast majority of deadlines we have missed, 
and the associated litigation, is related to our failure in the past to 
designate critical habitat at the time we listed the species. However, 
courts may find other appropriate remedies--for example, by ordering us 
to complete a critical habitat determination in fiscal year 2003. Also, 
the proposed language would not affect citizens'' rights to sue over 
the merits of any listing decision, or the remedies available to 
Federal courts in such cases.
    Question 2. On November 22, 2000, the U. S. Fish and Wildlife 
Service announced a listing freeze on threatened or endangered species 
because of court order or settlement agreements. Please update the 
Subcommittee on the number of pending court cases and settlement 
agreements?
    Answer 2: The Service did not announce a listing freeze. We stated 
that we have allocated all of our fiscal year 2001 funding to meet 
court-ordered deadlines and there are no additional resources to spend 
this year on discretionary listing activities. Regretfully this notice 
was interpreted by some as a listing ``freeze''.
    We currently have 78 active lawsuits. This includes 45 cases that 
we have not yet settled or are awaiting a court ruling. The remaining 
33 cases have had an initial ruling or settlement agreement, but either 
we are considering additional legal recourse (e.g., an appeal), or we 
remain in litigation concerning the plaintiffs'' claim for attorney 
fees.
    Under an agreement announced August 28, 2001, with the Center for 
Biological Diversity the Southern Appalachian Biodiversity Project, and 
the California Native Plant Society, the Service will issue final 
listing decisions for 14 species and propose 8 more species for 
listing. The Service will also be able to take action on four citizen 
petitions to list species under the Act. The Service and the 
organizations have agreed to extend deadlines for either other critical 
habitat designations, thereby making funds available for these actions. 
This agreement was filed with the U.S. District Court on September 28, 
2001.
    The species covered by the agreement face significant threats. For 
example, the Service will consider emergency listing the Tumbling Creek 
cave snail, which declined precipitously in the single cave in Missouri 
where it is found, and Columbia Basin distinct population segment of 
pigmy rabbits in Washington, which has declined to fewer that 50 
individuals. The Service will also make final determinations for the 
showy stickseed, the rarest plant in the State of Washington, with a 
single population of fewer than 300 individuals; and the Mississippi 
gopher frog, which is known from only one site in Harrison County, 
Mississippi.
    Under the agreement, the deadlines for final critical habitat 
designations for five species and proposed and final critical habitat 
designations for three others will be extended into this fiscal year. 
The Service is using the funds that would have been spent on these 
actions in fiscal year 2001 and 2002 to list new species, propose new 
listings, work on other critical habitat designations, and respond to 
petitions.
    Question 3. How many endangered species were not listed because of 
lawsuits and court ordered settlements?
    Answer 3: It is impossible to determine exactly how many species 
were not added to the lists of endangered or threatened species as 
result of litigation. Unquestionably, the need to address critical 
habitat designations required by court order and settlement agreement 
have severely affected our ability to list species. For example, just 
looking at our recent track record for fiscal year 1997 - fiscal year 
2000, it is clear that we typically listed many more species during 
that time frame than we will in fiscal year 2001. Final listing 
determinations ranged from 157 species in fiscal year 1997 to 39 
species in fiscal year 2000, with a median of 48 final listing 
determinations per fiscal year. We completed 14 final listing 
determinations in fiscal year 2001.
    In addition, we presently have 236 species which we have placed on 
the ``candidate'' list, all of which we have determined may warrant 
listing. However, we have been precluded from acting on these species 
due to the need to address the critical habitat issue described above.
    Question 4. How much money did the federal government spend in 
these lawsuits and how much did the litigants receive for their legal 
efforts?
    Answer 4: The Department of Justice estimates that the federal 
government has paid approximately $1.25 million dollars in attorneys' 
fees and costs since January 1995 for missed deadline cases and 
defending determinations that designation of critical habitat was not 
prudent.
    While we do not have readily available figures for the costs 
relating to defending against these lawsuits, we budget approximately 
$800,000 in the listing program for litigation support. It is important 
to note that it is not the costs litigation support alone that is the 
primary problem for management of the endangered species listing 
program. It is rather that the costs of complying with the various 
court orders and attempting to meet the deadlines imposed by the courts 
have in recent years consumed, and in some cases threatened to exceed, 
the funds appropriated for these purposes.
    Question 5. With the maintenance backlog at our National Wildlife 
Refuge System now exceeding $830 million, how is an increase of only $8 
million going to make any real difference in reducing this staggering 
level?
    Answer 5: All funding increases for maintenance projects help to 
address the maintenance backlog and benefit the Refuge System. The 
Refuge System has prioritized its maintenance needs in the DOI Five-
Year Deferred Maintenance and Equipment Replacement Plan, which uses a 
standard scoring and ranking process to identify highest priority 
maintenance needs for the budget year and the subsequent four years, 
with highest priority given to health and safety. Any increase in 
Deferred Maintenance funding will complete high priority projects 
within that plan. Additionally, the fiscal year 2002 budget request 
included an increase of $1.9 million in annual maintenance funding for 
maintenance workers who will take care of small cyclical maintenance 
needs and keep them from being added to the backlog.
    The rate of increase of the maintenance backlog has been steadily 
slowing down in recent years as a result of increases in both annual 
maintenance and deferred maintenance funding. Refuge maintenance needs 
are also supported by the following appropriations: Construction, 
Operations and Maintenance of Quarters, BLM Wildland Fire Management, 
and Federal Aid - Highways.
    Question 6. How much money is required for nutria eradication at 
the Blackwater National Wildlife Refuge in fiscal year 1902?
    Answer 6: The cost to continue research on nutria population 
control and ecology at Blackwater NWR is $498,000, currently split 
between Refuges ($299K) and Ecological Services ($199K). Since the 
program is conducted both on and off the refuge, and involves other 
federal agencies, private landowners and the state, the Service is 
working with these partners to identify other sources of funds to 
initiate monitoring nutria-associated tidal marsh and wetland damage, 
wetland restoration experiments and outreach programs. This will 
adequately meet the highest objectives.
    Question 7. What is the status of the National Wildlife Refuge 
System Centennial Commission? When will the membership of this 
Commission be announced?
    Answer 7: On March 15, 2001, the Service sent a memorandum to the 
Secretary of Interior with a listing of potential candidates for the 
commission. At this time, the Secretary has made her appointments to 
the Commission, and we are in discussion with the Congressional ex 
officio members as to the best time to announce them. The charter for 
the commission has been prepared and is being reviewed within the 
Department.
    Question 8. How many new refuges will be created in 2001?
    Answer 8: At the time the budget was submitted, we projected the 
creation of 11 new National Wildlife Refuges (NWR's) in Fiscal Year 
2001. Eight were actually established: Dakota Tallgrass Prairie WMA, 
North and South Dakota; Assabet River NWR, Massachusetts; Caddo Lake 
NWR, Texas; Oahu Forest NWR, Hawaii; Vieques NWR, Puerto Rico; and 
Palmyra Atoll NWR and Kingman Reef NWR in the Pacific.
    Question 9. Why has the acquisition of 1,100 acres for the St. 
Marks NWR in Florida merited the top of the Service's LAPS list?
    Answer 9: The Service's Land Acquisition Priority System (LAPS) for 
ranking Land and Water Conservation Fund projects was first used in the 
preparation of the Fiscal Year 1989 Budget Estimate. These criteria 
remained substantially unchanged until 1998 when a major revision of 
the criteria was undertaken. The revised criteria were first used in 
the development of the Fiscal Year 2001 Budget Estimate and include 
four Components and a Project Summary. Each component can have a 
maximum score of 200 points and the Project Summary an additional 50 
points. The component questions are tied to Service trust 
responsibilities. The criteria are used to rank the resources of the 
project as a whole, not just the lands to be acquired. The overall 
score for St. Marks National Wildlife Refuge, Florida was 683 points, 
the highest score of the 133 projects on the list. The average project 
score for the 133 projects was 448.
    The Fisheries and Aquatic Resources Component addresses: (1) the 
status and trends of aquatic populations; (2) species diversity for 
trust resources; (3) critical or essential habitats including 
watersheds and free-flowing rivers; (4) wetland types and trends 
status; and (5) wetland losses by percent of historic wetland base by 
state. St. Marks NWR scored 147 points on this component; the average 
component score was 110.
    The Endangered and Threatened Species Component: (1) is recovery-
oriented; (2) considers habitat and biological community integrity as 
well as species occurrences; and (3) focuses on actual habitat use. St. 
Marks NWR was one of 19 projects which scored the maximum, 200 points, 
on this component.
    The Bird Conservation Component consists of: (1) regionally-
developed lists of 70 species of concern for each region, as well as 
Hawaii and Puerto Rico; (2) a population importance index; and (3) an 
avian diversity index. Special emphasis is given to Non-game Species of 
Management Concern and the North American Wetlands Conservation Act 
Priority Waterfowl Species. St. Marks NWR scored 120 points on this 
component; the average component score was 112.
    The Ecosystem Conservation Component addresses: (1) bio-diversity 
through distribution and abundance of rare communities; (2) ecosystem 
decline and protection of native diversity of threatened ecosystems: 
(3) landscape conservation by preserving large, intact habitats through 
partnerships; and (4) contributions to national plans and designations. 
St. Marks NWR scored 191 out of 200 possible points on this component. 
Only three of the 133 projects scored higher.
    Question 10. I understand that a new visitors center is being built 
at the Parker River National Wildlife Refuge in Newburyport, 
Massachusetts. What is the cost of constructing that facility? How much 
has been appropriated for that headquarters complex? (A total of $3.4 
million in fiscal year 1900 and fiscal year 1901) How will the 
additional money be raised? Is the public being asked to contribute 
and, if yes, is that a normal course of business?
    Answer 10-1: The estimated cost to construct the facility is 
$7,217,294, including estimated private contributions of $1,950,000. 
Although the Service will complete the project with available funds, 
other federal funds are being sought to provide for other portions of 
the project.
    Answer 10-2: Refer to the appropriation history provided below.
    [GRAPHIC] [TIFF OMITTED] T2133.002
    
    Answer 10-3: The Commonwealth of Massachusetts is expected to 
contribute $1,000,000 for construction of the complex. The remaining 
$950,000 in non-federal funding is to be raised by local support 
groups, although these groups have not yet been able to meet this 
target.
    Answer 10-4: The public is being asked to contribute and this is 
not an unusual practice. The remaining $950,000 in non-federal funding 
was to be raised by local support groups. Activities in support of fish 
and wildlife conservation are funded from unsolicited contributions to 
the Service from other governments, private organizations, and 
individuals. Donations for Visitor Centers are collected in special 
projects within Contributed Funds. Congress has stipulated that the 
cost of new Visitor Centers at sites such as Bear River NWR, Parker 
River NWR, and Chincoteague NWR will be split, with 50 percent of the 
public use portion of the project coming from private groups and other 
contributions, and 50 percent from federal funds.
    Question 11. What is the cost to acquire the Kingman Island 
National Wildlife Refuge lands? Isn't the Service being sued by 
Americans who believe they have a legal title to Kingman Island? What 
is the status of this case and will this property be paid for with LWCF 
or Migratory Bird funding?
    Answer 11: There was no cost to acquire the Kingman Reef National 
Wildlife Refuge lands. The FWS was delegated administrative 
jurisdiction and control of Kingman Reef through the Secretary of the 
Interior on January 18, 2001. The Office of Insular Affairs previously 
had administrative jurisdiction and control of the area.
    A suit has been filed by the Fullard-Leo family against the FWS 
regarding their alleged ownership of Kingman Reef. A pre-trial 
conference was held between the magistrate and the attorneys on May 21, 
2001, as the first step towards setting the time schedule for the rest 
of the proceedings. More specific information was not available as of 
the date of this report.
    The United States Government has long held that Kingman Reef is 
federally-owned property and thus there is no to purchase the property 
with either LWCF nor Migratory Bird funds.
    Question 12. The President's budget request included $6.705 million 
for the highly successful National Fish and Wildlife Foundation. This 
is some $519,000 less than the Foundation received in the current 
fiscal year. Why did the Foundation not receive at least level funding 
for fiscal year 1902? In your opinion, could the Foundation effectively 
use additional resources? I am troubled by this request because of the 
fact that the Foundation grows every federal dollar it receives by at 
least one and in most cases three to one. It appears that this is the 
kind of program that we need to fund more often and to the maximum 
extent possible. Do you agree?
    Answer 12: The Administration's budget request focused on core 
operating programs within the Service and funded the NFWF at historic 
funding levels. The Foundation has a proven track record of effectively 
leveraging Federal funding, and could probably use additional resources 
. . . but so too could many of the core Service programs. The budget 
request funds the highest priority Service needs.
    Question 13. In fiscal year 1900, the Foundation received some $15 
million from the Department of the Interior and some $10.5 million from 
the Fish and Wildlife Service alone. With all of the leveraging 
capability of the Foundation, what did this figure grow to during that 
year?
    Answer 13: In fiscal year 2000, the Foundation received 
approximately $10.5 million through the FWS appropriation. These funds 
were matched by an additional $25 million in non-federal contributions 
generated by both the Foundation and its grantees, for a total 
conservation investment of $35.5 million. In general, for every federal 
dollar appropriated to the Foundation through the FWS in fiscal year 
2000, $3.4 was invested in on-the-ground conservation.
    Question 14. Why has the Administration not recommend either full 
funding or at least an increase for the National Wildlife Refuge Fund?
    Answer 14: Units of local government receive annual payments from 
the U.S. Fish and Wildlife Service to offset tax losses from the 
purchase of fee title lands in accordance with the Refuge Revenue 
Sharing Act (16 U.S.C. 715s). The Act requires the Service to deposit 
net receipts into the National Wildlife Refuge Fund to make annual 
payments to counties; if net receipts are not sufficient, the Service 
may request additional appropriations from Congress. The fiscal year 
2002 budget requests $11,414,000 in appropriations for the National 
Wildlife Refuge Fund to supplement the estimated net receipts of 
$4,283,000 to make payments to counties and boroughs. The fiscal year 
2002 request balances Revenue Sharing needs with other Service 
priorities within a limited budget.
    However, the Service continues to provide other benefits to its 
county partners besides the annual Revenue Sharing payment. Using a 
substantial share of refuge and construction dollars for visitor 
services and facilities brings visitors to refuges and thus increases 
economic benefits to the local communities. For example, those who seek 
recreation on refuges (birdwatching, hunting, fishing, hiking, etc.) 
also circulate money into the local economies by staying in hotels, 
eating in restaurants, and buying recreational supplies. Having Service 
lands in the area provides both recreational and economic benefits to 
the local communities.
    Question 15. The growth and expansion of invasive species is a 
growing problem within our refuge system. I understand the backlog for 
invasive species projects is at least $140 million. How much is being 
proposed for the elimination of invasive species in fiscal year 1902?
    Answer 15: The Service will continue to spend at least $3 million 
on invasive species on national wildlife refuges in fiscal year 2002. 
Invasive species pose a great threat to habitats and wildlife not only 
on units of the National Wildlife Refuge System, but throughout the 
nation.
    Question 16. What is the status of the Invasive Species Council? 
Has the Council met and have they issued any recommendations?
    Answer 16: The National Invasive Species Council (Council) was 
established by Executive Order 13112 to provide national leadership 
regarding invasive species. The Council held its first meeting in July 
1999. The specific focus of the Council is to ensure that Federal 
agency activities concerning invasive species are coordinated, 
complementary, cost-efficient, and effective. The Council includes the 
Secretary of State, the Secretary of the Treasury, the Secretary of 
Defense, the Secretary of the Interior, the Secretary of Agriculture, 
the Secretary of Commerce, the Secretary of Transportation, and the 
Administrator of the Environmental Protection Agency, Administrator of 
the Agency for International Development, and the Secretary of Health 
and Human Services (the last 2 joined recently). The Council is Co-
Chaired by the Secretary of the Interior, the Secretary of Agriculture, 
and the Secretary of Commerce. [The Council has met 3 times over the 
last two years--the most recent meeting occurred January 2001. UPDATE]
    The Executive Order called for the Council to produce and update 
biennially a National Invasive Species Management Plan (Plan). The 
first edition of the Plan, entitled ``Meeting the Invasive Species 
Challenge,'' was approved by the Council on January 18, 2001. It 
identifies nine priority areas for addressing invasive species 
problems. It also recommends actions that the Council will undertake in 
coordination and partnership with other stakeholders as appropriate.
    The Executive Order also required the establishment of an Invasive 
Species Advisory Committee which consists of qualified representatives 
from outside of the Federal government. Their role is to provide 
stakeholder input to help the Council achieve the goals and objectives 
outlined in the Executive Order. The 32-member Advisory Committee was 
established in 1999, and it held its first meeting in January 2000. The 
Advisory Committee has met 5 times and provided significant input on 
the Plan and other Council initiatives.
    Question 17. What is the current maintenance backlog at our 
National Fish Hatchery System? How would you describe the general 
condition of our hatcheries? For instance, how many hatcheries are 
older than 50 years old, 40 years old, 30 years or 20 years?
    Answer 17: The current maintenance backlog at our 87 National Fish 
Hatchery System (NFHS) facilities consists of 1,341 projects totaling 
$280 million. This amounts to 31% of the $890 million replacement value 
of our field facilities, a ratio known as the Facility Condition Index. 
Ratios in excess of 10% indicate facilities in poor condition. Half of 
the backlog projects involve the rehabilitation of critical water 
supplies essential to fulfilling the station's mission. Effects on the 
NFHS's mission are already being felt due to the deteriorating water 
supplies at our National Fish Hatcheries, which average over 60 years 
old. Of the 70 National Fish Hatcheries, 41 are over 50 years old, 14 
are between the age of 40 and 50 years, 9 are between the age of 30 and 
40 years, 2 are between the age of 20 and 30 years, and only 4 are 
under 20 years old. Due to the aged and deteriorating state of water 
delivery and control systems, incidents of fish losses (some involving 
listed species) have occurred. Fortunately, the hatchery system 
received $4.0 million in Title VIII maintenance in fiscal year 2001, to 
help meet some of these needs. And, the Service continues to prioritize 
construction needs within available funding. For example, $7.4 million 
was appropriated in fiscal year 2001 and the Administration has 
requested $6.6 million in fiscal year 2002 for hatchery construction 
requests.
    Question 18. What is the rationale for cutting funding for hatchery 
maintenance by $5 million dollars?
    Answer 18: The funding referred to in the question was pass-through 
funding that Congress provided for fiscal year 2001 for the Washington 
State Hatchery Improvement Project. The fiscal year 2002 budget request 
proposed to discontinue this pass-through funding because of high 
priority needs within the Service. This funding was used by the state 
hatchery system, the Long Live the Kings project, and the Northwest 
Indian Fisheries Commission to initiate state-led reforms of salmon and 
steelhead hatcheries in Puget Sound and the marine coast of Washington 
State. Approximately $200,000 was available to the Service for these 
activities.
    The Administration, however, is continuing to fund the Pacific 
Coast Salmon Recovery Fund in fiscal year 2002, which provides 
financial assistance to Pacific Northwest State, local and tribal 
governments to conduct activities, such as those under the Washington 
Hatchery Improvement Project, to restore Pacific salmon. The Recovery 
Fund is included in the Department of Commerce budget proposal.
    Question 19. Why is the production of both hatchery fish and fish 
eggs down so significantly in fiscal year 02?
    Answer 19: The Service's 70 National Fish Hatcheries produce fish 
and fish eggs to recover and restore troubled aquatic species, to help 
mitigate the deleterious effects of federal water projects, to meet 
tribal trust responsibilities, and help provide recreational 
opportunities for the Nation's 50 million licensed anglers.
    Between fiscal year 1996 and fiscal year 2000, the number of fish 
and fish eggs produced by National Fish Hatcheries has been reduced by 
8% and 16%, respectively, as shown in the following table. In fiscal 
year 2001 this trend is expected to continue with the number of fish 
and fish eggs decreasing by 1.4% and 2.5%, respectively. The Fisheries 
Program has recently increased its focus on recovery and restoration 
programs, which require fewer fish propagated under more rigorous 
scientific controls. Because of this, some production from on-going 
restoration and recovery programs may be reduced to incorporate better 
science and technology. The Service intends to produce a better quality 
fish that will have a greater chance of survival in the wild which will 
enhance the recovery and restoration of aquatic species.
[GRAPHIC] [TIFF OMITTED] T2133.003

    Question 20. Why are private hatcheries prohibited by the U.S. Fish 
and Wildlife Service from producing species like American sturgeon?
    Answer 20: The Fish and Wildlife Service does not prohibit private 
hatcheries from holding or producing sturgeon, unless the species is 
listed under the Endangered Species Act, in which case a special permit 
is required. The Service has no other jurisdiction over commercial 
sturgeon production.
    The Service's Southeast Region has recommended that the rearing of 
non-indigenous sturgeon species be avoided within watersheds that 
contain populations of native sturgeon, due to the potential for 
introduction of new diseases and the potential for competition or 
hybridization with native species. There are currently at least ten 
commercial producers of non-indigenous sturgeon in Florida alone. Best 
management practices have been developed by the State of Florida to 
minimize the chances for escapement. However, the effectiveness of 
these practices is unknown.
    Commercial production of native species, such as the Atlantic 
sturgeon, presents risks to wild populations. New markets and increased 
demand for native sturgeon increases the potential for poaching wild 
fish. Additionally, native species bred for desirable aquaculture 
traits, such as fast growth, may not retain the genetic diversity 
needed to optimize survival in the wild. Escapement of aquaculture fish 
could thereby lead to a ``swamping'' of wild gene pools with fish of 
limited genetic diversity. The Service's Southeast Region has 
recommended that genetic guidelines, similar to those established by 
the Atlantic States Marine Fisheries Commission, be followed for 
commercial production of native Atlantic and Gulf sturgeon and that 
best management practices necessary to minimize chances for escapement 
be monitored and enforced.
    The Fish and Wildlife Service does regulate trade of several 
sturgeon species for commercial purposes (e.g. caviar or flesh produced 
for international markets) under the Convention on International Trade 
of Endangered Species (CITES), but that does not affect production and 
sale within the U.S.
    Question 21. What is the status of the Mescalero National Fish 
Hatchery in New Mexico?
    Answer 21: Operations at the Mescalero NFH were suspended in 
November 2000 as a result of chronic physical problems at the facility 
including: radon levels in the hatchery building that at times greatly 
exceed OSHA allowable levels for human safety; high nitrogen levels in 
the water; hard water that creates kidney stones in older fish; and 
cracking raceways and buildings caused by unstable soil. In 1999 muddy, 
debris-laden water caused by a forest fire above the hatchery flooded 
the hatchery killing all 230,000 rainbow trout and burying Carrillo 
Spring, one of the hatchery's two main springs. In fiscal year 2000, 
the hatchery was flooded again, killing 70,000 rainbow trout and 
burying Carrillo Spring again. The Service recognized that without 
correcting the above problems, future fish production would be tenuous 
as best and decided to terminate operations. The Mescalero Tribal 
Council has passed a resolution supporting our decision to suspend 
operations. The Service has met with the other tribes that receive fish 
from Mescalero NFH, and is working closely with them to find a viable 
solution to this problem.
    The Service is looking to replace the lost production at Mescalero 
by utilizing other National Fish Hatcheries.
    Question 22. Last year, Congress provided $400,000 to fund grants 
to states for the portion of the Great Lakes Fish and Wildlife 
Restoration Act. When this Subcommittee extended that Act two years 
ago, the Service stated that this was a priority and that your need was 
$3.5 million and $4.5 million for state grants. Why does the Service 
refuse to ask for funding increases for this program?
    Answer 22: The Service, the Great Lakes Fishery Commission, and the 
eight states in the Great Lakes have made progress in addressing the 
goals of the Great Lakes Fish and Wildlife Restoration Act and 
implementing the recommendations of the Great Lakes Fishery Resources 
Restoration Study. The Service has balanced this funding need against 
all other National funding priorities.
    In fiscal year 2000, the Service's Fisheries Program reported 
accomplishing 112 projects in seven of the eight Great Lake states 
totaling $3.5 million to restore fishery resources and combat invasive 
species. Since fiscal year 1998, the maximum amount that the Service 
has requested under its authority in the Great Lakes Fish and Wildlife 
Restoration Act is $1,278,000. The remaining funds are requested under 
other Service authorities. Beginning in fiscal year 1998, the Service 
has provided $75,000 each year to fund restoration grants, as shown in 
the table below. In fiscal year 2000 and fiscal year 2001, Congress 
provided an additional $400,000 under the restoration grant authority. 
The Service has maximized the use of available funds to finance 27 
recommended projects.
[GRAPHIC] [TIFF OMITTED] T2133.004

    Question 23. This Subcommittee was involved with passing the 
Fisheries Mitigation and Irrigation Partnership Act. Why did the 
Service fail to ask for new funds under the authorities of the new Act? 
If this is a priority for the Service, are you going to ask for funds 
in fiscal year 1903? If Congress appropriated funds for this Act, how 
would you spend the money?
    Answer 23: The Fisheries Restoration and Irrigation Mitigation Act 
was signed into law in November 2000, after unfunded operational needs 
were identified and prioritized in the Fisheries Operational Needs 
System (FONS) and after fiscal year 2002 budget development. The 
Service will identify regional priorities this summer. The priorities 
can be used in both fiscal year 2002 and fiscal year 2003, depending on 
availability of funding.
    If the additional funding were available, the Service would 
implement fish screening projects that provide major benefits in 
proportion to their costs and time requirements (table below). In 
partnership with state, tribal, and local governments, initial efforts 
would focus on known projects that can be undertaken without complex 
planning and engineering and using existing implementation processes. 
As the projects move forward, the Service would work with the Northwest 
states, tribes, and other partners to systematically identify other 
high priority projects by: (1) developing a regional inventory and a 
prioritization and review process; (2) entering into cooperative 
agreements with regional governments; (3) providing technical support; 
(4) implementing projects, and; (5) monitoring progress and 
accomplishments. Service administrative costs are limited to no more 
than six percent of the overall funding level of the program. The 
Service has not determined the direct costs for program implementation. 
Generally, the Service would use 75 percent of the funding for 
screening and passage facilities construction, equipment procurement, 
or modifications to existing structures. No more than 25 percent of 
available funds would be spent on coordination, planning and design.
[GRAPHIC] [TIFF OMITTED] T2133.005

    Question 24. The Service testified last year before this 
Subcommittee on the importance and continued need for restoring striped 
bass during the oversight hearing on the Striped Bass Act. Why does the 
Service fail to request full funding for this Act?
    Answer 24: The Atlantic Striped Bass Conservation Act authorizes a 
maximum amount of $250,000 for the Service. The Service's Fisheries 
Program utilizes a higher amount of general program funds to restore 
and manage striped bass. In fiscal year 2000, the Service reported 
accomplishing 23 anadromous striped bass projects in 7 states totaling 
$948,000 along the Atlantic Coast.
    The Service, the National Marine Fisheries Service, the Atlantic 
States Marine Fisheries Commission, and the Atlantic Coast States have 
restored most of the Atlantic coast striped bass stocks under the 
jurisdiction of the Atlantic Striped Bass Conservation Act. The Service 
will continue to work with our partners to help properly manage these 
stocks. In other places, striped bass stocks remain below restoration 
goals, and the Service will continue to participate in appropriate 
restoration efforts.
    Question 25. This Subcommittee intends to examine the Anadromous 
Fish Conservation Act. Please provide us with a detailed list of 
projects funded in the past and the amount of funding provided for 
these efforts.
    Answer 25: The Anadromous Fish Conservation Act authorizes the 
Secretaries of the Interior and Commerce to enter into cooperative 
agreements with states and other non-federal interests for the 
conservation, development, and enhancement of anadromous fish, 
including those in the Great Lakes, and to contribute up to 50 percent 
as the federal share of the cost of carrying out such agreements. The 
Act authorizes the Fish and Wildlife Service to conduct investigations, 
engineering and biological surveys, research, stream clearance, and 
construction, maintenance and operations of hatcheries and devices and 
structures for improving movement, feeding and spawning conditions.
    Enacted in 1965, the Act allowed the Fish and Wildlife Service to 
work with states and others to rebuild the nation's anadromous fish 
resources, which were then at extremely low levels. For example, 
through a coordinated program among the Service, other federal 
agencies, states, and private interests, the decline of Atlantic Coast 
striped bass was reversed and stocks were restored to self-sustaining 
status.
    Between 1966 and 1992, the Fish and Wildlife Service contributed 
nearly $55 million to fund over one thousand projects under the Act. 
The table below provides 23 examples, representative of projects funded 
through fiscal year 1991. However, no funds have been appropriated 
under the Act since 1992.
[GRAPHIC] [TIFF OMITTED] T2133.006

    Question 26. How is the Service fulfilling its responsibilities to 
assist State and Interstate Commissions in conserving coastal and 
anadromous fishery resources?
    Answer 26: The Service assists the Atlantic, Gulf, and Pacific 
States Marine Fisheries Commissions, which encompass 23 member states. 
In October 2000, the Atlantic and Gulf States Marine Fisheries 
Commissions approved a joint resolution recognizing Service 
contributions, including management assistance for coastal fisheries, 
cooperative conservation programs for anadromous species, conservation 
and enhancement of coastal fisheries habitat, and research to provide 
information for state and federal agencies to secure the public trust 
in coastal fishery resources. The resolution called for strengthening 
the Service's policies and programs that support the states.
    In compliance with the Atlantic Coastal Act, the Service supports 
the Atlantic States Marine Fisheries Commission (ASMFC) in collecting, 
managing, and analyzing fishery data; law enforcement; habitat 
conservation; fishery research; and fishery management planning. The 
Service has official representation on ASMFC's Policy Board, Management 
Boards, Technical Committees and Plan Review Teams. We assist ASMFC in 
planning and implementing the Atlantic States Cooperative Statistics 
Program. The Service's Fisheries Program also maintains the striped 
bass tagging database, which is relied upon by the ASMFC to manage the 
economically important striped bass fishery.
    The Service has three current Memoranda of Understanding with the 
Gulf States Marine Fisheries Commission (GSMFC), encompassing Federal 
Aid in Sport Fish Restoration administrative funding, co-location and 
administration support for the Service's Gulf Coast Fisheries 
Coordination Office, and a study on the restoration of striped bass in 
three Gulf of Mexico river systems. National Fish Hatcheries in the 
southeast and southwest produce Gulf striped bass in support of GSMFC 
restoration efforts. The Service participates in the development and 
implementation of the Fisheries Information Network (FIN) to improve 
the collection, management and dissemination of recreational and 
commercial fisheries statistics in the Gulf of Mexico and throughout 
the Southeast and Caribbean. GSMFC is an ex officio member of the 
national Aquatic Nuisance Species (ANS) Task Force, which Service co-
chairs, and is a member of the ANS Task Force's Gulf of Mexico Regional 
Panel, which addresses prevention and control of aquatic invasive 
species.
    The Pacific States Marine Fisheries Commission (PSMFC) is working 
to designate the Hanford Reach of the Columbia River as a Wild and 
Scenic River to be managed by the Service. The Service assists PSMFC in 
developing and maintaining a coordinated marking and mark recovery 
program for west coast salmon and steelhead populations. The Service 
provides financial support for the Regional Mark Processing Center, 
provides tag release and recovery information to the PSMFC Regional 
Mark Processing Committee, and serves as a Committee member. The 
Service participates in the development and implementation of the PSMFC 
Streamnet database to improve collection, management, and dissemination 
of fishery resource data for western and Pacific Coast states. The 
Service also works with the PSMFC to prevent the spread of invasive 
species through dissemination of outreach material.
    Activities of the Service's National Wildlife Refuge System, 
Partners for Fish and Wildlife Program, and Coastal Program support the 
Commissions'' plans through habitat protection and restoration. Under 
the Lacey Act and the Endangered Species Act, Service Law Enforcement 
personnel routinely assist states in protecting various anadromous fish 
and mollusk species. They work on task forces with the states and 
National Marine Fisheries Service agents to protect both saltwater and 
freshwater species around the country. The Service also provides 
funding from the Sport Fish Restoration Fund to state marine fishery 
agencies to support restoration of recreational fisheries, many of 
which are also harvested commercially. Each Commission receives 
$200,000 annually in Sport Fish Restoration Funds. Additionally, the 
PSMFC received $200,000 to support the Regional Mark Processing Center 
and $200,000 to manage the Hanford Reach of the Columbia River as a 
Wild and Scenic River.
    Question 27. What is the outlook for restoring lake trout in the 
Great Lakes in view of the 2000 Consent Decree in the treaty rights 
litigation U.S. v Michigan and the Service's request for increased 
funding to implement the Decree?
    Answer 27: The outlook is very optimistic, provided the parties to 
the consent decree are able to match their intentions with solid 
funding commitments. The August, 2000 Consent Decree provides an 
unprecedented opportunity to advance lake trout restoration in Lake 
Michigan and Lake Huron and to maintain success achieved in eastern 
Lake Superior. For decades, efforts to restore lake trout have been 
impeded by uncoordinated harvest management and controversy between 
anglers and tribal treaty fishers, as well as exotic species and the 
degraded environment of the Great Lakes. The 20-year Consent Decree 
makes lake trout restoration a joint focus of tribal governments and 
the State of Michigan, who share the harvest and management of 
fisheries in 19,000 square miles of treaty waters. Public support for 
lake trout restoration has never been greater. The Michigan United 
Conservation Clubs, representing 500 affiliated clubs and nearly 
100,000 members, participated in negotiations leading to the Decree and 
expressed strong support for the settlement, especially the priority 
placed on lake trout restoration.
    Successful implementation will depend on efforts by all parties to 
the settlement. The tribes and State of Michigan are required to 
closely manage lake trout harvest. The Fish and Wildlife Service is 
responsible for assessing lake trout populations, monitoring fisheries, 
providing third party technical consultation and advice, and expanding 
annual lake trout production by about one million yearlings. The 
Service's National Fish Hatcheries have reared and stocked over 15 
million quality lake trout yearlings into restoration zones during the 
past five years, a strategy that has proved successful in restoration 
of lake trout in Lake Superior. Stocked lake trout in restoration zones 
of Lake Huron and Lake Michigan are nearing abundance levels where 
reproduction could begin on historically important spawning reefs. The 
Decree also recognizes the need for effective control of the parasitic 
sea lamprey, especially in the St. Mary's River, where newly developed 
control methods have markedly reduced lake trout mortality. Parties to 
the Consent Decree also agree that research is needed to identify other 
factors limiting lake trout reproduction.
    The President's fiscal year 2002 Budget Request includes $1.2 
million for the Great Lakes Consent Decree. Funds will be administered 
through the Fisheries Program and will allow the Service to comply with 
the objectives outlined in the Consent Decree. Funding for the Hatchery 
system will enhance the lake trout rehabilitation program by increasing 
propagation and hatchery product evaluation in order to meet aggressive 
production goals for restoration of native lake trout. Funding for the 
Management Assistance Program will support stock assessment, lake trout 
stocking and biological and management assistance to tribal and state 
partners. In addition, the fiscal year 2002 construction request 
includes $940,000: $200,000 for the planning and design phase to 
replace the M/V Togue lake trout stocking vessel and $740,000 for Iron 
River NFH to replace the domes at the Schacte Creek with a structurally 
supported building. Full follow-on funding to complete these projects 
is included in the five-year plan: $2.46 million for Iron River NFH in 
fiscal year 2003 and $4.3 million in fiscal year 2004 for replacing the 
M/V Togue. This will provide a total of $7.7 million in construction.
    Question 28. What are the prospects for recovery of listed fish 
species that have been the subject of long-term recovery efforts such 
as Apache trout, Gila trout and greenback cutthroat trout?
    Answer 28: Prospects for recovery of the Apache trout, Gila trout, 
and greenback cutthroat trout are excellent. Due to the long-term 
recovery efforts, these species are on the brink of de-listing or down-
listing. Coordinated recovery actions, including habitat restoration, 
removal of non-natives, and establishment of new populations through 
captive propagation have proven to be an effective formula for 
successful recovery of healthy, self-sustaining wild populations. 
Continued progress towards recovery, however, depends upon continued 
support and funding for recovery activities.
    The Gila trout Recovery Team has recently recommended down-listing 
the Gila trout from endangered to threatened, and the Service expects 
to propose this action in late 2001. Recovery goals, including 
protecting and replicating the four known non-hybridized lineages, have 
been met. Habitat destruction and interbreeding with non-native rainbow 
trout, the main causes of the decline, have been remedied through 
removal of non-natives, construction of stream barriers to exclude non-
natives, and the ``seeding'' of genetically appropriate new populations 
through captive propagation. Moving fish into ``emergency refugia,'' 
has also been important in the recovery process, thereby saving remnant 
or newly replicated populations from catastrophic conditions and 
speeding recovery. Criteria for de-listing have been developed as part 
of the revised recovery plan.
    A proposal to de-list the Apache trout is expected by December 
2003. Recovery of the species requires replication of at least 13 
lineages, comprising 30 populations. To date, five lineages have been 
replicated and 24 populations have been established. Eight populations 
remain to be replicated, along with the construction of five stream 
barriers (21 are now in place), which will result in 32 self-sustaining 
populations. The Fish & Wildlife Service, Forest Service, State of 
Arizona, and White Mountain Apache Tribe have made great strides toward 
the removal of threats (non-native trout and habitat destruction) and 
the de-listing of the Apache trout.
    The greenback cutthroat trout is within two populations of the 
recovery criterion of 20 stable reproducing populations. Eighteen 
populations have been established, representing the Arkansas River and 
South Platte River drainages. Removal of non-native fish and 
introduction of captive propagated fish have been key to progress 
towards recovery. It is expected to take approximately five years to 
establish and document long-term persistence of the two remaining 
populations. A coordinated, long range management plan and cooperative 
agreement must also be completed prior to de-listing. Competition and 
interbreeding with non-native brook and brown trout were the primary 
factors in the decline of the species.
    Question 29. Why is the Refuge Program trying to ban tournament 
fishing from all National Wildlife Refuges and recreational fishing 
from other units?
    Answer 29: The Service is not trying to ban tournament fishing from 
all National Wildlife Refuges and recreational fishing from other 
units. We published the proposed Recreational Fishing chapter (605 FW 
3.1) and several other chapters relating to Refuge System management in 
the Federal Register on January 16, 2001. Section 3.13(I) of the 
proposal states that tournament fishing would be allowed if the ``event 
builds appreciation for and an understanding of fish and wildlife 
resources, does not reasonably interfere with other refuge visitors, 
and if prizes of only nominal value are awarded.'' Similar wording was 
used in the proposed Appropriate Uses Chapter (603 FW 1) published for 
comment at the same time.
    The Service has received substantial comment on the proposed 
change. We will review all comments and will make necessary changes to 
the policy to ensure it provides the best possible guidance to our 
managers. The Service has already entered into discussions with major 
fishing organizations, including those which support tournaments, in 
order to craft a revision which will meet the need fishing public and 
sound refuge management.
    The Service continues to strongly support recreational fishing as 
an appropriate and wholesome form of outdoor recreation. Over 300 
National Wildlife Refuges are open to fishing, and that number 
increases each year. The Refuge System offers visitors some of the 
greatest opportunities available to get out and go fishing and our 
policy will ensure that tradition continues.
    Question 30. Describe the goals of the Landowner Incentive Program? 
When will authorizing legislation be submitted to Congress?
    Answer 30: The new $50 million Landowner Incentive Program under 
the Land and Water Conservation Fund will increase the capability of 
states, the District of Columbia, territories, and tribes to provide 
technical and financial assistance to private landowners through the 
establishment of a matching grants program. This assistance will 
establish or supplement existing landowner incentives programs to 
protect and manage habitat for federally listed, proposed, or candidate 
species, or other at-risk species, while continuing to engage in 
traditional land use practices.
    The President's budget included appropriations language to provide 
authority for the appropriation of funds for these programs, but we 
look forward to working with the authorizing Committees to fully 
develop this program in future years.
    Question 31. Describe the intent of the Private Stewardship Grant 
Program? Isn't this a new unauthorized program?
    Answer 31: The purpose of the Private Stewardship Grant Program is 
to establish a nationally competitive grants process that will provide 
funding and other assistance to individuals and groups engaged in 
private conservation efforts that benefit federally listed, proposed, 
or candidate species, or other at-risk species. The President's budget 
includes recommended language to provide authority for the 
appropriation of funds for this program. Again, however, look forward 
to working with you to fully develop this program in future years.
    Question 32. How many acres will be conserved in fiscal year 1902 
under the North American Wetlands Conservation Act?
    Answer 32: The fiscal year 2002 request for the North American 
Wetlands Conservation Act is $14,912,000. These funds will benefit an 
estimated 409,000 acres.
    Question 33. What is the rationale for the huge increase in the 
amount of excise taxes that will be allocated to the Sport Fish 
Restoration Account in fiscal year 1902?
    Answer 33: The large difference that exists between the Sport Fish 
Restoration (SFR) interest of $41.884 million in Fiscal Year 2000 and 
the revised interest estimate of $83 million (The fiscal year 2001 
interest estimate has recently been revised from $88 million to $83 
million to more accurately reflect the lower yields caused by declining 
interest rates.) in Fiscal Year 2001 for the following two reasons:
    1. LSome investments matured on Saturday, September 30, 2000, the 
last day of fiscal year 2000. This timing meant the interest earned 
from these investments could not be credited to the SFR Account until 
the next business day, Monday, October 2, 2000 which falls in fiscal 
year 2001. Since interest earned is treated using the cash basis method 
and not the accrual method of accounting, approximately $18 million in 
interest was not credited until Fiscal Year 2001. This caused a 
decrease in the fiscal year 2000 interest amount while increasing the 
fiscal year 2001 interest amount. If this had not occurred, the 
interest earned in fiscal year 2000 would have been $59.828 million.
    2. LFor fiscal year 2001, approximately $1.0 billion of SFR funds 
will be invested through the Aquatic Resource Trust Fund. The 
investment term, developed in coordination with Service partners 
involved in SFR funds management, is expected to yield approximately 
$65 million in interest for fiscal year 2001. This amount plus the $18 
million which accrued in fiscal year 2000 and was credited to fiscal 
year 2001 totals the interest estimate of $83 million. Thus, if the $18 
million had not been credited to fiscal year 2001, the fiscal year 2001 
interest estimate of $65 million would have been approximately $5 
million higher than the amount earned in fiscal year 2000 ($59.828 
million).
    Question 34. When will an Assistant Director be named for the 
Federal Aid Program as required by the Wildlife and Sport Fish 
Restoration Program Improvement Act of 2000?
    Answer 34: An Assistant Director for Migratory Birds and State 
Programs was established and filled by the Director in July, 2000, 
prior to enactment of the new Federal Aid legislation. This Assistant 
Director is responsible for the administration, management, and 
oversight of the Federal Assistance Program for State Wildlife and 
Sport Fish Restoration for the U.S. Fish and Wildlife Service.
    Question 35. When will the Department allocate the Multi-state 
Conservation Grant money to the states for the current fiscal year?
    Answer 35: As directed by the Fish and Wildlife Programs 
Improvement Act of 2000, the International Association of Fish and 
Wildlife Agencies delivered a list of projects for funding under the 
Multi-state Conservation Grant Program. The Service Director approved 
the list of projects and the Division of Federal Aid obtained the 
information necessary to process the grants from the recipients. The 
Division of Federal Aid then completed processing the 14 project 
grants. Federal Aid has finalized the grant agreements and made 
available the proper funding for electronic transfer of funds to the 
recipients using the Department of Health and Human Service's Smartlink 
processing software in their Payment Management System. The Division of 
Federal Aid is working with each recipient to implement each grant.
    Question 36. What is the status of the additional $7.5 million that 
was authorized in fiscal year 1901 for Firearm and Bow Hunter Education 
and Safety Program grants?
    Answer 36: The funds were apportioned to the states, commonwealths, 
and Territories as defined in the Act and are now available for 
obligation to Hunter Education Program grants.
    In concert with states, non-governmental organizations, and Federal 
Aid staff, the Service developed interim policy for the use of these 
funds. A set of questions and answers was developed to deal with the 
complex issues brought up by use of these funds. The policy addresses 
appropriate use, obligations, deobligations, and reapportionment of 
these funds in future years. We plan to see how this policy resolves 
issues this year and, under the direction of a confirmed Service 
Director, develop permanent policy in the form of changes to the 
appropriate FWS Manual chapter next year.
    Question 37. What type of projects are likely to be initially 
approved under the Great Ape Conservation Fund?
    Answer 37: The Service has received more than 50 proposals for 
great ape conservation projects under the Great Ape Conservation Fund. 
Priority consideration will be given to those proposals that enhance 
the conservation of great apes by addressing human-great ape conflict; 
strengthening compliance with CITES or other applicable laws; 
implementing conservation education; and developing sound scientific 
information on, or methods for monitoring great ape habitat, 
populations and trends, or current and projected threats to habitat or 
populations. The Service recently awarded its first grant under this 
Fund for orangutan conservation in Gunung Palulng National Park, 
Indonesia. This grant will provide assistant to establish conservation 
education programs and build capacity of local community and government 
staff to protect the park from illegal logging and hunting.
    Question 38. Why did the Administration not request any funding for 
the Neotropical Migratory Bird Conservation Account?
    Answer 38: The President's fiscal year 2002 budget request provides 
adequate funding, given the overall priorities and resources available, 
to fund the highest priority projects that qualify for funding under 
the Multinational Species Conservation Funds.
    Question 39. What is the status of the proposed regulations on 
Light Geese, Double-Crested Cormorants and Resident Canada Geese?
    Answer 39-1 (Light Geese): The Service is preparing an 
Environmental Impact Statement (EIS) to consider the effects of a range 
of long-term solutions to the impacts of light goose over-population on 
the human environment. Light geese include greater snow geese, lesser 
snow geese, and Ross' geese. In May 1999, the Service announced its 
intent to prepare an EIS on light goose management. The public scoping 
phase was completed in November 1999 and a draft EIS was made available 
for public review and comment in October 2001. Following review of the 
public's comments, a final EIS document will be completed in 2002.
    Answer 39-2 (Double-crested Cormorants): In dealing with cormorant 
conflicts, the Service cooperates with state agencies, private 
individuals, and USDA's Wildlife Services program to implement 
appropriate control measures where warranted. The Service has released 
for public comment a draft EIS that: (1) evaluates the extent of 
cormorant impacts to fisheries and other natural resources; (2) 
analyzes the environmental effects of alternative management actions; 
and, (3) re-examines current cormorant depredation policy. After 
publishing a notice of intent announcing the EIS in the Federal 
Register in November 1999, the Service held public scoping meetings at 
12 locations around the country that generated more than 1,400 comments 
regarding issues and concerns related to cormorant management. 
Following public review and comment, a final EIS document will be 
completed in the Spring of 2002.
    Answer 39-3 (Resident Canada Geese): A draft EIS and proposed rule 
will be available for public review in late July, 2001. Following 
public review and comment, a final EIS document will be completed in 
December, 2001. Canada geese that nest and reside predominantly within 
the U.S. have increased exponentially and are increasingly coming into 
conflict with human activities. Overall, complaints related to personal 
and public property, agricultural damage, concerns related to human 
health and safety, and other public conflicts are increasing. New and 
innovative approaches and strategies for dealing with bird/human 
conflicts will be needed because of the unique locations where these 
geese nest, feed, and reside. The Service, with the full assistance and 
cooperation of the Flyway Councils and Animal and Plant Health 
Inspection Service/Wildlife Services (APHIS/WS), will develop a long-
term strategy for the management of these birds. The result of this 
approach should provide states with more management flexibility and 
authority to deal with resident Canada geese while increasing the 
commitment to establish population goals and objectives, management 
planning, and population monitoring.
    Question 40. Does the Service anticipate any additional auctions of 
surplus products from the National Wildlife Property Repository in 
Denver in fiscal year 2002?
    Answer 40: No. The Service does not plan to auction any surplus 
wildlife products from the National Wildlife Property Repository in 
fiscal year 2002. The items auctioned in 1999 represented a 10-year 
accumulation of common commercial products, such as boots and belts, 
that were made from species that could lawfully be sold and that were 
not needed or appropriate for conservation education.
    Question 41. On May 5, 1999, a group of Americans living outside of 
Chicago, Illinois, were ``raided'' by special agents of the U.S. Fish 
and Wildlife Service for alleged violations of U.S. wildlife laws. At 
this point, nearly two years later, no one has been indicted in this 
case. However, two of those Americans who were ``raided'' killed 
themselves. Several of those Americans allege that their constitutional 
rights were denied. For example, search warrants apparently were not 
served, legal representation was denied and personal property, 
including phone logs and unrelated wildlife trophies, were removed and 
have not been returned. What is the status of this case? What is the 
truth about these allegations and what steps are taken to ensure that 
the rights of all Americans are protected? Why was it necessary to 
conduct this raid at 6:30 in the morning? Is it normal procedure to 
retain citizens incommunicado in their homes, while law enforcement 
agents search for alleged wildlife violations? Is it legal to harvest 
captive bred lions and generic tigers which are not protected under the 
Endangered Species Act? If it is illegal, then please cite the 
appropriate legislative statues that prohibit the harvest of these 
animals.
    Answer 41: We recently received complaints concerning the execution 
of a search warrant by Service special agents at a location near 
Chicago, Illinois, on May 5, 1999. The Service found nothing to 
substantiate any of the allegations of misconduct made against our 
agents. We are, however, cooperating fully with the Department of the 
Interior Office of Inspector General (OIG), which is conducting an 
independent investigation into the complaints concerning this search.
    At the request of the Assistant U.S. Attorney handling the 
prosecution of the Chicago subjects investigated by the Service for 
wildlife violations, the OIG has delayed its administrative 
investigation into the allegations of misconduct until completion of 
the criminal proceedings. No information is thus available from the OIG 
review, and we cannot comment further on any of the specific 
allegations made by the complainants.
    The search in question was conducted in connection with a Service 
investigation into the illegal take and commercialization of endangered 
species, primarily big cats including tigers, leopards, and jaguars. 
That investigation also remains open at this time. Evidence compiled by 
Service special agents has been submitted to various U.S. Attorney's 
offices. One individual in western Michigan has been found guilty of a 
felony Lacey Act violation related to the sale of three tiger skins, 
and prosecution efforts are underway in several other judicial 
districts.
    The major U.S. wildlife laws enforced by the Service, including the 
Endangered Species Act, authorize Service officers to obtain and serve 
search warrants in the process of investigating possible wildlife 
violations. To obtain a search warrant, officers must show a federal 
judge or U.S. magistrate that there is probable cause to believe that 
evidence of a violation of federal law will be found at the premises. A 
federal search warrant describes the objects that officers may search 
for and seize; property not described in the warrant may also be seized 
if it constitutes evidence of other illegal activity.
    Unless otherwise directed by the issuing judge or magistrate, 
federal search warrants may be served anytime between 6 a.m. and 10 
p.m. Search warrants are often served in the morning to increase the 
likelihood that the search can be completed during daytime hours and 
that someone occupying the premises will be present and aware of the 
search. Individuals present during the execution of a search warrant 
may freely leave the premises.
    Tigers are listed as endangered under the Endangered Species Act at 
the species level. All tigers, including those commonly referred to as 
``generic,'' are thus protected under this law, which generally 
prohibits the killing of listed animals, even if they were bred in 
captivity. Although the Service has relaxed registration requirements 
for those breeding generic tigers, take of these and other protected 
captive-bred animals is only permissible if it enhances the propagation 
or survival of the species. While euthanizing an ill or aged animal 
would be legal, hunting generic tigers or ``harvesting'' them for the 
subsequent interstate or international sale of their skins or parts is 
a violation of the Endangered Species Act.
    African lions are not protected under the Endangered Species Act. 
These big cats are, however, regulated under the Animal Welfare Act, a 
federal law administered by the U.S. Department of Agriculture. State 
or local statutes may also regulate the possession and treatment of 
lions, including specimens bred in captivity.
    Question 42. In the Consolidated Appropriations Act of 2000, the 
Department of the Interior received $50 million to distribute to the 
States for non-game grants. What is the status of those grants?
    Answer 42: The fiscal year 2001Commerce, Justice, State and Related 
Agencies Appropriation Act (Public Law 106-553), provided $50 million 
to fund states, wildlife conservation, wildlife conservation education, 
and wildlife-associated recreation projects, with a focus on species 
with the greatest conservation need. The Act created a subaccount under 
the Federal Aid in Wildlife Restoration Act for a Wildlife Conservation 
and Restoration Program (WCRP), a formula-based apportionment to the 56 
states and territories. There has been considerable communication and 
cooperation among the Service, the states, and the International 
Association of Fish and Wildlife Agencies during the implementation of 
this new Program.
    One new requirement established by the Act was for states to submit 
a Comprehensive Plan (Plan) for approval prior to being eligible to 
receive grants under the Act. Of the 56 states and territories, 29 had 
submitted their Plans by April 16, and all but one had submitted their 
Plans by May 2. Submission of a Plan by a state constitutes a 
commitment to develop and begin implementing, within 5 years, a 
Wildlife Conservation Strategy that will facilitate the identification 
of the state's greatest wildlife conservation needs. Each Plan must 
substantiate the authority and capability of the state to implement the 
WCRP and indicate public input and participation.
    The Service has facilitated the delivery of these new funds to the 
states through three significant actions. It has: (1) developed and 
distributed WCRP implementation guidelines that make program 
requirements and planning clearer, (2) sponsored three regional 
workshops in cooperation with and for state and regional Federal Aid 
partners to promote implementation, and (3) established a WCRP Plan 
Eligibility Determination Team (with Federal and State members), which 
has met three times and forwarded recommendations to the Director to 
approve 51 of the 55 Comp Plans submitted to date.
    The Team anticipates completion of its review and recommendations 
for all 56 state and territory WCRP Comp Plans by the end of June 2001. 
Two states have already submitted grants for specific projects to 
Service Federal Aid Regional Offices.
    Question 43. The Act also required that the $50 million be invested 
and that the interest on that investment be made available to the North 
American Wetlands Office for the purchase of critical habitat. Were 
those funds invested? How were they invested----- daily securities or 
monthly securities? How much interest money was obtained from this 
investment?
    Answer 43: The funding appropriated for Wildlife Conservation and 
Restoration was invested on March 21, 2001. The funds are invested in a 
combination of Treasury one-day and monthly securities. As of April 30, 
2001, $216,696 is interest had been earned. As of May 31, 2001, the 
estimated earnings from these investments will be approximately 
$396,000.
    Question 44. The Wild Bird Conservation Act was passed in 1992 to 
stem the trade in wild-caught birds perceived as unsustainable by the 
Congress. The Act set about to regulate the import of wild birds into 
the United States by prohibiting unsustainable import. The law provided 
that exceptions could be made through the issuance of permits for 
personal pets, zoological display, scientific research and for 
cooperative breeding programs. Congress also mandated that the Act be 
implemented in such a manner as to assist wild bird conservation and 
management programs in foreign countries, and encourage and promote 
captive breeding in the United States. Regulations for permits were 
finalized in 1993, but aviculturists have complained that the permit 
process, under which Congress had intended to allow birds clubs and 
groups to import birds for cooperative breeding projects, was not 
working as promised, and target times of 60-90 days for approval were 
not being met. Also a problem was the Service's tardiness in completing 
regulation allowing imports of birds from foreign captive breeding 
facilities, and for birds sustainably harvested from the wild. In 
September 1995 a hearing was held by this Subcommittee to address these 
and other problems in the WBCA implementation.
    At that hearing, Mr. Marshall Jones, then Deputy Director for 
International Affairs for the USFWS, testified that regulation for 
imports of sustainably taken birds from foreign countries was to be 
implemented by the end of the year. He further testified that the 
regulations providing for approval of foreign captive breeding 
facilities would be finalized by ``early next year''. Please clarify 
for the Subcommittee the following questions:
    Question 44-1. When were these final rules published? If they were 
not published in the time frames projected by Mr. Marshall Jones, why 
not?
    Answer 44-1: The regulations for approving sustainable-use 
management plans under the WBCA, which would allow the import of wild-
caught birds sustainably taken in foreign countries, were published in 
final form on January 24, 1996. The regulations for approving foreign 
captive-breeding facilities are still pending, and under review by the 
Department.
    Question 44-2. How many ``sustainably taken'' birds have been 
imported into the United States since the oversight hearing was held in 
September of 1995?
    Answer 44-2: To date, we have only received one completed 
application to develop a sustainable use management plan for an exotic 
species within a range State. The Service obtained public comment on 
the application and is currently finalizing a proposed rule on the 
Argentina sustainable use management plan for blue-fronted amazon 
parrots (Amazona aestiva). Approval of this program will result in the 
first import of wild ``sustainably taken'' birds permitted under this 
program.
    Question 44-3. How many foreign captive breeding facilities have 
been approved under the WBCA?
    Answer 44-3: No foreign captive-breeding facilities have been 
approved because the regulations for this activity are still pending 
(see response to 1).
    Question 44-4. How many cooperative breeding group applications 
have been submitted since 1993? Please list those that have been 
approved. Please list those that have been denied. Please list the 
times required for a decision to be made on each application submitted, 
and the time required for each first import to be made under permit?
    Answer 44-4: The Service has received 26 complete applications for 
cooperative breeding programs since 1993. Following are the currently 
approved cooperative breeding programs:
    <bullet> LThe Peregrine Fund, Inc (CB003); Species: harpy eagle.
    <bullet> LDan L. Pike (CB004); Species: European sparrowhawk, 
European goshawk, red-napped shaheen, two non-native subspecies of 
Aplomado falcon.
    <bullet> LNorthern Plains Breeding Co-op(CB005); Species: European 
goshawk, European sparrowhawk, Spanish peregrine falcon, European 
peregrine falcon, Australian peregrine falcon, South American peregrine 
falcon.
    <bullet> LToucan Preservation Center (CB006); Species: keel-billed 
toucan, red-breasted toucan, saffron toucanet, chestnut-eared aracari, 
spot-billed toucanet, ariel toucan, channel-billed toucan, toco toucan.
    <bullet> LHill Country Aviaries, L.L.C. (CB009); Species: fiery-
shouldered conure, Hoffman's conure, white-eared conure, green-cheeked 
conure, blue mutation, pearly conure, crimson-bellied conure painted 
conure, and rose-crowned conure.
    <bullet> LAFA Red Siskin Recovery Project (CB012); Species: red 
siskin.
    <bullet> LThe Lory and Hanging Parrot Breeding Consortium (CB013); 
Species: Papuan lory, fairy lorikeet, whiskered lorikeet, Duyvenbode's 
lory, Philippine hanging parrot.
    <bullet> LNorthern Kentucky Falconers Association Breeding 
Cooperative (CB014); Species: saker falcon, sooty falcon, red-headed 
falcon, Bonelli's eagle, greater spotted eagle.
    <bullet> LSolomon Islands Consortium (CB016); Species: cardinal 
lory, yellow-bibbed lory, coconut (massena's) lorikeet, palm lorikeet, 
duchess lorikeet, Ducorp's cockatoo.
    <bullet> LMonk Parakeet Breeding Consortium (CB017); Species: Monk, 
or Quaker parakeet (captive-bred specimens only).
    <bullet> LCooperative Breeding Program for Gracula religiosa 
(CB018); Species: Javan hill mynah, Sumatran hill mynah, greater Indian 
hill mynah.
    <bullet> LTuraco Cooperative Breeding Program (CB019); Species: 
great blue turaco, grey plantain-eater, Ross's plantain-eater, 
violacous plantain-eater, red-crested turaco, Fischer's turaco, 
Hartlaub's turaco, white-cheeked turaco, white-crested turaco, 
Livingston's turaco, green-crested turaco, violet-crested turaco, 
Schalow's turaco.
    <bullet> LUtah Falconers Cooperative Breeding Program (CB020); 
Species: European goshawk, European sparrowhawk, black sparrowhawk, 
English peregrine, Cassini peregrine, black shaheen, saker falcon, red-
headed falcon.
    <bullet> LCoastal Carolina Conure Breeding Program (CB022); 
Species: fiery-shouldered conure, rose-crowned conure, rose-fronted 
conure.
    <bullet> LCardinal Cooperative Breeding Program (CB023); Species: 
red-crested cardinal, yellow-billed cardinal.
    <bullet> LCrowned Pigeon Cooperative Breeding Program (CB024); 
Species: blue crowned pigeon, lesser blue crowned pigeon, Scheepmaker's 
crowned pigeon, Sclater's crowned pigeon, Victoria crowned pigeon, 
Beccari crowned pigeon.
    <bullet> LFig Parrot Consortium (CB025); Species: orange-breasted 
fig parrot, double-eyed fig parrot, Desmarest's fig parrot, Edwards'' 
fig parrot, Salvadori's fig parrot.
    <bullet> LBlue Headed Macaw Cooperative Breeding Program (CB026); 
Species: blue-headed macaw.
    <bullet> LLove Bird Cooperative Breeding Program (CB028);Species: 
Abyssinian lovebird, black-cheeked lovebird, Madagascar lovebird, nyasa 
lovebird, red-faced lovebird.
    <bullet> LCut-throat Finch, North American Cooperative Breeding 
Program (CB029); Species: East African Cut-throat Finch, color 
mutations.
    The following cooperative breeding program applications were 
denied:
    <bullet> LWorld Center for Exotic Birds (CB001); Species: various 
species of parrots, raptors and miscellaneous non-endangered species.
    <bullet> LWilliam A. McClure (CB002); Species: yellow-crowned 
amazon parrot.
    <bullet> LInternational Aviculturists Society (CB007): Species: 
hyacinth macaw.
    <bullet> LJerry Blocker (CB011); Species: Eurasian eagle owl, 
Lanner falcon, saker falcon, tawny eagle.
    <bullet> LRichard Cusick (CB021); Species: green-cheeked conure 
(blue mutation), painted conure, rose-crowned conure, blue-throated 
conure.
    <bullet> LCOM USA, Inc. (CB027); Species: red siskin.
    We received the first cooperative breeding program application in 
February 1994. The applicant requested approval for a cooperative 
breeding program to include various parrot and raptor species as well 
as several non-endangered species. We corresponded with the applicant 
for over a year in order to obtain the necessary information to 
complete the application. We required approximately six months to make 
a determination on that completed application. In reviewing an 
application, we must publish a Federal Register notice and open a 30-
day comment period. In many cases we must also consult with the range 
state(s) for the species - often a prolonged process. The approval 
process for cooperative breeding programs has been a learning 
experience, and reviewing an application has often required more time 
than we would have liked. The process is, however, improving. For the 
three applications received in 2000, one applicant required three and a 
half months to provide adequate information to complete the application 
and two of the applications were complete upon receipt. We required 
almost five months to make a determination on one of these applications 
and the other two took our office approximately two months each. We 
feel confident that the timely review of future cooperative breeding 
program applications will continue.
    Once a cooperative breeding program is approved, members of the 
program must submit an application for the actual importation of birds. 
Of the 20 programs that have been approved, only 15 have requested and 
received permits to import birds. For the first import application from 
an approved cooperative breeding program, the permits are issued on 
average within 45 days.
    Question 44-5. Please list all funds collected from fines and 
penalties under the WBCA. Please indicate the amounts from these fines 
which were allocated to the Wild Bird Conservation Fund, as directed by 
the Congress. Please list the disposition of any funds from these 
sources which were not turned over to the Wild Bird Conservation Fund.
    Answer 44-5: The Service has collected $7,450 in fines and $1,600 
in penalties specifically under the authority of Section 114 of the 
Wild Bird Conservation Act (WBCA). Funds of $200 were allocated to the 
Special Victim Witness Fund and $250 was allocated to the Lacey Act 
Reward Account. The remainder of these funds was allocated to the 
General Treasury and tracked internally as collected under the WBCA 
since the Wild Bird Conservation Fund has not yet been established. 
Once the fund is established, we are committed to working with Treasury 
to transfer the funds. Because the WBCA does not have any provisions 
for forfeiture of wildlife or associated property, most violations are 
charged under other statutes such as the Endangered Species Act and the 
Lacey Act. Fines for violations of these two Acts are deposited into 
another account used by the Service for the care and handling of seized 
and forfeited wildlife. Fines and penalties under the WBCA, therefore, 
are limited.
    Since January 1995, the Service has collected $6,000 in fines and 
$60,910 in penalties under the Endangered Species Act for violations 
involving live birds subject to the WBCA. The Service collected $600 in 
fines and $5,750 in penalties under the Lacey Act for violations 
involving live birds subject to the WBCA. The Service collected $400 in 
fines and $1,800 in penalties under the Migratory Bird Treaty Act for 
violations involving birds subject to the WBCA, and $1,392 in penalties 
for violations under other federal and state laws involving birds 
subject to the WBCA. In order to determine if any of these fines or 
penalties should be deposited into the Wild Bird Conservation Fund once 
it is established, we would be required to conduct a detailed review of 
each case.
    Question 44-6. Please list the bird conservation and management 
projects the USFWS has supported in range countries, the name and 
address of the project manager, and all sums expended thereunder, or 
assistance of any kind provided.
    Answer 44-6: Although the Service has not funded any projects under 
the Wild Bird Conservation Fund, our Winged Ambassadors initiative has 
more than 18 years of cooperative projects for conserving migratory 
birds throughout Latin America and the Caribbean. This initiative comes 
under the auspices of the Convention on Nature Protection and Wildlife 
Preservation in the Western Hemisphere. Under the Winged Ambassadors 
initiative, the Service has worked with over a dozen Caribbean Islands 
to develop local pride in native and migratory birds, conduct outreach 
campaigns, and conserve vulnerable species, such as the West Indian 
whistling duck and a number of endemic parrots. It has assisted in 
Mexico to develop self-sustaining eco-tourism enterprises in rural 
communities and is active in South America to reverse the intensive 
destruction of North American migratory species such as osprey, 
Swainson's hawk, Dick Cissel, the latter species being slaughtered by 
the hundreds of thousand each year on its wintering grounds.
    Question 44-7. Please list the amounts of money the Administration 
has requested each year since 1992 for implementation of the Wild Bird 
Conservation Act?
    Answer 44-7: The Service received an allocation of $500,000 in 
fiscal year 1993 for implementation of the WBCA. That increase was 
subsequently included in the base funding for the International 
Wildlife Trade subactivity and serves as the funding necessary to 
continue to implement the WBCA. No funds have been requested for the 
grant component of the WBCA.

                                   - 

</pre></body></html>
